<html>
<title> - FLORIDA EVERGLADES RESTORATION: WHAT ARE THE PRIORITIES?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
       FLORIDA EVERGLADES RESTORATION: WHAT ARE THE PRIORITIES?

=======================================================================

                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, November 3, 2011

                               __________

                           Serial No. 112-79

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      




                  U.S. GOVERNMENT PRINTING OFFICE
71-117                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d2b5a2bd92b1a7a1a6bab7bea2fcb1bdbffc">[email&#160;protected]</a>  


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
     GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democrat Member

Don Young, AK                        Eni F.H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Pedro R. Pierluisi, PR
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD                      Vacancy
Jeffrey M. Landry, LA                Edward J. Markey, MA, ex officio
Jon Runyan, NJ
Doc Hastings, WA, ex officio

                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, November 3, 2011.......................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     2
    Hanabusa, Hon. Colleen W., a Representative in Congress from 
      the State of Hawaii........................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Dantzler, Rick, Co-Chairman, Northern Everglades Alliance....    38
        Prepared statement of....................................    40
    Darcy, Hon. Jo-Ellen, Assistant Secretary of the Army (Civil 
      Works), U.S. Department of Defense.........................     6
        Prepared statement of....................................     7
    Draper, Eric, Executive Director, Audubon of Florida.........    42
        Prepared statement of....................................    44
    Gutierrez, Jorge P., Jr., President, Everglades Coordinating 
      Council....................................................    55
        Prepared statement of....................................    57
    Horn, Hon. William P., Past Member, National Academy of 
      Sciences' Committee on Independent Scientific Review of 
      Everglades Restoration Progress............................    34
        Prepared statement of....................................    35
    Jacobson, Hon. Rachel, Acting Assistant Secretary for Fish 
      and Wildlife and Parks, U.S. Department of the Interior....    11
        Prepared statement of....................................    13
    Wright, Bishop M., Jr., President, Florida Airboat 
      Association Inc............................................    51
        Prepared statement of....................................    52

Additional materials supplied:
    Adams, Michael L., Letter submitted for the record...........    85
    Billie, Colley, Miccosukee Tribe of Indians of Florida, 
      Statement submitted for the record.........................    77
    Gotshall, Richard, SCI Regional Representative 29, Safari 
      Club International, Letter submitted for the record........    76
    Hastings, Hon. Alcee L., a Representative in Congress from 
      the State of Florida, Statement submitted for the record...    81
    The Kenneth Kirchman Foundation, Letter and map submitted for 
      the record.................................................    83
    Lee County Department of Community Development, Robert 
      Stewart, Building Official, Lee County, Florida, Letter 
      submitted for the record...................................    82
    The Nature Conservancy, Statement submitted for the record...    85
    Terrell, Jack, Vice President, Florida Trail Riders, 
      Auburndale, Florida, Letter submitted for the record.......    79
    Vergara, Carlos M., Managing Member, Venture Four, LLC, 
      Jupiter, Florida, Letter submitted for the record..........    85
    Wohl, James M., Rafter Ranch, Letter submitted for the record    82
                                     



OVERSIGHT HEARING TITLED ``FLORIDA EVERGLADES RESTORATION: WHAT ARE THE 
                             PRIORITIES?''

                              ----------                              


                       Thursday, November 3, 2011

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:06 a.m. in 
Room 1324, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Wittman, Southerland, 
Bordallo, and Hanabusa.
    Also Present: Representatives Ross and Rivera.
    Dr. Fleming. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum.

 STATEMENT OF HON. JOHN FLEMING, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Dr. Fleming. Good morning. Today the Subcommittee will be 
holding an oversight hearing on the Florida Everglades 
restoration and the proposed Everglades Headwaters National 
Wildlife Refuge and Conservation Area at the request of several 
Members of the Florida congressional delegation.
    Since 2001, the U.S. Army Corps of Engineers and the South 
Florida Water Management District have dedicated themselves to 
the Comprehensive Everglades Management Plan. This project, 
which is the largest in our history, is designed to restore the 
Florida Everglades by improving water quality, removing 
phosphorus and other contaminants and getting the water right. 
Together, the Federal Government and the State of Florida have 
pledged some $14 billion to complete 68 projects, the vast 
majority of which are occurring south of Lake Okeechobee.
    It is in this context that earlier this year the Secretary 
of the Interior announced his intention to establish a 150,000 
acre national wildlife refuge and conservation area north of 
Lake Okeechobee. A fundamental purpose of this hearing is to 
examine whether this refuge and conservation area will assist 
in the restoration of the Everglades or is simply an 
unnecessary side show and diversion of badly needed Federal 
funds.
    Let me say that I remain disappointed that the Service has 
been unwilling to support the need for a congressional 
authorization of new national wildlife refuges, something we 
had a hearing just recently on. The proposed Everglades 
Headwaters Refuge is a classic example of where an 
authorization is badly needed and may in fact increase public 
support for this proposal.
    In fact, I now have a better understanding of why the 
Service wants to act quickly. Despite the fact that this 
project was not included in either their budget submission or 
their land acquisition priority list, the Service quickly 
recognized that falling land prices in Central Florida 
presented an irresistible opportunity to acquire thousands of 
new acres of private property in Florida at a fraction of what 
it would have cost just three years ago.
    In addition to the more than $700 million it will cost our 
taxpayers to buy these Florida lands and easements, there are 
additional consequences. For instance, the Service has freely 
admitted that there are at least 60 major development projects 
in the Everglades landscape that are either in initial stages 
or have been approved. When the economy improves, those 
projects are likely to proceed. What the Service fails to tell 
the American people is how many thousands of new jobs will be 
lost by locking up this land to no development in the future.
    At the same time, it was distressing to hear that 
representatives of the Service were telling Florida residents 
that their lost county tax revenues would be offset through the 
Refuge Revenue Sharing Program at almost the exact time the 
Obama Administration was submitting a budget requesting no 
appropriated funds for this program in Fiscal Year 2012. Let me 
repeat that. This Administration requested zero dollars for the 
promise of lost revenues to Florida. I hope the Florida 
communities heard this.
    We will also hear testimony today and I will submit letters 
from various conservation organizations expressing their 
concerns that legitimate recreational opportunities will be 
denied once this refuge is established.
    Let us look at the record. There are 28 national wildlife 
refuges located entirely within the State of Florida, and only 
seven refuges are open to hunting. This represents less than 30 
percent of all refuge acreage in the state. More importantly, 
the Service has made promises in the past to allow hunting in 
certain new units like the Florida Panther National Wildlife 
Refuge, only to find the door slammed in the sportsmen's faces 
when it was established. It is my hope that the Service will 
provide us with assurances, if not a guarantee, that wildlife 
dependent recreation will be permitted within the entire 
Everglades Headwaters National Wildlife Refuge if it is 
created.
    In the final analysis, I am looking forward to hearing the 
Service's justification to this proposal, how they intend to 
compensate locally affected counties, how they intend to treat 
Florida sportsmen and how they intend to make this project 
instrumental in the restoration of the Florida Everglades. It 
really is a question of has the Service overreached and over 
promised.
    I now recognize the gentlelady from Hawaii, Congresswoman 
Colleen Hanabusa, who is serving as the Ranking Minority Member 
of the Subcommittee for today's hearing.
    [The prepared statement of Dr. Fleming follows:]

          Statement of The Honorable John Fleming, Chairman, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Good morning, today, the Subcommittee will be holding an oversight 
hearing on the Florida Everglades Restoration and the proposed 
Everglades Headwaters National Wildlife Refuge and Conservation Area at 
the request of several members of the Florida Congressional Delegation.
    Since 2001, the U. S. Army Corps of Engineers and the South Florida 
Water Management District have dedicated themselves to the 
Comprehensive Everglades Management Plan. This project, which is the 
largest in our history, is designed to restore the Florida Everglades 
by improving water quality, removing phosphorus and other contaminants 
and ``getting the water right''. Together, the federal government and 
the State of Florida have pledged some $14 billion to complete 68 
projects the vast majority of which are occurring south of Lake 
Okeechobee.
    It is in this context that earlier this year, the Secretary of the 
Interior announced his intention to establish a 150,000 acre National 
Wildlife Refuge and Conservation Area north of Lake Okeechobee. A 
fundamental purpose of this hearing is to examine whether this refuge 
and conservation area will assist in the restoration of the Everglades 
or is simply an unnecessary side-show and diversion of badly needed 
federal funds.
    Let me say that I remain disappointed that the Service has been 
unwilling to support the need for a Congressional authorization of new 
national wildlife refuges. The proposed Everglades Headwaters refuge is 
an classic example of where an authorization is badly needed and may, 
in fact, increase public support for this proposal.
    In fact, I now have a better understanding of why the Service wants 
to act quickly. Despite the fact that this project was not included in 
either their budget submission or their Land Acquisition Priority List, 
the Service quickly recognized that falling land prices in Central 
Florida presented an irresistible opportunity to acquire thousands of 
new acres of private property in Florida at a fraction of what it would 
have cost them three years ago.
    In addition to the more than $700 million it will cost our 
taxpayers to buy these Florida lands and easements, there are 
additional consequences. For instance, the Service has freely admitted 
that there are at least sixty major development projects in the 
Everglades Landscape that are either in initial stages or have been 
approved. When the economy improves, those projects are likely to 
proceed. What the Service fails to tell the American people is how many 
thousands of new jobs will be lost by locking up this land to no 
development in the future.
    At the same time, it was distressing to hear that representatives 
of the Service were telling Florida residents that their lost county 
tax revenues would be offset through the Refuge Revenue Sharing Program 
at almost the exact time the Obama Administration was submitting a 
budget requesting no appropriated funds for this program in FY'12. Let 
me repeat that: This Administration requested zero dollars for the 
promise of lost revenues to Florida. I hope the Florida communities 
heard this.
    We will also hear testimony today and I will submit letters from 
various conservation organizations expressing their concerns that 
legitimate recreational opportunities will be denied once this refuge 
is established.
    Let's look at the record. There are 28 national wildlife refuges 
located entirely within the State of Florida and only seven refuges are 
open to hunting. This represents less than 30 percent of all refuge 
acreage in the State. More importantly, the Service has made promises 
in the past to allow hunting in certain new units like the Florida 
Panther National Wildlife Refuge, only to find the door slammed in the 
sportsmen's faces when it was established. It is my hope that the 
Service will provide us with assurances, if not a guarantee, that 
wildlife dependent recreation will be permitted within the entire 
Everglades Headwaters National Wildlife Refuge if it is created.
    In the final analysis, I am looking forward to hearing the 
Service's justification to this proposal; how they intend to compensate 
locally affected counties; how they intend to treat Florida sportsmen; 
and how they intend to make this project instrumental in the 
restoration of the Florida Everglades. It really is a question of has 
the Service overreached and over promised.
    I now recognize the gentle lady from Hawaii, Congresswoman Colleen 
Hanabusa, who is serving as the Ranking Minority Member of the 
Subcommittee for today's hearing.
                                 ______
                                 

  STATEMENT OF HON. COLLEEN W. HANABUSA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Ms. Hanabusa. Thank you, Chairman Fleming. In my home of 
Hawaii, the livelihoods of farmers and fishermen depend on 
clean water. The same is true for Florida where the Everglades 
ecosystem provides water for cities and farms.
    The Everglades have been damaged by drainage and pollution. 
Recognizing the need to restore this national treasure, 
Congress committed to a plan in 2000 and have authorized 
further projects in 2007 with strong bipartisan support. The 
goal is to restore the ecosystem, which will also ensure that 
people have clean water and flood protection.
    The Everglades have degraded over decades, and as a result 
it will take decades to restore. On October 27, the South 
Florida Ecosystem Restoration Task Force announced a fast 
tracked central Everglades planning process. With congressional 
authorization, this effort will provide more clean water to 
people in Central and South Florida. A key piece of the puzzle 
for restoration is the proposed Everglades Headwaters National 
Wild Refuge. This refuge will improve water quality and 
quantity in the upper Everglades watershed, and this will 
benefit Central and South Floridians. We do not need to choose 
between creating the refuge and restoring the Everglades. The 
refuge is important to achieving restoration.
    The refuge proposal has been developed in an open, 
collaborative process with many local partners. Ranchers will 
be able to make conservation easements protecting the land from 
development and preserving their way of life. There will be 
access for hunting, fishing and other recreation. The refuge 
will ensure flexible training on Avon Park Air Force Range. For 
the Florida panther and black bear, the refuge will connect 
habitat and give them freedom to roam.
    But pictures speak louder than words, so I wanted to show a 
short video clip of stakeholder support for this proposed 
refuge. Let the video run.
    [Whereupon, a video was played.]
    Ms. Hanabusa. Mr. Chairman, I would like to enter into the 
record letters of support of the Everglades Headwaters proposal 
from the Kenneth Kirchman Foundation, the Adams Ranch and Camp 
Lonesome Ranch in Florida, the Nature Conservancy, and a 
statement from our colleague, Congressman Alcee Hastings.
    I thank the witnesses for testifying today and look forward 
to learning more about the Everglades.
    [The prepared statement of Ms. Hanabusa follows:]

     Statement of The Honorable Colleen Hanabusa, Ranking Member, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Thank you, Chairman Fleming.
    In my home of Hawaii, the livelihoods of farmers and fishermen 
depend on clean water. The same is true in Florida, where the 
Everglades ecosystem provides water for cities and farms. The 
Everglades have been damaged by drainage and pollution. Recognizing the 
need to restore this national treasure, Congress committed to a plan in 
2000, and authorized further projects in 2007 with strong bipartisan 
support. The goal is to restore the ecosystem, which will also ensure 
that people have clean water and flood protection.
    The Everglades has degraded over decades, and as a result it will 
take decades to restore. On October 27th, the South Florida Ecosystem 
Restoration Task Force announced a ``fast-tracked'' Central Everglades 
planning process. With Congressional authorization, this effort will 
provide more clean water to people in central and south Florida.
    A key piece of the puzzle for restoration is the proposed 
Everglades Headwaters National Wildlife Refuge. This Refuge will 
improve water quality and quantity in the upper Everglades watershed, 
and this will benefit central and south Floridians. We do not need to 
choose between creating the Refuge and restoring the Everglades. The 
Refuge is important to achieving restoration.
    The Refuge proposal has been developed in an open, collaborative 
process with many local partners. Ranchers will be able to make 
conservation easements, protecting the land from development and 
preserving their way of life. There will be access for hunting, 
fishing, and other recreation. The Refuge will ensure flexible training 
on Avon Park Air Force Range. For the Florida panther and black bear, 
the Refuge will connect habitat and give them freedom to roam.
    But pictures speak louder than words, so I wanted to show a short 
video clip of stakeholder support for this proposed Refuge.
    [2-minute video]
    This video demonstrates that we have a limited window to preserve 
the Everglades Headwaters as a rural working landscape. It is essential 
that we make legacy investments like this Refuge now to ensure that 
these fish, wildlife, and habitats are protected for the enjoyment and 
benefit of future generations. The Land and Water Conservation Fund, 
which is generated by offshore oil and gas drilling revenues and not 
taxpayers' dollars, provides the Fish and Wildlife Service with 
resources to acquire lands and conservation easements from willing 
sellers and land owners.
    I would like to enter into the record letters in support of the 
Everglades Headwaters proposal from the Kenneth Kirchman Foundation, 
the Adams Ranch, and Camp Lonesome Ranch in Florida, The Nature 
Conservancy, and a statement from our colleague, Congressman Alcee 
Hastings.
    I thank the witnesses for testifying today and look forward to 
learning more about the Everglades.
                                 ______
                                 
    Dr. Fleming. You are submitting letters for the record?
    Ms. Hanabusa. Right.
    Dr. Fleming. Okay. I ask unanimous consent. Without 
objection, so ordered.
    [The letters submitted for the record by Ms. Hanabusa can 
be found starting on page 83.]
    Dr. Fleming. We have also been joined by two of our friends 
from Florida, Mr. Rivera and Mr. Ross, but as is our tradition 
we welcome you to join us as this certainly applies to your 
districts and ask unanimous consent that they be allowed to sit 
with the Subcommittee and participate in the hearing. Hearing 
no objection, so ordered. Thank you.
    We will now hear from our witnesses. Like all witnesses, 
your written testimony will appear in full in the hearing 
record, so I ask that you keep your oral statements to five 
minutes as outlined in our invitation letter to you and under 
Committee Rule 4[a]. Our microphones are not automatic, so 
please press the button when you are ready to begin.
    I also want to explain how our timing lights work. It is 
very simple. You have five minutes. You are under green for 
four minutes, then for the final minute you are under yellow, 
and we would like for you to wrap up just before or certainly 
just after the red light comes on. I would appreciate your 
being as compliant as possible with that. However, if your 
statement goes much longer than that you can submit it in 
writing for the record.
    I would now like to welcome today's witnesses. On Panel 1 
we have The Honorable Jo-Ellen Darcy, Assistant Secretary of 
the Army for Civil Works at the Department of Defense, and Ms. 
Rachel Jacobson, the Acting Assistant Secretary for Fish, 
Wildlife and Parks at the Department of the Interior, who is 
accompanied by Mr. Mark Masaus, who is the Deputy Regional 
Director of Region IV for the U.S. Fish and Wildlife Service.
    Secretary Darcy, you are now recognized for five minutes.

 STATEMENT OF HON. JO-ELLEN DARCY, ASSISTANT SECRETARY OF THE 
        ARMY FOR CIVIL WORKS, U.S. DEPARTMENT OF DEFENSE

    Ms. Darcy. Thank you, Mr. Chairman and members of the 
Subcommittee. I am Jo-Ellen Darcy, the Assistant Secretary of 
the Army for Civil Works. I want to thank you for the 
opportunity today to testify on the Comprehensive Everglades 
Restoration Plan or, as we call it in shorthand, CERP. We in 
the Army have acronyms for everything, so it is CERP. It is 
also being implemented by the Army Corps of Engineers and our 
non-Federal partners in Florida.
    Working in collaboration with partners and many 
stakeholders at the local, state and Federal level, restoration 
of the historic Everglades ecosystem is one of the largest and 
most complex environmental restoration efforts in North 
America. The overarching goal of CERP is to capture the 
freshwater that now flows unused to the ocean and the Gulf and 
redirect it to storage for delivery to natural areas when they 
need it.
    Returning a more historic flow of water to the river of 
grass will not only revive the native habitat for 68 Federally 
listed threatened and endangered species; it will also 
naturally replenish the underground aquifers that supply 
drinking water to the population of South Florida. Redirecting 
the flows away from the Atlantic and the Gulf will also protect 
coral reefs and other coastal ecosystems important to the 
state's fishing, diving and tourism and other related 
industries.
    The CERP is based on getting the water right by improving 
water quality, quantity, timing and distribution to the 
Everglades while also maintaining other water-related levels of 
service. There are other important projects that predate CERP 
for Everglades restoration that work hand-in-hand to realize 
the benefits of the CERP. These important companion projects 
will restore the Kissimmee River and improve water flows into 
Everglades National Park.
    The state is also working to restore and protect the 
Northern Everglades by creating water quality treatment marshes 
for water flowing into Lake Okeechobee, coastal estuaries and 
the Everglades. Major components of CERP include above ground 
and underground water storage features, water preserve areas, 
management of Lake Okeechobee as an ecological resource, 
improved water deliveries to the St. Lucie and Caloosahatchee 
estuaries, treatment wetlands, improved water deliveries to the 
Everglades, removal of barriers to the natural sheet flow of 
water, reuse of wastewater and improved water conservation.
    Sound environmental science is at the heart of this effort, 
much of it new and pioneering work. Since 2000, much has been 
learned through rigorous research and extensive monitoring. The 
CERP planners recognize this natural progression in applied 
science and included a commitment to adaptive management as an 
integral part of CERP implementation to support improved 
decision making and performance over time.
    The Corps, in partnership with its partner, the South 
Florida Water Management District, continues to develop an 
integrated strategy for CERP implementation. In order for CERP 
to be implemented successfully, the Corps is continuing to 
coordinate with the Department of the Interior, tribal 
governments and other Federal and state partners, all of which 
have actively participated in the development and the progress 
of this program.
    From Fiscal Year 1999 through Fiscal Year 2011, just over 
$750 million has been allocated, which includes funds received 
through the American Reinvestment and Recovery Act, for 
planning, design, and construction of CERP projects. 
Construction is underway on three projects that were authorized 
in the 2000 legislation. This is the Indian River Lagoon South, 
the Picayune Strand Restoration and the Site 1 Impoundment.
    The Committee on Independent Scientific Review of 
Everglades Restoration Progress positively acknowledge the 
value and contributions of the adaptive assessment and 
monitoring program which has been regularly supported by the 
Administration and the Congress.
    Major construction efforts on authorized projects include 
construction of the Merritt Pump Station, which is a feature of 
the Picayune Strand, installing pilot projects for aquifer 
storage and recovery with ongoing cycle testing and monitoring 
at the Kissimmee River and Hillsborough Canal sites, completing 
design to prepare Indian River Lagoon South for construction, 
initiating construction on the Site 1 project and also 
initiating construction for the annex facility to support the 
Melaleuca Eradication Project.
    Project implementation reports for three additional major 
projects are nearly completed, and the fourth is under review. 
In addition, the Army and the state recently initiated the 
Central Everglades Study, which is a major step to pursue 
restoration of habitat in the central portion of the 
Everglades. This study is part of the Corps' larger nationwide 
planning modernization program, which is designed to shave 
years from our project delivery process.
    This study will build on recent science with a target for 
completion in less than two years rather than the five to seven 
years of past studies. Certain projects are being implemented 
by the state under their own authorities and using their own 
resources. These projects or portions of projects are expected 
to advance the delivery of benefits to the natural and human 
environments in and around South Florida.
    I see that my time is almost up, so I am just going to end 
by saying I appreciate the opportunity. I also wanted to point 
out that we have submitted our report to Congress. Under the 
legislation that authorized the CERP we are required every five 
years to give a progress report, and our 2010 progress report 
was delivered to the Congress this week. Thank you.
    [The prepared statement of Ms. Darcy follows:]

              Statement of The Honorable Jo-Ellen Darcy, 
 Assistant Secretary of the Army (Civil Works), U.S. Department of the 
                                  Army

    Mr. Chairman and distinguished members of the subcommittee, I am 
Jo-Ellen Darcy, Assistant Secretary of the Army (Civil Works). Thank 
you for the opportunity to testify on the Comprehensive Everglades 
Restoration Plan (CERP), approved by Congress in the Water Resources 
Development Act of 2000 (WRDA 2000) and being implemented by the U.S. 
Army Corps of Engineers (Corps) and our non-federal partners in 
Florida. My testimony focuses on the questions included in your letter 
of October 24, 2011.

EVERGLADES RESTORATION STATUS UPDATE
    Working in collaboration with partners and many stakeholders at the 
local, state and federal level, restoration of the historic Everglades 
ecosystem is one of the largest and most complex environmental 
restoration efforts in North America. The overarching goal is to 
capture the fresh water that now flows unused to the ocean and the Gulf 
and redirect it to storage for delivery to natural areas when they need 
it. Returning a more historic flow of water to the River of Grass will 
not only revive the native habitat for 68 federally listed threatened 
and endangered species, it will also naturally replenish the 
underground aquifers that supply drinking water to the population of 
south Florida. Redirecting flows away from the Atlantic and Gulf will 
also protect coral reefs and other coastal ecosystems important to the 
states' fisheries, diving, tourism and related industries.
    Due to the continued decline in overall health of the ecosystem and 
recognizing that a healthy ecosystem is fundamental to a healthy 
economy, numerous initiatives and construction projects are now under 
way to revitalize and protect the expansive south Florida ecosystem. A 
major component of south Florida ecosystem restoration is 
implementation of the CERP, the framework for large-scale restoration 
of the Everglades. CERP is a series of modifications to the regional 
water supply and flood control project (the ``Central and Southern 
Florida Project'') that is carried out by the Corps and its non-Federal 
sponsor, the South Florida Water Management District.
    The CERP is based on ``getting the water right'' by improving water 
quality, quantity, timing and distribution to the remnant Everglades 
while also maintaining other water related levels of service. There are 
other important projects that pre-date CERP (the ``Foundation 
Projects'') for Everglades restoration that work hand-in-hand to 
realize the benefits of the CERP. These important companion Foundation 
Projects will restore the Kissimmee River and improve water flows into 
Everglades National Park. The state of Florida is also working to 
restore and protect the Northern Everglades by creating water quality 
treatment marshes for water flowing into Lake Okeechobee, coastal 
estuaries and the Everglades. Other federal agencies, such as the U.S. 
Department of Agriculture (USDA), have provided conservation easements 
to protect and conserve private lands in a manner that also benefits 
improvements in regional water quality and storage.
    Major components of CERP include above-ground and underground water 
storage features, water preserve areas, management of Lake Okeechobee 
as an ecological resource, improved water deliveries to the St. Lucie 
and Caloosahatchee estuaries, treatment wetlands, improved water 
deliveries to the Everglades, removal of barriers to the natural 
sheetflow of water, reuse of wastewater, and improved water 
conservation.
    Sound environmental science is at the heart of this effort, much of 
it new and pioneering work. Since 2000, much has been learned through 
rigorous research, extensive monitoring and the development and 
refinement of computer models. The CERP planners recognized this 
natural progression in applied science and included a commitment to 
adaptive management as an integral part of CERP implementation to 
support improved decision-making and CERP performance over time. This 
commitment was reinforced in the WRDA 2000 with specific requirements 
to improve the plan over time. As restoration and scientific 
investigations advance, the opportunities to incorporate CERP 
improvements and changes to better achieve restoration goals and 
objectives advance as well.
    In accordance with WRDA 2000, the 2010 Report to Congress was 
recently submitted by the Assistant Secretary of the Army (Civil Works) 
and the Secretary of the Interior in consultation with the United 
States Environmental Protection Agency, the Department of Commerce and 
the state of Florida. The Secretary of the Interior, the Administrator 
of EPA and I each reviewed the progress to date and determined that 
satisfactory progress is being made towards achieving the benefits for 
the natural system and the human environment envisioned in the CERP.
    The Corps, in partnership with its primary partner, the South 
Florida Water Management District (SFWMD), continues to develop an 
integrated strategy for implementation of the Plan. In order for the 
Plan to be implemented successfully it is imperative to maintain 
coordination with the Department of the Interior, tribal governments 
and other federal, and state partners, all of which have actively 
participated in the development and progress of this program. In the 
past five years, three projects were authorized for construction in the 
Water Resources Development Act of 2007: Indian River Lagoon South, 
Picayune Strand Restoration and Site 1 Impoundment. Construction is 
underway on all three of these projects and is providing needed 
momentum toward the restoration of the Everglades. In addition, funding 
provided through the passage of the American Recovery and Reinvestment 
Act (ARRA) allowed construction on both CERP and other south Florida 
Restoration projects to proceed at a quicker pace while providing over 
6000 jobs in south Florida.

CERP FUNDING
    The allocation from Fiscal Year (FY) 1999 through FY 2011 for CERP 
is $753,845,000, which includes funds received through ARRA, as well as 
regular appropriations. The amount allocated includes funding for 
Planning, Design and Construction of CERP projects.
    The current cost estimate for the CERP is $13.5 billion at October 
2009 price levels. Over two billion dollars in combined contributions 
from the federal and state partners has been provided in support of 
CERP and prospective CERP projects over the past five fiscal years 
(2005-2009). During this time, the federal government expended almost 
$259 million, while it is estimated that non-Federal sponsors spent 
approximately $270 million on activities not related to land 
acquisition, which is a major expense. As of December 31, 2010, the 
state of Florida has spent an estimated $1.29 billion to purchase 
approximately 233,000 acres which are anticipated to be made available 
for CERP project features. Some of this land was acquired by the state 
using federal grant funds amounting to over $327 million. Funding over 
the past five years included resources made available under ARRA which 
are outside the general FY 2009/FY 2010 budget process. ARRA funds 
combined with the President's FY 2009 and FY 2010 budgets infused the 
largest amount of Federal funding received since Congress approved CERP 
in 2000. This resulted in a ``jump-start'' of important restoration 
projects, speeding the recovery of the natural system, and providing 
jobs and contracts during difficult economic times.

HOW MANY OF THE 68 CERP COMPONENTS HAVE BEEN COMPLETED?
    Construction is underway on all three projects authorized in the 
Water Resources Development Act of 2007 (Indian River Lagoon South, 
Picayune Strand Restoration and Site 1 Impoundment). In fact, I was 
pleased to attend the groundbreaking for the Indian River Lagoon South 
project last Friday, along with Congressman Rooney. The Committee on 
Independent Scientific Review of Everglades Restoration Progress, which 
is required by the WRDA 2000, positively acknowledged the value and 
contributions of the Adaptive Assessment and Monitoring program, which 
has been regularly supported by the Administration and the Congress. 
Additional work continues on the Melaleuca Eradication project as well 
as Aquifer System and Recovery Pilot projects, small projects 
authorized in CERP. The SFWMD has begun construction on two additional 
CERP projects, the C-111 Spreader Canal and Biscayne Bay Coastal 
Wetlands projects.
    Following is an outline of the work conducted on authorized CERP 
projects, with a description of the status of projects that have nearly 
completed the Project Implementation Report (PIR) process and a 
description of the SFWMD's construction efforts to date on projects 
that have not yet been authorized but have a PIR in process and for 
which a Pre-Project Partnership Agreement has been signed.
    Major construction efforts on authorized CERP Projects:
        <bullet>  Initiated construction for the Merritt Pump Station 
        feature of Picayune Strand Restoration, building on the state's 
        work of filling and plugging seven miles of the Prairie Canal; 
        removal of 65 miles of roadways and installation of seventeen 
        culverts. Wading birds, black bears and the endangered Florida 
        panther have already been observed within the 13,000 acres of 
        restored habitat.
        <bullet>  Installed pilot projects for aquifer storage and 
        recovery, with ongoing cycle testing and monitoring at the 
        Kissimmee River and Hillsboro Canal sites.
        <bullet>  Completed designs to prepare Indian River Lagoon-
        South for construction. Initiated construction on October 28, 
        2011.
        <bullet>  Awarded the first construction contract for the Site 
        1 Impoundment, adjacent to the Arthur R. Marshall Loxahatchee 
        National Wildlife Refuge. Initiated construction on the Site 1 
        project.
        <bullet>  Initiated construction for the Annex facility to 
        support the Melaleuca Eradication project.
    PIR's for three additional major projects are nearly complete and a 
fourth is significantly through the review process:
        <bullet>  The Caloosahatchee (C-43) West Basin Storage 
        Reservoir project has a signed report of the Chief of 
        Engineers.
        <bullet>  The C-111 Spreader Canal Western Project has 
        completed the Civil Works Review Board process as well as state 
        and agency review. The next step is a signed report of the 
        Chief of Engineers.
        <bullet>  The Biscayne Bay Coastal Wetlands (Phase I) has been 
        sent to the Civil Works Review Board. Broward County Water 
        Preserve Areas has been approved by the Civil Works Review 
        Board, is currently being revised by the Jacksonville District 
        to update the document.
        <bullet>  In addition, the Army and the state of Florida 
        recently initiated the Central Everglades study, a major step 
        to pursue restoration of habitat in the central ``river of 
        grass'' portion of the Everglades. This study is part of the 
        Corps' of Engineers larger nationwide planning modernization 
        program, designed to shave years from the project delivery 
        process. This study will build on recent science with the 
        target for completion in less than two years, rather than the 
        5-7 years of past studies.
    Certain projects are being implemented by the state of Florida 
under their own authorities and using their own resources. The Corps 
coordinates closely with the SFMWD during the PIR process for projects 
where the state wishes to undertake construction. These projects or 
portions of projects are expected to advance the delivery of benefits 
to the natural and human environments in and around the Everglades 
ecosystem. The Corps has also worked closely with the state of Florida 
to assist in its efforts to expedite these projects with regard to the 
required federal permitting under Section 404 of the Clean Water Act. 
The SFWMD has signed Pre-Project Partnership Agreements and is 
currently implementing construction under its own resources for the C-
111 Spreader Canal and Biscayne Bay Coastal Wetlands projects, 
including the following work:
        <bullet>  Initiated construction of the Deering Estates Flow-
        way, part of Phase 1 of the proposed CERP Biscayne Bay Coastal 
        Wetlands Project to restore more natural water flows to the Bay 
        and Biscayne National Park, thus helping to restore the 
        estuarine environment and associated plant and animal life.
        <bullet>  Completed construction of L-31E Culverts, part of 
        Phase 1 of the proposed CERP Biscayne Bay Coastal Wetlands 
        Project.
        <bullet>  Initiated construction of the proposed CERP C-111 
        Spreader Canal Western Project to benefit Florida Bay by 
        restoring freshwater wetlands, tidal wetlands and near-shore 
        habitat.

LAKE OKEECHOBEE
    The state of Florida has the primary responsibility for meeting 
existing water quality standards. Nonetheless, north of Lake Okeechobee 
there have been two projects that have involved federal participation 
by the Corps that have had an effect on water quality in this area. As 
part of the Foundation Projects, the Corps of Engineers and SFWMD are 
jointly implementing the Kissimmee River Restoration Project which, as 
it is completed, will help improve the water quality flowing into Lake 
Okeechobee. The Corps is also constructing the Taylor Creek/Nubbin 
Slough project, authorized as part of the Critical Projects.
    Since 2000, it is my understanding that approximately $315 million 
of state funding and SFWMD contributions have been invested to 
implement activities described in the Florida state law. SFWMD's 
achievements to date include the use of Best Management Practices 
(BMP), construction of a phosphorus reduction project, landowner 
partnerships to provide water storage on private lands, and pilot 
projects to test and demonstrate technological innovations. The 
following specific accomplishments were reported to us by the SFWMD:
        <bullet>  As of December 2010, landowners enrolled 
        approximately 1.3 million acres (76%) of agricultural lands in 
        the state-adopted Best Management Practices program and are 
        applying owner-implemented BMPs focused on reducing phosphorus 
        loads to Lake Okeechobee. Almost two-thirds of the agricultural 
        acreage with owner implemented BMPs (838,780 acres) have also 
        administered cost-share BMPs. Florida's Department of 
        Agriculture and Consumer Services will continue to work 
        cooperatively with the coordinating agencies, stakeholders, and 
        landowners to identify alternative funding sources and other 
        opportunities to accelerate the rate of BMP enrollment and 
        implementation.
        <bullet>  More than 30 phosphorus reduction projects have been 
        constructed with state of Florida funding, including isolated 
        wetland restoration projects, Dairy Best Available Technology 
        projects, former dairy remediation projects, and public-private 
        partnership projects. The potential average annual phosphorus 
        load reduction from these projects is estimated at 26 metric 
        tons.
        <bullet>  Six Hybrid Wetland Treatment Technology (HWTT) 
        projects have been implemented under a joint effort between the 
        SFWMD and Florida Department of Agriculture and Consumer 
        Services in the St. Lucie and Lake Okeechobee watersheds. 
        Another HWTT site in the Lake Okeechobee Watershed is expected 
        to be built by March 2011. Collectively, these projects will 
        provide approximately four metric tons of phosphorus load 
        reduction per year.
        <bullet>  Lakeside Ranch, Stormwater Treatment Area (STA) 
        construction is under way. This STA is expected to reduce the 
        average phosphorus load to the lake by approximately 24 metric 
        tons per year when it is fully operational.
        <bullet>  With funding provided by the state of Florida and 
        South Florida Water Management District, crews removed or 
        sequestered approximately 1.9 million cubic yards of muck from 
        Lake Okeechobee, exposing thousands of acres of natural lake 
        bottom sand and promoting the return of native plant species. 
        In addition, the project removed 142 metric tons of phosphorus 
        from the lake. These efforts were completed during low Lake 
        Okeechobee water levels.

COMMITTEE ON INDEPENDENT SCIENTIFIC REVIEW OF EVERGLADES RESTORATION 
        PROGRESS (CISRERP) REPORT
    Much of the rationale for the conclusions reached by the CISRERP 
relates to the presence of ``legacy phosphorus'' upstream of the 
Everglades and the expected lag between the completion of individual 
restoration construction projects and full ecosystem recovery. Despite 
CISRERP's outlook that restoration will take several decades, there are 
encouraging examples of multi-party, multi-pronged approaches to abate 
water quality issues. Implementation of restoration measures in a 
dynamic, living ecosystem has always been recognized as having a higher 
degree of uncertainty than, for example, many of the Corps' more 
traditional flood control projects. The CERP has always acknowledged 
that completion of planned work does not mean instant success. Although 
parts of the south Florida ecosystem have demonstrated remarkable 
resilience in their recovery following completion of a particular 
restoration project, the full ecosystem responses lag behind physical 
completion of construction. More importantly, science is now telling us 
that chemical changes in the makeup of the system after project 
features are complete are likely to take significantly longer than 
originally expected before the ecosystem will be restored.
    In view of the complexity and uncertainties of the Everglades 
ecosystem, we have known from the beginning that difficulties would 
arise and adjustments to the Plan would be needed along the way. For 
these reasons, Congress directed us to develop adaptive management 
strategies. These strategies are embraced and incorporated into the 
CERP and the Corps remains committed to the use of the best available 
science and employment of proven adaptive management techniques. These 
strategies are essential to our success.

CONCLUSION
    The Army is committed to continue to work with all of its partners 
to continue to work in this critical area. This concludes my testimony 
and I look forward to any questions you or other Members of the 
subcommittee may have.
                                 ______
                                 
    Dr. Fleming. Yes. Thank you, Ms. Darcy, for being prompt 
with the ending of your statement. Again, it will be submitted 
in written form to the record.
    Let us see. Ms. Jacobson, you are now recognized for five 
minutes.

 STATEMENT OF RACHEL JACOBSON, ACTING ASSISTANT SECRETARY FOR 
     FISH, WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR, 
ACCOMPANIED BY MARK MASAUS, DEPUTY DIRECTOR, SOUTHEAST REGION, 
                 U.S. FISH AND WILDLIFE SERVICE

    Ms. Jacobson. Good morning, and thank you, Chairman Fleming 
and members of the Subcommittee. I am Rachel Jacobson, Acting 
Assistant Secretary for Fish and Wildlife and Parks at the 
Department of the Interior. I am accompanied by Mark Masaus, 
the Deputy Director of the Fish and Wildlife Service Southeast 
Region.
    As Acting Assistant Secretary, I oversee and coordinate 
policy for the Fish and Wildlife Service and the National Park 
Service. I appreciate the opportunity to appear before you 
today to testify about the proposal to establish the Everglades 
Headwaters National Wildlife Refuge and Conservation Area.
    The Everglades Headwaters proposal reflects the vision of 
more than a dozen partners, including ranchers, the State of 
Florida, the Departments of Defense and Agriculture, the Nature 
Conservancy, the National Wildlife Refuge Association and 
others, all working together through the Greater Everglades 
Partnership Initiative, to conserve one of eastern North 
America's last grassland and long leaf pine savannah landscapes 
while helping to preserve a working rural landscape of ranches 
and farms, as was nicely demonstrated by the video.
    The proposal is based on the best available science. It 
builds on a long legacy of conservation in Central Florida and 
will help connect state parks and wildlife management areas, 
ranches and the Avon Park Air Force Range as a contiguous 
wildlife corridor. Our proposal is shaped by public input. Last 
January, the Service launched a three month public scoping 
effort during which 1,700 citizens attended four public 
meetings and another 38,500 provided written comments. The 
Service also held an informal 30 additional meetings with 
interested stakeholders. We received overwhelming public 
support for this effort.
    The draft land protection plan and environmental assessment 
that has been put out for public comment reflects this input. 
These documents were initially published in September, and now 
at the request of the local hunting conservation organizations 
the public comment period has been extended to November 25.
    Florida's population is expected to double by 2060, 
increasing the development pressure on the grasslands and 
savannah of Central Florida. There is a need to act now to 
conserve the wildlife of this region and its rural landscapes. 
The Everglades Headwaters proposal takes a new approach to 
conservation by mixing public lands with easements on private 
lands. The proposed 150,000 acre refuge and conservation area 
would protect up to 288 at-risk species found across the 
valley.
    Wildlife dependent recreational opportunities will be a 
priority for the refuge. Under the proposal, the Service and 
the Florida Fish and Wildlife Conservation Commission would 
jointly manage expanding hunting and fishing opportunities on 
refuge lands. Two-thirds of the area, covering 100,000 acres, 
would remain in private ownership with conservation easements 
and stay on the local tax roles. Cattle ranchers in the valley 
have been extraordinary stewards in the lands, and we want to 
help them hold onto this way of life. The remaining 50,000 
acres would be purchased by the Service from voluntary sellers 
to create the refuge, which would open new wildlife dependent 
recreational opportunities previously not available.
    The Service understands the significant financial 
commitment this proposal would entail. If the refuge is 
established, property interests will be acquired from willing 
sellers over many years through funds derived primarily from 
the Land and Water Conservation Fund. In addition, several 
landowners have already expressed interest in donating land for 
this project, which would reduce the overall cost. We will also 
seek leveraging opportunities through private contributions and 
other sources of funding.
    We believe the proposal stands on its own as an important 
addition to the Refuge System. However, it also complements the 
overall goals of the Everglades restoration. It provides 
significant opportunities to protect and restore native 
prairies and freshwater wetlands that naturally store water, 
the most critical component of the Everglades ecosystem.
    It will ensure that the water quality at the top of the 
Everglades system is maintained, which is important to the 
long-term success of restoration efforts below the headwaters. 
As one of the world's most ecologically diverse ecosystems, the 
Everglades are one of America's last incredible wild places. 
That is why the ongoing national effort to restore the area 
known as the ``River of Grass'' is so important.
    Thank you for the opportunity to appear before the 
Subcommittee to talk with you about this important project. I 
will look forward to answering any questions you may have.
    [The prepared statement of Ms. Jacobson follows:]

 Statement of Rachel Jacobson, Acting Assistant Secretary for Fish and 
          Wildlife and Parks, U.S. Department of the Interior

    Good morning Chairman Fleming and members of the Subcommittee. I am 
Rachel Jacobson, Acting Assistant Secretary for Fish and Wildlife and 
Parks at the Department of the Interior. As Acting Assistant Secretary, 
I oversee and coordinate policy for the U.S. Fish and Wildlife Service 
(Service) and the National Park Service. I appreciate the opportunity 
to appear before you today to testify about the Service's proposal to 
establish the Everglades Headwaters National Wildlife Refuge and 
Conservation Area to advance the goals of the multi-stakeholder Greater 
Everglades Partnership Initiative.
    The mission of the National Wildlife Refuge System (Refuge System) 
is to administer a national network of lands and waters for the 
conservation, management and, where appropriate, restoration of the 
fish, wildlife and plant resources and their habitats within the United 
States for the benefit of present and future generations of Americans. 
Encompassing more than 150 million acres of land and water, the Refuge 
System is the world's premier network of public lands devoted to the 
conservation of fish, wildlife and their habitats.
    National wildlife refuges are found in every state. In total, the 
Refuge System now contains 555 refuges and 38 wetland management 
districts. The management of each refuge gives priority consideration 
to appropriate recreational uses of the refuge that are deemed 
compatible with the primary conservation purposes of the refuge, and 
the overall purpose of the Refuge System.
Genesis of the Everglades Headwaters Proposal
    More than a dozen partners have been working together through the 
Greater Everglades Partnership Initiative to conserve one of eastern 
North America's last grassland and longleaf pine savanna landscapes, 
located in Central Florida.
    The proposal was aimed at protecting the headwaters of the 
Everglades and designed to help protect a working rural landscape of 
ranches and farms and the habitat of this unique ecosystem.
    Our partners in the Everglades Headwaters proposal include 
ranchers, the State of Florida, the U.S. Department of Agriculture 
(USDA) Natural Resources Conservation Service, the U.S. Department of 
Defense, The Nature Conservancy, the National Wildlife Refuge 
Association, and others. The proposal builds on a long legacy of 
conservation values established in Central Florida, connecting existing 
conservation lands within the Kissimmee River Valley (Valley) including 
state parks, wildlife management areas, and the Avon Park Air Force 
Range. The Natural Resources Conservation Service recognized the 
importance of this landscape when Secretary Tom Vilsack recently 
committed $100 million in financial assistance to acquire permanent 
easements from eligible landowners in four counties and assist with 
wetland restoration on nearly 24,000 acres of agricultural land in the 
Northern Everglades. This is among the largest commitments of funding 
Florida has ever received for projects in the same watershed through 
the UDSA's Wetlands Reserve Program (WRP) in a single year.
    Our proposal to establish the 150,000 acre Everglades Headwaters 
National Wildlife Refuge and Conservation Area is based on the best 
available science including studies from many of our partners, most 
notably the Florida Fish and Wildlife Conservation Commission (FWC) and 
The Nature Conservancy. Two-thirds of the proposed Everglades 
Headwaters National Wildlife Refuge and Conservation Area, or up to 
100,000 acres, would be protected through conservation easements 
purchased from willing sellers. Private landowners would retain 
ownership of their land, as well as the right to work the land to raise 
cattle or crops. The easements would ensure the land could not be 
developed.
    The Service would also purchase up to 50,000 acres outright from 
willing sellers to create the proposed national wildlife refuge where 
visitors could hunt, fish, hike and view wildlife. The Service has 
identified six areas where these refuge lands could potentially be 
purchased. In some cases, the refuge acquisitions would augment 
existing conservation lands, such as state parks and wildlife 
management areas.
    It is important to note that this is a voluntary program. The 
Service will only purchase land or conservation easements from willing 
sellers. Florida ranchers and other landowners understand that we all 
have a stake in preserving the health of our land, water, and wildlife. 
For example, David Durando, a rancher in the proposed project area 
supports the creation of this refuge. Mr. Durando, who married into a 
family that includes both a Florida governor and long-time state 
senator, commented in support of the refuge as follows: ``Our 
grandchildren are ninth generation Floridians. We would like to have 
the opportunity to entrust our way of life, their heritage, to them and 
future generations. I see the Everglades Headwaters National Refuge and 
Conservation Area as an opportunity that would allow us to do this. We 
would have the opportunity to help our state with its conservation plan 
and maintain our heritage now and for future generations just as those 
before us have done. My father-in-law, (State Senator) Doyle E. 
Carlton, Jr., always said, 'Whatever I have I am not taking with me. 
The earth is God's and the cattle belong to him.' Our family has a 
desire to be good stewards, managing and preserving all God has 
entrusted to us.''

Public Involvement
    Last January, the Service launched a three-month public scoping 
effort to seek broader input on shaping the Everglades Headwaters 
proposal. The Service received comments from more than 1,700 citizens 
who attended four public meetings. The Service also received more than 
38,500 comments in writing during this scoping effort. The overwhelming 
majority of the public comments supported the concept.
    The Service heeded the input received from the public in drafting 
the Land Protection Plan and Environmental Assessment for the proposed 
refuge and conservation area. In the proposal, the Service removed from 
consideration developed areas, areas where communal land ownership 
reduces development opportunity and areas where landowners said they 
were not interested in selling their properties. The proposal also 
includes a provision under which the Service would work with the FWC to 
manage hunting and fishing on refuge lands acquired. The state already 
manages outdoor recreation on wildlife management areas in the Valley, 
and we believe the refuge will provide ways to complement and expand 
those recreational opportunities.
    The proposal, released to the public on September 7, is now in an 
extended public comment period that is scheduled to end on November 25. 
The comment period was extended at the request of local hunting 
conservation organizations. Since the four scoping meetings mentioned 
above, the Service has since held additional public meetings with 122 
citizens attending, and it has received nearly 2,000 comments in this 
phase of the planning process. In addition, since the scoping process 
began, the Service has held 30 informational meetings with citizens and 
representatives from local governments and stakeholder organizations.
Restoring Habitat and Protecting Species
    Our primary interest in creating a new national wildlife refuge and 
conservation area in Central Florida is simple math. Florida's 
population is expected to double to 36 million by 2060, increasing the 
development pressure on the grasslands and savannas of Central Florida. 
Some of the threats to globally significant species like the Florida 
black bear, the Florida panther, the Florida grasshopper sparrow and 
the Florida scrub jay, include fragmented habitats and reduced water 
quality and water quantity.
    The proposed 150,000-acre refuge and conservation area would 
protect these threatened and endangered species by creating wildlife 
corridors, restoring wetlands and conserving the landscape. It will 
also protect up to 288 at-risk species found across the Valley. Through 
this voluntary program, we will be able to increase hunting and fishing 
opportunities, and provide ranchers a means of preserving their land in 
its current agricultural state. In addition, if a refuge is 
established, acquisitions would be made within the approved areas 
gradually over time, not all at once.
    As stated, two-thirds of the proposal--100,000 acres--would remain 
in private ownership with conservation easements, but importantly, 
these lands would stay on the local tax rolls. Cattle ranchers in the 
Valley have been extraordinary stewards of these lands, and we want to 
help them continue to hold on to this way of life even in difficult 
economic times. We need them; Florida's cattle industry is one of the 
oldest and among the 15 largest in the country. Ranching is compatible 
with our mission to protect the globally unique habitats and species of 
the Valley, while maintain the area as a working landscape.
    The remaining 50,000 acres would be purchased outright by the Fish 
and Wildlife Service to create a refuge, which would make possible 
additional wildlife-dependent recreation such as hunting, fishing, and 
birding. Unlike a traditional refuge, the Everglades Headwaters takes a 
new approach to conservation, mixing refuge lands with private 
ownership under conservation easements to fill in gaps across the 
landscape. The goal is to connect existing conservation lands to create 
wildlife corridors and healthy habitats; provide more opportunities to 
hunt, fish, hike and learn about wildlife; and improve the water 
quality and quantity in the upper Everglades watershed. The plan also 
provides landowners with different options to protect their properties 
rather than relying on a one-size-fits-all solution. In the proposal, 
we identified six target areas totaling 130,000 acres from which we 
would seek to purchase up to 50,000 acres for the refuge from willing 
sellers. These lands are included in a larger area, approximately 
816,000 acres, that has been identified to place up to 100,000 acres 
under conservation easements from willing owners.
    Quality of habitat and connectivity to existing conserved lands 
will drive our acquisition priorities. We believe a more connected 
landscape is needed, one that provides a wide range of quality habitats 
to support Federal and state-listed species and native wildlife 
diversity. We also want to improve water quality, quantity and storage 
capacity in the Upper Everglades watershed and provide additional 
opportunities for wildlife-dependent recreation. The draft 
Environmental Assessment for the Land Protection Plan demonstrates that 
these objectives could be met through the establishment of the proposed 
Everglades Headwaters National Wildlife Refuge and Conservation Area.
    This proposal reflects broad support among private landowners, the 
ranching community and other partners who share the goal of conserving 
the region's mosaic of sandhill and scrub habitat, freshwater wetlands, 
prairies, pine flatwoods and pastures.
    For example, one of the land owners in the proposed project area is 
Mike Adams, a third generation rancher. At the news conference in 
September to announce the draft proposal, Mr. Adams described the 
proposal as a, ``win-win for families, also a win for the community, 
also a win for the wildlife. . .Our future generations will appreciate 
what we do here today.''
    Lt. Col. Charles ``Buck'' MacLaughlin agrees. As the commander of 
the Avon Park Air Force Range, which is located in the middle of the 
project area, Lt. Col. McLaughlin said the proposed refuge would help 
buffer one of the nation's largest aerial and gunnery ranges against 
encroachment, and at the same time, would serve the dual purpose of 
protecting Florida's landscape and species that occur nowhere else on 
the planet.

Funding for the Everglades Headwaters proposal
    The public scoping process now underway will help identify ways to 
develop the refuge to best meet all interests. The Service will begin 
to work with willing sellers only if this proposal goes forward after 
scoping and additional planning. Several landowners in the Valley have 
expressed interest in donating lands for this project, which would 
reduce the overall cost. Given the fluctuation in land values, it is 
difficult to say at this time what the appraised values for land 
acquisition and easements from willing sellers will be at the time we 
enter into the transactions. Considering those unknowns, the Service 
may seek annually funds from the Land and Water Conservation Fund 
(LWCF) and, to a lesser extent, the Migratory Bird Conservation Fund to 
acquire a combination of lands and conservation easements. We expect it 
will take several years for the Fish and Wildlife Service and our 
partners in the Greater Everglades Partnership Initiative to complete 
this project
    If the project proceeds as proposed, the Service projects it will 
initially need up to $450,000 annually to operate and maintain the 
refuge. These operational costs will cover salary for three FTEs, 
habitat restoration, prescribed fire activities, facility maintenance, 
inventory and monitoring of habitat and species, and invasive species 
control. In several years' time, as the refuge becomes more fully 
operational, this budget would likely increase as noted in the Draft 
Land Protection Plan.

Assurances for Wildlife-Dependent Recreation
    As we noted earlier, we are working with the State of Florida to 
provide public access on proposed Headwater refuge lands for hunting 
and fishing opportunities. Indeed, as the project develops, the Service 
and FWC will put in place a Memorandum of Understanding related to the 
management of hunting and fishing activities on the proposed refuge. 
Florida Fish and Wildlife Conservation Commission Commissioner Ron 
Bergeron stated that his agency is a ``willing partner that can provide 
public hunting access on public lands acquired in fee-simple by the 
Service, something we find as imperative''. . .. Mr. Bergeron went on 
to say,'' We certainly see valuable conservation merits in targeting 
critical lands that support a rich diversity of natural resources.''
    In the case of privately owned lands subject to conservation 
easements, wildlife-dependent recreation and public access would be 
left to the discretion of individual landowners.

Anticipated Impact on Local Counties Tax Base
    Through the National Wildlife Refuge Fund, counties and local 
governments may be compensated for lost revenues from the 50,000 
proposed acres that maybe acquired in fee title by the Service. The 
Refuge Revenue Sharing Act (16 U.S.C. 715s), as amended, allows us to 
offset the tax losses by annually paying the county or other local unit 
of government an amount that often equals or exceeds that which would 
have been collected from approved compatible economic uses on refuges, 
including taxes if in private ownership. The source of funds for refuge 
revenue sharing payments are derived from the net receipts collected 
from the sale of various products or privileges from all refuge lands 
such as grazing leases or timber sales, plus additional appropriated 
funds. The Refuge Revenue Sharing Act provides a formula to share 
economic use receipts to offset the loss of land within the counties or 
local governments tax base. Specifically, the law requires that the 
revenue sharing payments to counties or local government for our 
purchased land will be based on the greatest of: (a) 3/4 of 1 percent 
of the market value; (b) 25 percent of the net receipts; or (c) 75 
cents per acre. Fair market value is based on appraisals that are to be 
updated every 5 years. All lands administered by the solely or 
primarily by the Service--not just refuges--qualify for revenue sharing 
payments.
    The revenue sharing appraisal is based upon current fair market 
values of the various land types in the county or counties where each 
refuge is located. This appraisal values the refuge land by comparing 
it to the same, or similar, sales of land in the local area. As a 
result, refuge land is valued at its highest economic potential based 
on the surrounding real estate market. That means refuge land is valued 
on a variety of potential uses, including commercial property, 
beachfront development, timberland and farmland. The revenue sharing 
appraisal compiles all the values found on each refuge to produce an 
overall per acre value for that refuge.
    By way of example, in south central Florida, Lake Wales Ridge 
National Wildlife Refuge comprises both lakefront and non-lakefront 
lots that have the potential for residential development and as such 
are valued at a much higher price than nearby agricultural lands. The 
refuge contains 1,689 and 172 acres respectively in Highlands and Polk 
Counties--which are two of the same counties within the four County 
Everglades Headwaters project area). The total revenue sharing payments 
made to these counties in 2010 were $16,406 to Highlands County and 
$1,605 to Polk County. This equates to an average Revenue Sharing 
Payment of $9.52 per acre.\1\ By comparison, the privately owned 
Hatchineha Ranch in Polk County generated less than $2 per acre in 
property taxes in 2010.
---------------------------------------------------------------------------
    \1\ This data is provided by the Service's Finance Center and 
represents the actual payments made to the individual counties.
---------------------------------------------------------------------------
    In addition to potential gains from revenue sharing agreements, 
refuges are economic boons for their neighboring communities, 
generating roughly $4 for every $1 of federal investment, according to 
a Service analysis entitled Banking on Nature 2006: The Economic 
Benefits to Local Communities of National Wildlife Refuge Visitation. 
That study found that refuge visitors generated $1.7 billion of annual 
sales to local economies, of which 87% was spent by travelers from 
outside the local area. The ripple effect from these visitors created 
over 27,000 jobs and more than $543 million in employment income.
Supporting the Goal of Everglades Restoration
    The proposal to establish the Everglades Headwaters NWR and 
Conservation Area complements overall efforts to restore the Everglades 
and directly supports two of the three Everglades restoration goals 
established by the South Florida Ecosystem Restoration Task Force, 
comprised of state, federal, tribal and local representatives. 
Establishment of the proposed conservation partnership area provides 
significant opportunities to restore habitat and recover key species, 
and will help to protect and restore native prairies and freshwater 
wetlands that naturally store water--the most critical component of the 
Everglades ecosystem. Additionally, wetlands serve an important 
function of removing pollutants including nitrogen and phosphorus, 
which both contribute to degraded Everglades water quality.
    The Everglades make up one of America's and the world's most 
incredible wild places. Everglades National Park was accepted as a 
biosphere reserve in 1976, inscribed on the World Heritage List in 
1979, and was designated a Ramsar site (Wetland of International 
Significance) in 1987. The Everglades is one of the most ecologically 
diverse ecosystems on the planet, which is why the ongoing national 
effort to restore the area known as the ``River of Grass'' is so 
important.
    Thank you for the opportunity to appear before this Subcommittee to 
talk with you about this important project. I look forward to answering 
questions you may have.
                                 ______
                                 
    Dr. Fleming. Thank you, Ms. Jacobson, and thank you for 
your promptness. Thank you for your opening statements, 
testimony.
    At this point, we will begin Member questions for the 
witnesses. To allow all Members to participate and to ensure we 
can hear from all of our witnesses today, Members are limited 
to five minutes for their questions. However, if Members have 
additional questions we can have more than one round of 
questioning. I now recognize myself for five minutes.
    Ms. Jacobson, during public meetings in Florida on the 
proposed Everglades Headwaters National Wildlife Refuge did a 
representative of the Fish and Wildlife Service indicate that 
affected Florida counties would be compensated for lost tax 
revenues through the National Wildlife Refuge Fund?
    Ms. Jacobson. Mr. Chairman, I don't know if anyone 
indicated that specifically. However, the environmental 
assessment does discuss the issue of how counties would be 
compensated for loss of revenues, and the environmental 
assessment does mention the Revenue Sharing Act offsets as one 
means of compensating counties for loss of revenues.
    Dr. Fleming. Well, is it not true that a representative of 
the Service advised at least at one public meeting in 
Kissimmee, Florida, that up to 75 percent of the refuge revenue 
sharing funds are traditionally provided to affected counties?
    Ms. Jacobson. Again, Mr. Chairman, I don't know exactly 
what was said at the public meeting. The Refuge Sharing Act 
fund does provide compensation for lost revenues to counties, 
and the fund itself derives its income through sales, timber 
sales, oil and gas leasing, grazing and so forth.
    Dr. Fleming. Well, is that 75 percent correct? Is that 
accurate?
    Ms. Jacobson. I can get back to you with that answer.
    Dr. Fleming. We have from publication that covered one open 
meeting Lakeside News, and I will read you the quote. It says, 
``In response to taking private property off the tax rolls to 
establish a refuge, Pelizza said, the Federal Government...''--
do you know who this individual is, Pelizza?
    Ms. Jacobson. Yes, I do.
    Dr. Fleming. Okay. ``'The Federal Government has a program 
whereby it annually replaces lost tax revenue to counties and 
that in some cases this revenue could exceed the tax base.' 
However, he also said that Congress has never fully funded this 
program, traditionally providing about 75 percent of the needed 
funding.''
    So that really sounds like a pretty strong commitment to 
the community.
    Ms. Jacobson. Sir, the----
    Dr. Fleming. And let me follow up with that. How much did 
the Obama Administration ask for in Fiscal Year 2012?
    Ms. Jacobson. Yes. To answer your last question first, the 
Obama Administration asked for no funding for the program in 
Fiscal Year 2012 because in this very difficult budget time 
there is a recognition that the funding can come from these 
other sources, and that is sales of timber, oil and gas leasing 
and grazing and other fee generating activities on refuge 
lands.
    In the past, the Refuge Act funds have in some cases, due 
to the formula which is designed to give the greatest amount of 
money possible to the counties in some cases, demonstrated 
cases----
    Dr. Fleming. Well, let me interrupt you there. I hear what 
you are saying, that we have this amorphous group out there 
that has it is really private funds, but I am told that that is 
less than 5 percent of the total.
    The point is that we have people representing the Obama 
Administration promising as much as 75 percent, and yet the 
President himself is asking for nothing for these people. And 
so the question is based on that do you feel like that the 
representative misled the public about the refuge revenue 
sharing?
    Ms. Jacobson. If I may, Mr. Masaus can help answer that 
question.
    Dr. Fleming. Okay.
    Ms. Jacobson. Thank you.
    Mr. Masaus. Mr. Pelizza is the refuge manager at the Archie 
Carr Refuge and is providing the assistance and oversight as we 
look at trying to establish this new refuge. He was a key 
Service representative at several of the public meetings.
    I don't know exactly what he said, but I am assuming that 
what he was trying to explain is that in lieu of the lands 
coming off the tax base that there is a refuge revenue sharing 
program that is available. The fund is from receipts that come 
off of refuge lands, but it usually is never enough to meet the 
requirement to pay the amount that goes to the counties, so 
that is why we go to Congress to supplement that. I think what 
Mr. Pelizza was saying is in the past Congress has funded up to 
about 75 percent of the request.
    Dr. Fleming. Okay. Well, I hear what you are saying, but 
again someone listening and certainly being encouraged by this 
is hearing numbers that even the Administration for whom he 
works is not even encouraging or accepting or promoting, so 
there seems to be some duality there.
    Hey, this is what typically happens. We would expect you to 
get perhaps as much as 75 percent. Meanwhile, the 
Administration is saying we are not even going to ask for 
anything. We are not even going to participate in that level of 
reimbursement.
    So, let us recap. You propose to obligate nearly $700 
million in land acquisition without seeking congressional 
authority, and I believe did you say that was from the stimulus 
bill, the $700 million?
    Ms. Jacobson. No, sir. It may not be $700 million. We don't 
know the number yet. And it would be from the Land and Water 
Conservation Fund primarily.
    Dr. Fleming. Okay. So you are proposing to spend that money 
without congressional authority. We had a hearing on that the 
other day about putting land in refuge without congressional 
approval. This acquisition isn't even in your own land 
acquisition priority list, the top 100.
    Environmentalists all agree the real need for land 
acquisition to aid Everglades restoration is to the south of 
Lake Okeechobee and not to the north as you are proposing, and 
the land you are taking off the Florida payroll has zero 
funding by the Administration for compensation. Do I understand 
that correctly?
    Ms. Jacobson. I think there are many ways of interpreting 
the proposal.
    Dr. Fleming. Well, we are real straightforward people here.
    Ms. Jacobson. Yes. I understand that.
    Dr. Fleming. Is what I said correct? Is that accurate? Is 
that an accurate statement?
    Ms. Jacobson. We have the congressional authority to 
administratively establish refuges. That is clearly 
contemplated in the National Wildlife Refuge System and 
Administration Act because Congress has mandated us to 
continuously grow and improve and strategically add to the 
Refuge System.
    By doing so administratively, we have also the opportunity 
to fulfill our mission of conserving habitat for wildlife when 
that opportunity arises, and in this situation two-thirds of 
the proposed area would be kept on the tax rolls because it 
would be kept in private ownership, so we are really only 
talking about one-third of the proposed acquisition that would 
be in Federal ownership.
    Dr. Fleming. Okay. We will revisit this. We will have a 
second round. Thank you.
    I yield to Ms. Hanabusa.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chairman.
    Ms. Jacobson, before we move off of this, I just want to be 
clear. So you are saying that you do have congressional 
authority to basically establish these areas such as the 
Everglades Headwater National Wildlife Refuge? That is correct, 
right?
    Ms. Jacobson. Yes, ma'am.
    Ms. Hanabusa. Okay. I just wanted to be clear on that.
    Now, as part of the ongoing public process to establish the 
wildlife refuge, the Service has been working in close 
coordination with the Florida Fish and Wildlife Conservation 
Commission on a memorandum of understanding, as I understand 
it, regarding public access in these areas. Will you provide us 
with an update of how that is going, the MOU?
    Ms. Jacobson. Certainly, ma'am. The MOU is progressing very 
well. There have been many meetings and exchanges of the draft 
of the MOU with the Florida Wildlife Commission. The plan is to 
manage these refuge areas jointly with Florida Wildlife 
Commission and many of them under the state's existing wildlife 
management areas.
    So we have close partnership with the state, that MOU is 
progressing, and we hope to have it completed well in time to 
start these co-management activities.
    Ms. Hanabusa. Ms. Jacobson, borrowing from Hawaii, one of 
the things we do have is we have something called the Legacy 
Lands Fund, which is a percentage of our recorded Bureau of 
Conveyances. We record land transactions. A percentage of that 
fund goes into like a legacy land which then assists in the 
purchasing of easements in fee simple, very similar to what you 
are talking about here.
    Is there such an equivalent fund in the State of Florida 
that can be called upon in the purchasing of private lands when 
they want to sell? You made it very clear that it is willing 
buyers and sellers. Well, you are the willing buyer, but 
sellers. And, for example, the easements. Is that also 
available in Florida?
    Ms. Jacobson. I can't speak to what sorts of funding is 
available in Florida. However, we would fully expect that our 
funding source, which would primarily be the Land and Water 
Conservation Fund, that we would complement that with other 
funding opportunities to protect contiguous land.
    So, for example, if an area is protected already or is 
contemplated for protection through a similar fund maybe that 
Florida has similar to that of Hawaii, perhaps we would 
purchase part of that acreage under the Land and Water 
Conservation Fund and then together meld a contiguous 
conservation unit. So we fully expect to look for all 
leveraging opportunities on this acreage.
    Ms. Hanabusa. You also mentioned in your testimony that 
there is a provision that permits for people to donate lands as 
well.
    Ms. Jacobson. Yes, ma'am.
    Ms. Hanabusa. And then you have had people who are 
interested in doing exactly that, donating land to the refuge?
    Ms. Jacobson. It is my understanding that ranchers have 
expressed some preliminary interest in exploring that idea.
    Ms. Hanabusa. Now, talking about ranchers and huntsmen and 
people like that, how is the Service working with the sportsmen 
community in Florida to ensure new hunting and fishing access 
opportunities within the existing refuge units in the State of 
Florida?
    Ms. Jacobson. I am going to turn that over to Mr. Masaus, 
but I will say just as a general matter that both the Refuge 
Act itself and the proposals for this particular refuge 
specifically contemplate hunting as a wildlife dependent 
recreational use, and in all areas where hunting currently 
exists on lands that are contemplated for this refuge and 
conservation area that hunting will be allowed to continue.
    I am going to let Mr. Masaus discuss further what 
discussions we have had with the sportsmen community.
    Ms. Hanabusa. Thank you.
    Mr. Masaus. First of all, I will just say that it was 
mentioned I think there were 28 national wildlife refuges in 
the state. Many of those refuges are small islands off the 
coast or they are barrier islands that are either unsuitable 
for hunting, they would not have huntable species on it, so 
there are several of them in that category where hunting isn't 
even a possibility.
    We do have some other refuges, such as Lake Wales Ridge, 
that are very small units. They were established to protect 
very endangered plants, and it would be difficult to provide--
we don't have any public access in there, not just hunting.
    But that said, we have had several meetings with the 
hunters that have expressed concerns in the South Florida 
community. We have met with them recently. The Fish and 
Wildlife Conservation Commission hosted a meeting for us to 
listen to suggestions they have on providing additional hunt 
opportunities elsewhere, and we are exploring that as we speak.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chair.
    Dr. Fleming. Okay. Thank you. Next up is Mr. Southerland, 
the gentleman from Florida. You have five minutes, sir.
    Mr. Southerland. Thank you, Mr. Chairman. I wanted to 
follow up on since you were talking about the sportsmen. I 
happen to be a sportsman from Florida, so this is an area that 
I am a little familiar with.
    I know that you just alluded to Lake Wales. You know, Lake 
Wales. I just want to make sure that the public understands 
that Lake Wales is over 2,000 acres, and currently there is no 
activity for hunting, so certainly it is being preserved. It is 
not being conserved.
    And in the State of Florida we have almost a million acres 
of wildlife refuges in the State of Florida, and currently only 
28 percent of that million acres is open for hunting. So in 
this particular plan would you be consistent in only allowing 
28 percent with the 28 refuges we have in Florida now?
    Mr. Masaus. No, sir. We would be looking at we have already 
identified in the plan very clearly that we want to provide 
wildlife dependent recreation. In particular, we want to 
provide hunting opportunities.
    Mr. Southerland. But let me say this. And I want to say 
this about hunting opportunities. I mean, I am looking at some 
of the other hunting opportunities that currently exist in 
Florida, and basically having to be able to hunt with a 
slingshot is hardly a hunting opportunity as obviously defined 
by your Department.
    And so if we are going to be consistent, okay, with the way 
that currently the other refuges have opened up hunting, I want 
you to know as a Florida sportsman and as a family who has been 
in Florida that predates statehood--we have been there awhile--
I am telling you we are very aggravated with the public money, 
our tax dollars, being used to buy property and then us not 
have our rights to be able to hunt.
    And so I just want to make sure you either are going to be 
consistent and you are going to do what you have been doing, or 
if you are going to do something different then that certainly 
lays the way for you to go back and review the current status, 
locking Florida citizens out of lands that we are paying for.
    Mr. Masaus. Yes, sir. We understand that, and we fully 
intend to provide hunting opportunities in this refuge.
    Mr. Southerland. Very good. Let me ask you this. I know, 
Ms. Jacobson, you commented about how your proposal here is 
shaped by public input. Unfortunately, it seems to me, that it 
is not shaped by the brutal reality that we are broke, and the 
current Administration has not allotted any dollars towards 
this project.
    I am looking at the services that you provide, and I am 
looking at the Department of the Interior and where these 
properties would go. If we did not owe $15 trillion in debt--
let us just kind of have a wish list here. If we didn't have to 
deal with the brutal reality that this debt is probably the 
greatest risk and threat to America and we had the money, okay, 
let us just assume a second. Why would this not go in the 
Department of Ag and USDA?
    Ms. Jacobson. Congressman, the USDA in fact has a 
conservation program where they also acquire easements under 
the Natural Resource Conservation Service, and recently the 
Department of Agriculture has committed some $100 million to 
provide conservation easements in the area.
    But that is a complementary authority obviously with that 
of the Fish and Wildlife Service, which by congressional 
mandate under our Refuge Act is to continuously grow 
strategically our Refuge System for the conservation of 
wildlife and recreational opportunities for future generations 
of Americans. So even though we are in terrible financial 
times, we must continue to strategically assess opportunities 
for these conservation mandates.
    Mr. Southerland. But clearly you understand that if we are 
broke you don't have those opportunities?
    Ms. Jacobson. The funding here will primarily come from the 
Land and Water Conservation Fund, and that fund is derived from 
revenues from offshore oil and gas leasing so it----
    Mr. Southerland. It is all coming together.
    Ms. Jacobson. It is all coming together, yes.
    Mr. Southerland. Yes. I am sure.
    Ms. Jacobson. Okay.
    Mr. Southerland. I want to say this. Commissioner Putnam, 
who served in this body for five terms, was in my office 
yesterday and so I don't mind. I know we used him as a position 
in our little video there.
    He is extremely concerned about this project, and he is of 
the opinion from an ag family and serving as Florida's 
Department of Agriculture Commissioner that this would in fact 
be much better suited under the USDA because the ranchers that 
you have so eloquently noted today already have working 
relationships with USDA. They are participating in programs 
through USDA. There is already a relationship there.
    And I will say this. The USDA seems to have a much better 
grasp on conservation, whereas the Department of the Interior 
seems to embrace preservation. And so therefore that may 
explain why 28 percent of our lands are able to be hunted on 
because of a preservation mindset. I know I am over my time. I 
yield back.
    Dr. Fleming. The gentleman yields back. Next we have the 
gentlelady from Guam, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I would 
like to welcome the witnesses here this morning. In the 
interest of time, I do have a few questions for you, Ms. 
Jacobson, and if you would just answer yes or no to each of the 
questions.
    First, is it accurate to state that the Service extended 
the period for public comment on the proposed refuge until 
November 25 to allow more time for hunters to provide input?
    Ms. Jacobson. It is accurate, yes.
    Ms. Bordallo. Is it accurate to state that the refuge 
supports military readiness for troops training at Avon Park 
Air Force Range?
    Ms. Jacobson. Yes.
    Ms. Bordallo. Is it accurate to state that the Federal 
Government would make payments to local counties to offset lost 
tax revenues that resulted from Federal ownership of refuge 
land?
    Ms. Jacobson. Yes.
    Ms. Bordallo. Is there any circumstance in which eminent 
domain would be used to acquire property within the proposed 
refuge?
    Ms. Jacobson. None to my knowledge.
    Ms. Bordallo. Will land within the proposed refuge boundary 
only be acquired from willing sellers?
    Ms. Jacobson. Yes. Absolutely.
    Ms. Bordallo. Do land acquisition funding sources utilized 
by the Service tap into taxpayers' dollars?
    Ms. Jacobson. No, because the Land and Water Conservation 
Fund is from offshore revenues primarily.
    Ms. Bordallo. Thank you. Will funding for land acquisition 
within the Everglades Headwaters National Wildlife Refuge come 
mainly from the Land and Water Conservation Fund?
    Ms. Jacobson. Yes, ma'am.
    Ms. Bordallo. And I have a final question here for you, Ms. 
Jacobson. What are the advantages of conservation easements 
over fee simple acquisitions?
    Have local landowners expressed interest in participating 
in the proposed Everglades Headwaters National Wildlife Refuge, 
and how will the Service move forward with working with these 
landowners in the future to respond to their interest in being 
a part of this new conservation area?
    Ms. Jacobson. Conservation easements here are the preferred 
method because they will cover two-thirds of the refuge, 
100,000 acres.
    The conservation easements will allow landowners to 
negotiate the very specific terms of how that land will be 
preserved, so it allows for great flexibility, allows the land 
to stay in private ownership, in this case allows the land to 
maintain a working landscape ranching way of life that has been 
culturally significant.
    And obviously conservation easements can apply to this 
refuge, as well as National Resource Conservation Service 
easements. This is completely voluntary. We will work closely 
with landowners to tailor those conservation easements to best 
meet our mutual needs.
    Ms. Bordallo. Thank you very much. I have one last question 
here for Assistant Secretary Darcy. How does the Corps work 
with its partner agencies to set priorities for the 
Comprehensive Everglades Restoration Plan, and how will the 
Corps work with the Service to set priorities within the larger 
landscape to encompass the proposed Everglades Headwaters 
National Wildlife Refuge?
    Ms. Darcy. Congresswoman, the Corps of Engineers has been 
working with the Department of the Interior, as well as our 
other state partners, throughout the whole development of the 
Comprehensive Everglades Restoration Plan beginning back in the 
late 1990s. We continue to work with them.
    We both serve--that is, myself and Ms. Jacobson--as well as 
other heads of the Federal agencies who are involved in this 
project are part of the Everglades Restoration Task Force. We 
just recently had a meeting in Florida, and part of those 
meetings are to have updates with the other agencies as to what 
our plans are moving forward.
    And that is when we, the Army Corps of Engineers, 
announced, along with our partner, the South Florida Water 
Management District, that we are going to go forward with a 
planning process that is unprecedented not only in Florida, but 
within the Army Corps of Engineers.
    So we are really looking forward to making that happen, and 
all of the Federal partners will be part of that planning 
process.
    Ms. Bordallo. So you are all working well together?
    Ms. Darcy. Yes, ma'am.
    Ms. Bordallo. Thank you very much, and I yield back, Mr. 
Chairman.
    Dr. Fleming. The gentlelady yields back. Next, Mr. Wittman 
from Virginia. Five minutes, sir.
    Mr. Wittman. Thank you, Mr. Chairman. I would like to thank 
our panelists for joining us today.
    Ms. Darcy, I have a question of you. Your comments 
concerning the Comprehensive Everglades Protection Plan or 
Restoration Plan talk about the natural progression of applied 
science and how restoration activities will take place within 
that area and the commitment to the use of adaptive management. 
I am very interested in that application. A bill that went 
through this Committee recently, H.R. 258, would use adaptive 
management in restoration activities within the Chesapeake Bay.
    I want to get your perspective, first of all, about how do 
you think adaptive management can be used in the Everglades 
restoration project, and can you tell me what you have learned 
or what the Corps has learned from the implementation of 
adaptive management and how you would see that going forward in 
the restoration plan for the Everglades and if you see an 
enhanced opportunity for the use of that particular concept 
there to improve restoration activities.
    Ms. Darcy. Thank you, Congressman. We have been actually 
using adaptive management throughout the planning process. One 
thing that we are finding, the initial Everglades Restoration 
Plan was authorized in 2000, and Congress told the Corps of 
Engineers, as well as our Federal partners, that we should use 
adaptive management because the science is always changing.
    What we have discovered in one instance is that now what we 
thought in the initial CERP authorization was that we would 
need 1.3 billion cubic feet per second or gallons I think, but 
what we have learned over the last 10 years is that we are 
going to need more water. We are going to need more than two 
billion as initially we thought, but we have learned that 
through science.
    And what we have also learned is that some of the storage 
that we have developed, some is working better than others. I 
mentioned in my statement that stormwater treatment areas are 
being used in the Everglades, and that we are learning from 
them. We are using those to treat water, and as we do that we 
are learning that we can get many of the nutrients out of the 
water by using what are called STAs, but they are like 
constructed wetlands.
    We are continuing to monitor those and adapting the plans 
to recognize that because some of those work better than maybe 
some of the reservoirs that we had initially thought would be 
able to treat and store these maybe working better, so that is 
what we are learning from the science. The adaptive management 
I think can also be translated in places like the Chesapeake 
Bay.
    Mr. Wittman. Thank you, Ms. Darcy. Ms. Jacobson, serving on 
the Migratory Bird Conservation Commission gives me a unique 
perspective about addition of lands to the National Wildlife 
Refuge System. Looking at that, I know that there is a land 
acquisition priority system list for 2013, and I believe that 
there are three sites in that priority list there in the State 
of Florida.
    Can you tell me with the proposed addition of the site in 
question for the Everglades where that stands in the priority 
list? Is that one of the priorities? And if it is not, then how 
would it be integrated into that list in relation to those 
other three properties?
    Also, as you know, any addition to the System based on duck 
stamps dollars purchasing that, a critical part of that is not 
only consultation, but agreement with the states, the 
participating states. As you know, I believe the governor of 
Florida hasn't taken a position yet on this particular piece 
coming into the Refuge System. Can you give us your perspective 
about working with the state, both the state officials there 
and the congressional delegation, as far as their buy-in to any 
kind of additions to the Refuge System?
    Ms. Jacobson. Yes, sir. Thank you very much, and thank you 
for your service on the Commission. It is very much 
appreciated.
    Mr. Wittman. Thank you.
    Ms. Jacobson. And thank you for your support of Fort 
Monroe.
    Mr. Wittman. Yes.
    Ms. Jacobson. On behalf of the Secretary and the entire 
Department, thank you.
    Mr. Wittman. Thank you.
    Ms. Jacobson. To answer your question, any proposed 
projects that are now before the Commission through duck stamp 
acquisitions that would still be subject to the Commission's 
approval are not affected by this proposal.
    We don't know exactly yet because we haven't even begun our 
negotiations for any particular parcel of land that would be 
subject to the headwaters refuge and conservation area, but 
should any of it be the type of wetland that is compatible with 
the Commission's goals, certainly we would come before the 
Commission, as well as the state, to get prior approval before 
acquisition of those lands.
    Our intention here is to be as collaborative and 
cooperative as possible with local officials, with Congress and 
with all stakeholders, so we will make sure for every parcel we 
acquire that all affected stakeholders are consulted and all 
authorities are obtained.
    Mr. Wittman. Very good. Thank you. Mr. Chairman, I yield 
back.
    Dr. Fleming. The gentleman yields back. Next, Mr. Ross also 
from Florida. You have five minutes.
    Mr. Ross. Thank you, Mr. Chairman, and, Members, thank you 
for allowing me to be an ex-officio Member today.
    As I look at the maps and hear the testimony, this is my 
backyard. I am a native of Florida. I have hunted and fished in 
those areas, and I have a strong sense of making sure that we 
can serve those lands. You know, we have been known for our 
citrus, our tomatoes, our strawberries. We are a strong 
agricultural state, and I know over the last couple years we 
have grown a lot of houses too, but it is important to me that 
we continue to maintain the natural pristine beauty that 
Florida has always offered and hopefully will continue to.
    To that end, I agree with conservation easements. I think 
they are a great way to promote the theory that I have that the 
greatest stewards of the lands are those ones that make their 
livelihood from it. That being said, we have 150,000 acres that 
we are looking here at the upper Everglades restoration. Fifty 
thousand of those I guess are going to be in fee simple. Is 
that correct, Ms. Jacobson?
    Ms. Jacobson. Correct. Thank you.
    Mr. Ross. And only on the fee simple ones will we then have 
the opportunity for recreational purposes? Is that correct 
also? In other words, not with conservation easements.
    Ms. Jacobson. That would be up to the particular landowner 
and would be a term of the conservation easement, so it is 
certainly possible that----
    Mr. Ross. But just to make clear, are you aware of any 
conservation easements wherein the landowner does offer a 
public access for recreational purposes?
    Ms. Jacobson. I would have to look at that and get back 
with you. I am not personally aware. I assume there are certain 
circumstances where those entities are allowed.
    Mr. Ross. In the 50,000 acres that we are looking at or 
that is being considered, in what size tracts are they being 
considered? In other words, if I was a landowner with an eighth 
of an acre could I participate, or are there minimum size 
tracts that are being looked at for acquisition?
    Ms. Jacobson. I am going to turn that over to Mr. Masaus, 
but I can't imagine an eighth of an acre would be eligible. I 
think we are talking about much larger tracts.
    Mr. Ross. Okay.
    Mr. Masaus. That is correct. We don't have necessarily a 
minimum acreage amount, but we do need to have something that 
would be worth the investment that we are looking at, something 
that accomplishes the goals of protecting the resource, 
providing the connectivity for the wildlife corridor.
    Mr. Ross. You know, because this is in my backyard and I 
was first approached about this by some of the recreational 
users down there, a lot of the hunters, airboaters, fishermen 
who were very concerned that when the Fish and Wildlife Service 
came down there that they were going to take away their rights.
    The question I have is looking at the 28 wildlife refuges 
in the State of Florida where only seven are now available for 
hunting, what guarantees or assurances can I give to my 
constituency that if this 50,000 acres actually goes through 
and is purchased for this particular purpose that recreational 
use will be maintained and access allowed?
    Ms. Jacobson. Congressman, starting from the Refuge Act and 
then looking at the environmental assessment itself, one of the 
stated goals and purposes of the establishment of this refuge 
is to make sure we provide wildlife compatible recreational 
access and opportunity, including hunting.
    As a matter of fact, the 50,000 acres, because they will 
come from private ownership into public ownership, we expect 
that will increase hunting and other recreation opportunities.
    Mr. Ross. And that is what I want to make sure about too 
because the ratio doesn't look good right now when you have 
seven of 28 open for hunting. There has to be a reason for 
that, whether it is because of lack of resources to man them or 
for whatever reason.
    My concern is I go back home, and again I believe in the 
conservation easements. I believe in restoration of the upper 
Everglades. There is no question about that. But I also want to 
make sure that we maintain the integrity of the land and allow 
for those who have for generation upon generation used it for 
recreational purposes are not foreclosed in that opportunity.
    Ms. Jacobson. That is our intention as well.
    Mr. Ross. So that is what I can go back and say is that it 
is their intention to make sure we continue to use this?
    Ms. Jacobson. Absolutely.
    Mr. Ross. Because I know especially in the area of the 
River Ranch area where those individual owners became very 
alarmed. In fact, a panic set in because they saw people down 
there in uniform and they thought my gosh, they are taking away 
our rights. I am dealing with people that don't deal with 
government every day that want to make sure that they are not 
losing their rights. That is important to me in my 
representation of my constituency.
    That being said, also I want to make sure about the funding 
of this. I know we have gone from $7.5 billion now to $13 
billion. I don't know where it is going to end up. But just to 
confirm, none of this comes from taxpayer dollars, does it?
    Ms. Jacobson. No, it does not.
    Mr. Ross. And what are the sources for funding of this?
    Ms. Jacobson. Primarily the source would be the Land and 
Water Conservation Fund, which is derived from primarily 
offshore oil and gas revenue and other revenues that come to 
the Federal Government from various extractive activities.
    Mr. Ross. And one last question. Florida has fronted or at 
least absorbed 79 percent of the $3.5 billion in the 
restoration so far. I know they are having a problem. Their 
budgets are tough to balance, but they have to balance the 
revenues. What happens if they discontinue their partnership in 
this?
    Ms. Jacobson. In the refuge or the restoration?
    Mr. Ross. In the restoration. I am sorry. Ms. Darcy?
    Ms. Darcy. We are confident that both parties at the table, 
the State of Florida and the Federal Government, are going to 
be able to make their commitments of our 50/50 partnership.
    We have recently met with the governor, and we have renewed 
commitments on this important project. We are both in tight 
budget situations, but we are both committed to this 
restoration effort.
    Mr. Ross. Thank you. I yield back.
    Dr. Fleming. The gentleman yields back. Next is Mr. Rivera, 
the other gentleman from Florida.
    Mr. Rivera. Thank you very much, Chairman Fleming, for 
holding this important hearing. I want to preface my questions 
with a statement regarding this issue because I am proud and 
honored to represent the Everglades National Park, along with 
Big Cypress National Preserve, both of which are in my 
congressional district.
    The Everglades of course goes beyond Everglades National 
Park. The Everglades is the ecosystem of South Florida, 
stretching from Shingle Creek south of Orlando to Florida Bay 
just on the southern tip of the Florida mainland. It is where 
we draw our drinking water, where we swim, where we fish, where 
many of my constituents of course call home.
    The Florida Everglades is one of our nation's greatest 
natural treasures. The Everglades' combination of abundant 
moisture and rich soils and subtropical temperatures support a 
vast array of species. However, flood control and reclamation 
efforts of the past have manipulated the Everglades' hydrology, 
redirecting fresh water destined for the Everglades out to sea. 
The ecosystem has changed because it now receives less water 
during the dry season and more during the rainy season.
    The projects under the Comprehensive Everglades Restoration 
Program will capture fresh water, the life blood of the 
Everglades, destined for the sea and direct it back to the 
ecosystem to revitalize it and protect threatened and 
endangered plants and wildlife. In order to do this, however, 
we must also take steps to ensure that water flowing into Lake 
Okeechobee is as clean and free from pollutants as possible. 
Therefore, as part of a larger vision for Everglades 
restoration and clean water flows I generally support the 
Everglades headwaters project.
    Having said that, I have some concerns about the headwaters 
refuge as proposed by the U.S. Fish and Wildlife Service. One 
is procedural, the other substantive. On the procedural 
concern, I believe that only Congress may authorize a new 
refuge, and notwithstanding prior comments I want to make sure 
on the substantive front as well to ensure that state agencies 
such as the South Florida Water Management District will have 
access to the refuge for flood mitigation and pollutant control 
if necessary.
    I know there are several of my other colleagues that have 
raised similar concerns. I believe that many of those concerns 
stem from past experiences with the Department of the Interior. 
Promises were made in the past related to access, hunting 
rights and other issues, and either misunderstandings or just 
promises not kept from one Administration to the next whatever 
may have been the cause.
    So in order to alleviate some of these concerns, I would 
like to request that the U.S. Fish and Wildlife Service 
participate in perhaps the drafting of legislation that can be 
introduced in Congress either by myself or another Committee 
member or perhaps one of my Florida colleagues so we can use it 
as base to modify or codify or address the concerns that have 
been raised by stakeholders. With an authorization process 
then, any agreements entered into with hunters, ranchers, 
airboat operators and others can be set in stone, so to speak.
    So I would like to know if I can count on U.S. Fish and 
Wildlife to work with me in this effort, Madam Secretary.
    Ms. Jacobson. Mr. Congressman, thank you for your support 
and your representation in a district that holds many of our 
assets.
    Currently the refuge is proposed to be established 
administratively, but of course if this Congress wishes to 
propose any specific legislation with respect to this refuge or 
another specific refuge, because refuges have also been created 
legislatively, we would certainly be willing to review that and 
work with you so that we accomplish the goals of creating this 
refuge.
    Mr. Rivera. I appreciate that very much. And just in the 
limited time I have left, specifically on the Everglades 
Headwaters National Wildlife Refuge and Conservation Area, is 
this being given a prioritization, a higher priority than any 
of the 68 pending CERP projects?
    Ms. Jacobson. I can tell you it is a different priority. 
The CERP projects are obviously under the jurisdiction of the 
Corps in partnership with the South Florida Water Management 
District, and Ms. Darcy can address those.
    It is also a stated goal of this refuge to complement and 
where possible to aid the Florida Everglades restoration effort 
by increasing substantially water storage, by allowing a more 
natural hydrology, by creating close to 27,000 new acres of 
wetlands, so the proposed management of the headwaters refuge 
and conservation area is intended to complement and, where 
possible, aid directly in the restoration of the Everglades 
overall.
    Mr. Rivera. Secretary Darcy?
    Ms. Darcy. The establishment of the refuge is not in 
competition with the existing 64 CERP projects that we have.
    Mr. Rivera. Okay. Thank you. Thanks, Mr. Chairman.
    Dr. Fleming. Okay. The gentleman yields back. Panel, we 
would like to have a second round. Are you up for it today?
    Ms. Darcy. Sure.
    Dr. Fleming. Okay.
    Ms. Jacobson. Absolutely.
    Dr. Fleming. Great. Thank you. Okay. I will recognize 
myself for five minutes.
    I want to take issue, and maybe this is a distinction 
without a difference, Ms. Jacobson, with your statement that 
this is not taxpayer money. It is not coming out of the 
Treasury. It is not coming out of the General Fund. That is 
true. But one way or another, the Land and Water Conservation 
Fund, people who are buying gasoline, people who are using 
energy are paying a tax for this to happen.
    But, more importantly, are you aware that we are down 500 
million barrels a day production in offshore and so again we 
have a situation where the Administration, without 
congressional authorization, wants to move forward, jump ahead, 
grab off for these purchases through fee simple, willing 
buyers, willing sellers, for the purchase to preserve these 
lands, but again not willing to backfill the tax revenues and 
is working against us on the oil production.
    We are off in the Gulf about 500 million barrels a day, and 
that is going to be hitting this fund if it hasn't already. You 
are going to see declining revenues. Again, we have tried to 
work with the Administration numerous times. We have had 
numerous hearings again with Mr. Bromwich, Mr. Salazar. They 
insist on clogging up the permits for offshore drilling. We are 
losing rigs to Brazil and the Congo and places like that.
    So I would love to have your comment on what does this mean 
for the future of these projects? Remember, this project is not 
even in your top 100. Pretty soon, at the rate the 
Administration is going by choking off the revenue you are 
going to run out of money for this sort of thing.
    Ms. Jacobson. Mr. Chairman, I can't speak specifically to 
the numbers in terms of leases and offshore production going 
forward, but what I can say is that the Administration and the 
Department of the Interior, Secretary Salazar and Director 
Bromwich have gone forward with additional leasing. We 
recognize that the Gulf is a primary source of domestic energy 
development, and we will go forward as such.
    The acquisition in any given year of properties through 
funding from the Land and Water Conservation Fund is a 
balancing, so we look at the revenues coming in and we look at 
the needs, and what we are doing right now is simply 
establishing administratively what boundaries would be eligible 
for those acquisitions in the future should the funding be 
available.
    Dr. Fleming. Right. And I understand what you are saying, 
and we have had these arguments and quibbled back and forth 
about whether the permits are up to the old levels or not.
    The one thing that is undisputable in terms of facts, and 
that is that the production levels have dropped and they 
continue down. So I would suggest to you that you are going to 
find yourself more and more limited and maybe some of your top 
priority things are not going to get funded at all as we go 
forward.
    My next question is since 2001, what is the level of 
Federal investment--I am sorry. This is for Madam Secretary. 
This question is for you. Since 2001, what is the level of 
Federal investment in the Comprehensive Everglades Restoration 
Plan, and do we know yet what is likely to be the total Federal 
expenditures to complete the project?
    Ms. Darcy. The initial cost estimates for the project, the 
entire restoration project, is about $13.5 billion. That is a 
50/50 cost share between the Federal Government and our local 
sponsor, the State of Florida
    To date, I believe we have spent $2 billion, again 50/50 
cost shared, so part of that has been spent by the state and 
some by the Federal Government. But the numbers I gave in my 
testimony, I think it was between 2005 to now we have spent 
$735 million.
    Dr. Fleming. Okay. And after reviewing details of the 
restoration plan, it appears that the vast majority of the work 
done by the Army Corps of Engineers and the South Florida Water 
Management District has occurred south of Lake Okeechobee. Is 
that correct?
    Ms. Darcy. Yes, it is.
    Dr. Fleming. Why?
    Ms. Darcy. Well, that is where the hydrology needed the 
most attention immediately. If you look at the lake, you have 
Lake Okeechobee and what is south of the lake. I mean, the 
water that comes from the lake traditionally since the 1950s 
has been going out to tide. With the Caloosahatchee River on 
one side and St. Lucie estuary on the other, so the water has 
been going out to tide.
    What we are trying to do now is to get the water to flow 
south. Our initial projects have been mostly on the sides, if 
you have the map up there. There, south you can see the water 
conservation areas. That is where we can collect water, store 
it. Through those stormwater treatment areas the water gets 
treated and then it is released to flow south.
    So that is where we have concentrated our initial efforts. 
The planning process I alluded to in my testimony is where we 
are looking next. If you look at this, one of our engineers 
calls it the wishbone. We have been doing most of our work on 
either side of the lake, and so what we are going to look at 
now in this planning process is the middle, is the sheet flow 
of the central part of the Everglades.
    Dr. Fleming. Okay. And based on your math, you are going to 
need an additional $6 billion in Federal money?
    Ms. Darcy. Over the course of the project.
    Dr. Fleming. Right. Okay. All right. I yield back, and I 
recognize Ms. Hanabusa.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chairman. Let us 
follow along that line, Secretary Darcy.
    I think for anyone who is listening to us they may be 
getting confused about what the Army Corps' role is in all of 
this and what CERP, as you call it, which is the Comprehensive 
Everglades Restoration Plan, and how does that then fit into 
what Ms. Jacobson is talking about, which is the Everglades 
Headwaters National Wildlife Refuge.
    So can someone in a short sentence or so tell us how the 
two fit together, whether they overlap and for anyone listening 
in that they can get a better idea of what the Army Corps' role 
is and what Fish and Wildlife's role is?
    Ms. Darcy. Certainly. The Army Corps of Engineers builds 
stuff, and so we are the engineers who try to get the water 
right.
    In talking about the refuge, which would be north of the 
lake, that will help, as has been discussed, in helping to keep 
the water north and also to help in the natural treatment of 
the water. So it is all connected. It is a huge system. It is a 
huge, complex system. And so what we are trying to do in order 
to get the water right, both the quality, the quantity, the 
distribution and the timing of it, is to be working with the 
Department of the Interior because of the refuges and the 
endangered species impacts of whatever we do.
    So there is a balance between what we do in our 
construction, whether it is around the lake or south or in 
constructing a stormwater treatment area. The Corps of 
Engineers has constructed one stormwater treatment area. The 
State of Florida has constructed five other ones. Again, they 
are all south of there, but they are all connected because the 
water has to eventually go through Loxahatchee, the Big Cypress 
and all of those wildlife refuges, as well as the preservation 
areas as well.
    Ms. Hanabusa. Ms. Jacobson, so how do you fit in?
    Ms. Jacobson. Thank you. So if the Corps builds stuff, the 
Fish and Wildlife Service conserves stuff. So with respect to 
the ongoing CERP project and the establishment of the 
Everglades Headwaters Refuge, the intent of the refuge area is 
to stop a stem of development that would otherwise cause 
perhaps a loss of hydrology, natural hydrology of this water 
flow.
    So by creating a refuge, we, as I said before, will restore 
up to 26,000 acres of wetlands. Wetlands serve as an important 
filter for nutrients and other pollutants and will allow a 
natural hydrologic flow into the floodplain areas, will provide 
for natural storage areas, which will be much cheaper than 
constructed storage areas, and all of this is intended to 
contribute to the overall health of the ecosystem to very much 
complement and perhaps ultimately maybe in the long run reduce 
partially the cost of the CERP effort.
    Ms. Hanabusa. So you are like nature's way of doing what 
the CERP project has to do because we haven't done the natural 
way correctly. Would that be a right way of saying it?
    Ms. Jacobson. That is our intention. Absolutely.
    Ms. Hanabusa. Now, both of you are speaking to the funding 
source of the Land and Water Conservation Fund. Am I hearing 
you correctly?
    Ms. Darcy. The Land and Water Conservation Fund will be 
used for the establishment of the refuge. The funding for any 
of the CERP projects comes from appropriations.
    Ms. Hanabusa. So let us go back to the funding through the 
Land and Water Conservation Fund. Though you have already 
testified that the Administration hasn't specifically requested 
funds for 2012, I guess the question is are there, 
notwithstanding that, funds like carrying over or still 
remaining available to meet the needs that you have for this 
upcoming fiscal year?
    Ms. Jacobson. We have obviously talked about a lot of 
different funding pots and funding needs here. So the place 
where we have not requested funding is the Revenue Sharing Act 
offset. That is the piece of the funding provided by Congress, 
as opposed to just derived from refuge revenues, to compensate 
counties and other local authorities for loss of potential tax 
revenue.
    Separately, the acquisition funding for the fee 
acquisitions, as well as the easements, we anticipate that 
would come from the Land and Water Conservation Fund, which is 
appropriated by Congress through royalties and similar receipts 
to the general treasury.
    Ms. Hanabusa. So when you are out there in the community 
and you are meeting with landowners, ranchers, whoever they may 
be, who might be considering either selling an easement or 
selling in fee simple, you view that a process that will 
eventually end up with funding from the Land and Water 
Conservation Fund, but I assume from what you are saying that 
you don't believe that that is a necessary funding pot now? Is 
that correct?
    Ms. Jacobson. As soon as we receive the final authorities 
through the environmental assessment and the planning documents 
to establish administratively the boundaries of a refuge, we 
will then begin the negotiations with willing sellers for the 
acquisition of those properties.
    And through a process that goes on every year, the 
Department of the Interior will look at the pot of Land and 
Water Conservation funds available and the various 
acquisitions, both for parks, refuges and otherwise, plus the 
Forest Service also taps into the Land and Water Conservation 
Fund, and make funding decisions appropriately.
    Ms. Hanabusa. So it is rather premature now because your EA 
doesn't appear to even be completed at this point?
    Ms. Jacobson. That is correct. The draft is still out for 
public comment and of course we will have to go through the 
final, so it would be a ways off.
    Ms. Hanabusa. Thank you. I yield back, Mr. Chair.
    Dr. Fleming. The gentlelady yields back.
    I want to thank the panel for your testimony and hard work, 
Secretary Darcy and Ms. Jacobson, and we ask that should 
Members have additional questions, they submit them to you in 
writing and that you respond to these in writing as well. The 
hearing record will be open for 10 days to receive these 
responses. Thank you, and we are ready for Panel 2.
    Ms. Jacobson. Thank you.
    [Pause.]
    Dr. Fleming. I see that our second panel is seated and we 
are ready to go. I want to thank you gentlemen for joining us 
today. We are now ready to introduce the second panel.
    It includes The Honorable William P. Horn, former Assistant 
Secretary of the Interior and a past member of the National 
Academy of Sciences' Commission on Independent Scientific 
Review of Everglades Restoration Progress; The Honorable Rick 
Dantzler, former member of the Florida Legislature and Co-
Chairman of the Northern Everglades Alliance; Mr. Eric Draper, 
Executive Director, Audubon of Florida; Mr. Bishop Wright, Jr., 
President, Florida Airboat Association; and Mr. Jorge 
Gutierrez, Jr., President, Everglades Coordinating Council.
    Briefly, repeating my earlier instructions, your written 
testimony will appear in full in the hearing record. I ask that 
you keep your oral statements to five minutes as outlined in 
the invitation letter to you and under Committee Rule 4[a]. Our 
microphones are not automatic, so you will need to push the 
button. Make sure you are nice and close to the microphone as 
well.
    The timing light is very straightforward. You will be under 
green light for four minutes, then yellow light for your final 
minute of testimony, and then when it turns red, if you haven't 
already, go ahead and wrap up.
    Mr. Horn, you are now recognized for five minutes, sir.

   STATEMENT OF HON. WILLIAM P. HORN, PAST MEMBER, NATIONAL 
ACADEMY OF SCIENCES' COMMITTEE ON INDEPENDENT SCIENTIFIC REVIEW 
               OF EVERGLADES RESTORATION PROGRESS

    Mr. Horn. Thank you, Mr. Chairman. My name is Bill Horn, 
and I appear today on my own personal behalf and certainly 
appreciate the opportunity to testify on Everglades restoration 
priorities.
    Based on my experience with these issues over many years, 
first as Assistant Secretary of the Interior under President 
Reagan and four recent years on the National Academy's 
Everglades Restoration Review Committee, I am persuaded that 
more commitment to water storage and water quality treatment 
south of Lake Okeechobee and elimination of physical barriers 
to natural water flows within the Everglades are much higher 
restoration priorities than diversion of finite dollars to a 
new Federal refuge north of the lake.
    The fundamental objective of CERP, as explained by 
Secretary Darcy, is to get the water right, to substantially 
re-establish clean water flows between Okeechobee and Florida 
Bay. And unless this is changed soon, the National Academy 
Committee was deeply concerned that adverse ecological changes 
occurring in the Glades may not be reversible.
    Now, to get the water right CERP clearly recognized the 
need to develop substantial water storage capacity outside of 
Lake Okeechobee primarily in the form of stormwater treatment 
areas, the STAs. Presently there are six of these STAs all 
south of the lake covering about 45,000 acres. Construction and 
operation of these treatment areas is very pricey.
    Notwithstanding these costs, the 2010 committee report from 
the Academy concluded ``increasing water storage and associated 
water treatment is a major near term priority'' for the 
restoration effort. The report also observed that presently 
planned STA expansion would still not provide enough water for 
full-fledged implementation of CERP projects.
    The story is much the same for water quality. Water 
delivered into the Everglades is to have no more than 10 parts 
per billion of phosphorous as higher levels adversely change 
the ecosystem. When CERP was authorized, there was general 
belief that the water cleanup could occur within about a 
decade, meaning about now. Unfortunately, reality is quite 
different because of the persistence of legacy phosphorous in 
Lake Okeechobee and in the Everglades agricultural area south 
of the lake, and the result is that the phosphorous problem 
solution is still years in the future.
    Because of the persistence of the phosphorous, the Academy 
Committee concluded that, ``The current acreage of STAs as 
managed is not sufficient to meet existing water flows and 
phosphorous loads, and necessary additional STAs are likely to 
cost well in excess of $1 billion.'' Given the critical nature 
of the water quality and quantity issues, I am persuaded that 
hundreds of millions of dollars of fungible taxpayer and 
fungible Federal dollars are better off spent on these water 
quality issues than they are on a refuge unit north of the 
lake.
    There are other higher restoration priorities. Congress 
authorized Mod Waters in 1989 to help water flows in Everglades 
Park fundamentally to breach the dam created by the Tamiami 
Trail. The project was delayed for 20 years, only got started 
two years ago when Congress had to enact a NEPA exemption, and 
because of excessive cost the current scaled down project will 
provide only a fraction of the benefits originally 
contemplated.
    The Corps and the Department are presently examining a 
Phase 2 of Mod Waters with a price tag north of $300 million 
that would provide the originally envisioned level of benefits. 
I would personally strongly urge Congress to fund the second 
phase of Mod Waters and realize the full benefits contemplated 
from the 1989 authorization before it committed the same 
fungible Federal revenues to a northern wildlife refuge.
    Even though I can foresee some benefits arising from the 
refuge, I am persuaded that the incremental benefits are not 
worth the multi hundred million dollar price tag, especially 
given the state's present conservation efforts north of the 
lake and the more pressing needs south of the lake.
    Let me just wrap up with I think there needs to be some 
honesty about exactly what the Land and Water Conservation Fund 
is and how it works. It is a line of credit. The dollars that 
are ostensibly sent into it are not dedicated and solely 
limited to land acquisition. Congress for 40 years has 
routinely redirected the funding from the LWCF to spend it on 
what Congress thinks it needs to be spent on so that a dollar 
that goes into this fund, which is not a fund like the Highway 
Trust Fund, is not dedicated to land acquisition.
    The bottom line is a dollar spent on land acquisition in 
the headwaters refuge is a dollar that is not available to be 
spent on these more pressing projects south of the lake. Thank 
you.
    [The prepared statement of Mr. Horn follows:]

                      Statement of William P. Horn

    Mr. Chairman: My name is William P. Horn and I am appearing today 
on my own behalf; my comments are purely my own and I do not purport to 
speak for or represent any organizations or committees. I appreciate 
the invitation to testify on Everglades restoration, restoration 
priorities, and proposals to create a new Everglades Headwaters 
National Wildlife Refuge (NWR). Based on long experience with 
Everglades issues, I am persuaded that more commitment to water storage 
and water quality treatment, south of Lake Okeechobee, and elimination 
of physical barriers to natural water flows within the Everglades, are 
much higher priorities for Everglades restoration than diversion of 
finite resources, dollars and personnel, to a new refuge unit north of 
the Lake. Moreover, the State of Florida has already enacted programs 
directed at conservation, including water quality improvement, of the 
Lake Okeechobee headwaters region. There is no indication that a 
federally directed conservation effort (i.e., a new refuge) will be 
superior to the State-directed conservation program. Lastly, as the 
federal presence in the greater Everglades eco-system is concentrated 
south of the Lake (i.e., Loxahatchee NWR; Florida Panther NWR, Ten 
Thousand Islands NWR, Biscayne Bay National Park, Big Cypress National 
Preserve, and Everglades National Park), it makes sense to maintain the 
federal focus there and let the State take the lead role north of 
Okeechobee.
    These conclusions and recommendations arise from long term 
professional and personal interest in Everglades issues. As Assistant 
Secretary of the Interior for Fish, Wildlife, and Parks in President 
Reagan's second term, I was actively engaged in a number of south 
Florida conservation matters. These included (a) negotiations involving 
Everglades National Park (ENP), the Army Corps of Engineers (ACE), the 
South Florida Water Management District (SFWMD), Florida Department of 
Environmental Protection, and the Governor which led to Congressional 
approval of the Modified Water Deliveries (Mod Waters) project in 1989 
(designed to provide more natural water flows across the Tamiami Trail 
highway into the Shark River Slough within ENP); (b) work with ENP, 
SFWMD, and agricultural interests on water management in Canals L-31, 
C-111 and the ``Frog Pond'' to provide better water flows into Taylor 
Slough in ENP; (c) conception and negotiation of the Arizona-Everglades 
land exchange, approved by Congress in 1988, in which 85,000 acres were 
added to the Big Cypress National Preserve, 7500 acres added to 
complete the Florida Panther NWR, and nearly 20,000 acres acquired to 
create from scratch the Ten Thousand Islands NWR (without any land 
acquisition expenditures); and (d) negotiation of the Aerojet-SFWMD 
exchange, approved by Congress in 1987, which enabled SFWMD to acquire 
lands along the C-111 Canal (now part of an Everglades restoration 
project nearing completion) as well as additional federal land 
acquisition for the Key Deer NWR in the lower Florida Keys. More 
recently I served for four years (2007-2010), in a voluntary capacity, 
on the National Academy of Sciences (NAS) Committee on the Independent 
Scientific Review of Everglades Restoration Progress (CISRERP) and 
contributed to the Committee's Biennial Reports published in 2008 and 
2010 (``NAS Reports,'' ``Biennial Report,'' ``Report''). Lastly, 
regarding the National Wildlife Refuge System, I was Chairman of the 
Congressionally-established National Wildlife Refuge System Centennial 
Commission in 2002-2003 and played an active role in conception and 
enactment of 1997 Refuge System Improvement Act. These experiences 
inform this statement.

Everglades Background
    Conservation of the Lake Okeechobee headwaters is a valuable and 
worthy objective. The waters that flow into the Lake from the north 
mostly flow out on the south to nourish and sustain the Everglades. The 
`Glades stretched historically from the Lake south to Florida Bay. In 
between was the River of Grass--a slow moving ``river'' that was miles 
wide and often only inches deep creating a unique subtropical ecosystem 
of sawgrass plains, tree islands, and sloughs supporting a profusion of 
fish and wildlife. Where these waters emptied into Florida Bay via the 
Shark River and Taylor Sloughs (now within Everglades National Park 
(ENP)), a rich estuarine habitat was established supporting an 
incredible fishery, more wading and fish eating birds, and species such 
as the American crocodile.
    Between the late 1800's and the 1960's, this water system was 
damned, diked, diverted, drained and polluted. This effort--supported 
and funded at all levels of government--helped create modern south 
Florida but with predictable adverse environmental effects. To offset 
these effects, and attempt to save and restore a dying ecosystem, 
Congress in 2000 approved the Comprehensive Everglades Restoration 
Program (CERP). Building on previously authorized restoration projects 
such as Mod Waters, CERP is an enormous, costly effort to restore the 
remaining Everglades to a reasonable measure of health. Befitting such 
a massive program, it is based on a partnership with the State of 
Florida and responsibilities, and costs, are shared.

``Get the Water Right''
    The fundamental objective of CERP is to ``get the water right''--to 
substantially reestablish natural water flows between Okeechobee and 
Florida Bay. This entails providing sufficient water quantities, 
sufficient water quality, and moving the water through the system at 
the right time. The right quantities are needed so the Everglades are 
not dried out or starved of needed water. It is plainly evident that 
substantial reductions of historic water flows over the last 50 years 
are precipitating ecological changes in the `Glades that may not be 
reversible if corrective action does not occur soon. Similarly, sending 
water of insufficient quality through the `Glades also causes adverse 
changes, that if not reversed soon, may also be irreversible. A visit 
to the Loxahatchee NWR or portions of the State's Water Conservation 
Area (WCA) 2 reveals that poor quality water with excessive nutrients, 
primarily phosphorus, changes the natural Everglades habitat into a 
cattail monoculture.
    Historically, over 1.7 million acre/feet of surface water each year 
flowed into what is now ENP. Today less than 0.9 million acre/feet flow 
into the Park. Decades of diminished flows have taken their toll on 
bird populations and fisheries and caused damaging hypersaline 
conditions in Florida Bay. CERP seeks to increase present flows to get 
significantly closer to the historic 1.7 million acre/feet level.
    Lake Okeechobee (along with rainfall) was the primary source of 
water feeding the `Glades. The NAS 2008 Biennial CISRERP report 
referred to the Lake as the ``heart'' of the Everglades because it 
pumped the life giving water into the system. Today, however, the Lake 
is beset with problems that prevent it from fulfilling its historic 
role--it suffers from serious ``heart disease.'' Water can no longer be 
held or stored in the Lake in sufficient quantities because of levee 
safety issues, flooding of the littoral zones on the western side, 
inundation of endangered species habitat, flood control requirements, 
and the risks of excessive water discharges to the St. Lucie River to 
the east and Caloosahatchee River to the west in the event that a 
tropical storm or hurricane dumps torrential rains in Okeechobee when 
it's already full.
    To overcome these severe limitations, CERP recognized the need to 
develop substantial water storage capacity outside of the Lake so that 
enough water would be available to emulate historic flows into the 
`Glades. Two forms of storage were envisioned--Stormwater Treatment 
Areas (STA's) and Aquifer Storage and Recovery (ASR's). The former are 
artificially constructed reservoirs in which water is stored and 
treated to remove phosphorous; the latter remain untested and of 
questionable utility. Presently there are six STA's covering 45,000 
acres storing thousands of acre feet of treated water available to be 
released to flow south. However, construction and operation of STA's is 
expensive. Land must be bought, the reservoirs built, pumps installed, 
and money available to pay for operations and maintenance. 
Notwithstanding these costs the 2010 NAS report concluded ``increasing 
water storage (and associated water treatment) is a major near-term 
priority'' (emphasis added). 2010 Biennial Report at 10. The Report 
went on to note that even though the agencies are planning another 
35,000 acres of STA's, these will not provide enough ``water storage to 
support planned [restoration] projects in the remnant Everglades eco-
system.'' Id. at 11; 174. The bottom line is that absent substantial 
near term increases in out-of-Okeechobee water storage capacity, in the 
form of new STA's, Everglades restoration cannot occur.
    The story is much the same regarding water quality. Under the 
federal Clean Water Act, related State law, and CERP, water delivered 
into the Everglades is to have no more than 10 parts per billion (ppb) 
of phosphorus (a nutrient). Water with higher phosphorus levels changes 
the ecosystem with adverse environmental effects. Problematically, the 
Lake Okeechobee system is laden with phosphorus--the results of decades 
of agricultural activities around the Lake. On the north side, cattle 
operations were the primary contributors. On the south, farming 
(primarily sugar cane) in the Everglades Agricultural Area (EAA) added 
tons of phosphorus to the system. When CERP was authorized, it was 
believed that a variety of actions could provide sufficient quantities 
of clean water (i.e., < 10 ppb phosphorus) in a decade or less.
    The reality is quite different: ``Due to legacy phosphorus storage 
in the Lake Okeechobee watershed, the lake itself, and the Everglades 
Agricultural Area, current phosphorus loadings into the system could 
persist for decades.'' 2010 Report at 11. Because of the persistence of 
legacy phosphorus, the NAS Committee came to two conclusions: (1) 
``Attaining water quality goals throughout the system is likely to be 
very costly and take several decades of continued commitment to a 
systemwide, integrated planning and design effort that simultaneously 
addresses source controls, storage, and treatment over a range of 
timescales'', Id. at 11-12; and (2) ``the current acreage of stormwater 
treatment areas (STA's), as managed, is not sufficient to treat 
existing water flows and phosphorus loads into the Everglades 
Protection Area [south of Lake Okeechobee].'' Id. at 12. The costs of 
necessary additional STA's--covering over 54,000 acres--was estimated 
at $1.1 billion to construct, $27 million to operate each year, and 
another $1.1 billion to refurbish every 20 to 25 years. Id.
    Until there is additional storage and water treatment capability 
south of the Lake, Everglades resource managers--Federal and State--
face extremely difficult choices: (i) withhold water that does not 
satisfy the 10 ppb standard and continue to dry up the Everglades with 
potential irreversible impacts or (ii) send water south with higher 
phosphorus content risking other irreversible ecological changes. Given 
the immensity and critical nature of the water quantity and water 
quality problems, I am persuaded that hundreds of millions of dollars 
that would be spent buying land for an Everglades Headwaters NWR are 
better off being redirected to addressing immediately the crying, 
pressing need for more STA's. Only with more STA's on line can managers 
begin to ``get the water right'' in the Everglades before irreversible 
damage is done.

Mod Waters
    STA's are not the only Everglades restoration projects of higher 
priority than a new refuge. Congress authorized the Mod Waters project 
in 1989 to help restore water flows in the Shark River Slough within 
ENP. Fundamentally the project is to breach, in part, the ``dam'' 
created by the Tamiami Trail, U.S. 41 (built across the `Glades before 
WW II) to facilitate greater water flows into portions of ENP that have 
been water-starved for decades. For a variety of reasons that project 
was stalled for over 20 years and construction began in 2009 only after 
Congress exempted the project from the National Environmental Policy 
Act and related litigation. During the intervening years the costs 
escalated and the project now under construction (a one mile bridge on 
the Tamiami Trail under which water can flow unimpeded) is a shadow of 
what was originally contemplated. As the NAS 2010 Committee report 
observed ``the benefits of the 1-mile bridge represent only a fraction 
of those envisioned in earlier Mod Waters plans'' (emphasis added). Id. 
at 7. The National Park Service is presently examining a second phase 
for Mod Waters that would facilitate passage of more water so that the 
originally envisioned level of restoration benefits can be realized. I 
would urge Congress to expand the already authorized (and under 
construction) Mod Waters project, consistent with the original 1989 
vision, before it authorized a new refuge north of Okeechobee or 
appropriated funding for land acquisition there.

Florida Conservation Programs
    Turning attention directly to the Okeechobee headwaters, the 
Subcommittee should be aware of comprehensive conservation efforts 
there by the State of Florida. After the 10 ppb phosphorus standard was 
agreed to, Florida enacted to the Everglades Forever Act in 1994 to 
implement that standard including actions north of Okeechobee to 
improve water quality. In 2000, recognizing the special problems 
afflicting the Lake, the State enacted the Lake Okeechobee Protection 
Act. It is specifically designed to restrict phosphorus inflows into 
the Lake from its northern headwaters. A TMDL (total maximum daily 
load) for phosphorus was set, approved by the federal EPA, and a 
variety of other actions initiated to deal with the legacy phosphorus 
problem. In 2007, the State acted again to establish the Northern 
Everglades and Estuaries Protection Program to deal further with 
conservation issues north of the Lake including water quality.
    The proposed Headwaters refuge overlays the very areas covered by 
these State programs. That raises issues worthy of scrutiny: what 
additional benefits, if any, are provided by the establishment of new 
federal refuge unit in this area already the focus of State 
conservation programs? Are the incremental benefits that might arise 
from the refuge worth the expenditure of hundreds of millions of 
dollars for federal land acquisition? And as spelled out earlier in 
this statement, are those hundreds of millions better spent on STA's, 
expanded Mod Waters, or other CERP projects, or on a new refuge?

Conclusion
    Even though I can see benefits arising from a Headwaters NWR, I am 
not persuaded those incremental benefits are worth the multi-hundred 
million dollar price tag given the present State role and programs 
north of the Lake and the more pressing Everglades restoration needs to 
the south. In a world of unlimited budgets, I could be a supporter of a 
Headwaters unit (if it contained hard statutory guarantees for 
traditional uses such as fishing and hunting) but that is not the world 
we live in today.
    Thank you.
                                 ______
                                 
    Dr. Fleming. Thank you for that every interesting 
testimony, Mr. Horn.
    Let us see. Next, Mr. Dantzler. You are now recognized.

               STATEMENT OF HON. RICK DANTZLER, 
           CO-CHAIRMAN, NORTHERN EVERGLADES ALLIANCE

    Mr. Dantzler. Thank you very much. Thank you very much, Mr. 
Chairman and members of the Committee. It is a pleasure to be 
here today on behalf of Northern Everglades Alliance, a 
recently formed and, frankly, loosely organized group of 
conservationists and landowners and hunters and fishers and 
those who are trying to do whatever we can to preserve the 
rural landscapes along the Kissimmee River Basin and really 
much of the Southwest Florida area that is not yet developed.
    With me is LeeAnn Adams. She is from one of the families 
that is involved in this effort, a ranching family of several 
generations in Florida, so I appreciate her being here.
    But we are committed to trying to preserve some kind of 
semblance of old Florida. We are trying to prevent this part of 
Florida from going the way that much of Florida has gone, this 
ever expanding area of concrete and asphalt. And we believe 
that this new proposed refuge is absolutely critical to our 
efforts, and the reason is it provides a toe-hold around which 
everything else will pivot.
    Just like development begets development, conservation 
begets conservation. And if we can establish this 150,000 acres 
right in the middle of this part of Florida that we are trying 
to preserve as some semblance of old Florida where there are 
rural working ranching landscapes on the horizon, we will go a 
long way towards achieving our goal.
    Now, I have listened carefully this morning, and, frankly, 
I have a sense of what some of the testimony is going to be 
that you hear. There are some user groups that are upset with 
Fish and Wildlife; I understand that. But frankly, I can't for 
the life of me understand why we are on the different side of 
this issue because I am one of you. I hunt; I fish. We do all 
those things together. It breaks my heart when I see these 
parts of Florida developed.
    This wildlife refuge at the very least is going to create 
50,000 brand new acres available for hunting, and the 100,000 
acres that is going to be encumbered with a conservation 
easement, perhaps those property owners would allow special 
opportunity hunts, maybe youth hunts. There are going to be 
some other opportunities for hunting activities on these 
100,000 acres I predict, so at the very least we are going to 
increase the available hunting by 50,000 acres.
    And to oppose the creation of new wildlife refuges because 
we are upset with Fish and Wildlife, that would be like being 
upset with the contractor who botched the construction of a 
sewage treatment facility. You don't oppose the creation of new 
sewage treatment facilities. You get the contractor to do it 
correctly. And that is what I think we need to do here. If this 
refuge satisfies a strategic interest then I think we should do 
it and make the Fish and Wildlife Conservation Commission do it 
correctly.
    There has been some concern that perhaps this refuge north 
of the lake is going to take funding away from the south part 
of the lake. I understand that. If there are projects that have 
already started south of the lake then I think those should be 
completed before we move on.
    But the fact of the matter is that if you wait until you 
have done everything you would like to do south of the lake 
before you do what needs to be done on the north side of the 
lake, you are never going to do anything on the north side of 
the lake because there is always going to be something to do on 
the south side of the lake.
    We have an opportunity now to start to stop urban sprawl 
and to keep this part of Florida from going the way of many of 
the other parts of our state. I served in the Legislature for 
nearly 16 years. I chaired the Natural Resources Committee for 
many years in the Senate. I actually wrote the Everglades 
Forever Act, and I have represented property owners in my 
private life who have had to deal with Everglades restoration, 
so I understand this from many different perspectives. And 
having watched public policy in this area for decades now, I 
can tell you that you will never regret tying up land, but if 
you don't tie up the land you may very well regret that.
    I used to ask myself what three or four things could we 
have either done or not done 50 or 100 years ago that would 
have saved us a tremendous amount of money and unbelievable 
environmental damage, and then I would say what three or four 
things are we doing now that we could either do or not do and 
save ourselves money and environmental damage?
    Frankly, I think we are at one of those moments. I think 
that if we take this opportunity to tie up this 150,000 acres 
that conservation ethos, that conservation ethic, is going to 
spread like wildlife and you are going to see much of the 
undeveloped area in Southwest Florida preserve its semblance of 
the way of life that we have enjoyed for decades.
    Thank you very much for this chance to be with you today. I 
look forward to your questions.
    [The prepared statement of Mr. Dantzler follows:]

 Statement of Rick Dantzler, Co-Chairman, Northern Everglades Alliance

    Dear Mr. Chairman and Members of the Subcommittee:
    My name is Rick Dantzler. I have been invited to testify today on 
behalf of the Northern Everglades Alliance, a newly-formed alliance of 
concerned citizens committed to protecting the ranching and outdoor 
heritage of the Northern Everglades. We are property owners, ranchers, 
anglers, hunters, conservationists, outdoor enthusiasts and 
businesspeople working together to protect the ranching and 
agricultural landscapes of this important area. I co-chair the Northern 
Everglades Alliance with Mike Adams, a rancher from St. Lucie County. 
The Alliance fully endorses the vision and goals of the proposed 
Northern Everglades National Wildlife Refuge and Conservation Area.
    I was elected to the Florida House of Representatives when I was 
26. I served there for eight years and was then elected to the Florida 
Senate. I served in the Senate for nearly eight years but resigned to 
run for the office of governor of Florida in 1998, ultimately becoming 
the Democratic nominee for Lieutenant Governor and joining the ticket 
of Buddy MacKay. I was involuntarily retired from elected public 
service after that election and went into private law practice full-
time. That's a euphemistic way of saying we lost.
    While in the Senate I chaired the Committee on Natural Resources 
and Conservation for several years and sponsored the Everglades Forever 
Act, a law that focused primarily on water quality. At the time, the 
Everglades Forever Act represented the largest restoration effort of 
its kind in history. It was not an easy bill to pass and it wasn't 
universally loved, but nearly everyone has grown to embrace it and sees 
it as a huge step forward in the effort to restore the Everglades.
    In my private practice I've represented property owners in the C-
139 Basin, a 169,000-acre watershed west and south of Lake Okeechobee. 
Water leaving the Basin enters the Everglades so I've had to deal with 
permitting and regulation and taxation aimed at restoring the 
Everglades on behalf of clients. I've seen restoration of the 
Everglades from the standpoint of the regulated, and frankly the 
regulation has seemed a bit overwhelming at times and my clients have 
grown frustrated. For the most part, though, it has been collaborative 
with the permitting authorities and we have survived.
    I mention this because I want you to know that I've seen the issue 
of Everglades restoration from the standpoint of an elected official 
wanting the do the right thing for the resource, completely aware of 
the limits of public resources and responsibility not to over-tax or 
over-regulate. I've also seen what it's like for property owners to 
deal with these good intentions, and how difficult it can be. I had a 
ranching client who, partly because he had become so concerned about 
how difficult compliance with Everglades regulation was going to be, 
sold his 22,000-acre ranch to the state. The point is I have experience 
in these matters from all relevant viewpoints and don't take positions 
on restoration lightly or in a vacuum.
    You are asking fair questions about spending priorities and 
Everglades restoration. My opinion, perhaps it is shared by members of 
this committee, is that government at every level has over-promised, 
and we are at a point where some of these promises are going to have to 
be balanced with other needs and scaled back in many situations. That 
isn't just politics; I believe the American people understand it and 
are ready for it.
    So how should policy makers proceed in the face of this new 
paradigm, and what does it mean for us today? I have two thoughts, one 
based on logic and the other based on a personal opinion that gets to 
the question of what government is supposed to do and who or what 
should it first help.
    Logically, it makes the most sense to spend on those projects that 
have already received funding but are not finished, and for which the 
initial investment would be lost if funding is not continued. Don't 
lose the benefit of a project by not finishing it. However, I also 
believe we must look at the entire Everglades system and determine what 
offers the best hope of fixing it and not just treat the symptoms of 
the problem. If a blockage in one's heart was causing poor circulation 
in the extremities, the doctor wouldn't treat the problem by massaging 
the toes and hands but by removing the blockage.
    It's the same way with the Everglades, a system that begins in 
Orlando and ends all the way in Florida Bay. It's important that we get 
far enough upstream that we aren't just treating the symptoms of an ill 
system. Frankly, this isn't exactly how we've done it with Everglades 
restoration although I'm not sure we could have done it any 
differently, as I'll explain below.
    Responding to federal litigation, the state passed the Everglades 
Forever Act in 1994, the first of several significant state and federal 
legislative efforts in the 1990s to undo some of the damage that was 
nearly a century in the making. Had it not been for the litigation, a 
good argument could be made that it would have been better to start 
farther north in the Everglades system, acknowledging, of course, that 
Kissimmee River restoration began decades ago. Perhaps it would have 
been better to start in Orlando and work our way down instead of first 
focusing on removing phosphorous from contributors closest to the 
Everglades proper, as the Everglades Forever Act did.
    To fully understand this reasoning it is important to recognize how 
severely and intentionally the Everglades system has been altered by 
Man.
    Beginning in 1905, Governor Napoleon Bonaparte began building what 
he called the ``Empire of the Everglades,'' a canal building program in 
the Everglades to drain the land, creating dry areas for housing and 
agriculture. After several hurricanes in the 1920s put much of South 
Florida underwater, the digging began in earnest, and when the federal 
government jumped in, so much of the Everglades was drained that nearly 
five million Floridians now live on what used to be the Everglades and 
700,000 acres of agriculture lie between Lake Okeechobee and what 
remains of the Glades.
    Why is this relevant? Because water quantity is just as big of an 
issue as water quality, and anything Congress can do to return altered 
landscapes to a more natural state and help protect areas not yet 
altered will assist in satisfying Florida's water supply needs. For 
generations we've been of the opinion that standing water is bad, yet 
we now know that the draining of standing water is probably the single 
most damaging thing ever done to Florida's environment. The northern 
portion of the Everglades system along the Kissimmee River Basin and 
the agricultural areas north of Lake Okeechobee provide important water 
storage areas for the larger Everglades system. Especially in South 
Florida where the competition for water between people, agriculture and 
the environment is keen, storing water upstream will increase the water 
pie and help avoid ``water wars.''
    I wish to address specifically the question of what government 
should do and who it should first help in the face of diminishing 
revenues, as posed earlier. These are my viewpoints, not the views of 
the Northern Everglades Alliance, but they come from decades of being 
engaged in public policy.
    I first look at whom and what can help itself. Government's 
responsibility is to create equal opportunity, not equal outcome, for 
everyone. The environment and the flora and fauna within it can't help 
themselves in the face of Man, and the history of Florida is Man trying 
to pound the natural systems into submission. Occasionally Nature 
strikes back in the form of a hurricane or flood, but for the most part 
the natural systems of Florida have been the losers in this battle.
    A redeeming feature of Mankind, though, is our ability to learn and 
evolve in our thinking. I don't think the same way I did when I was 
younger, and I'm sure you don't either. In Florida, we know that an 
economy built on ever-expanding asphalt and concrete is long-term 
death. Paving over our best farmland and altering our ecosystems to the 
point where they quit working is folly, yet it continues because that's 
the way we've always done it.
    We need your help in doing it differently in the Northern 
Everglades.
    We need your help in preserving working, agricultural landscapes of 
sufficient scale that agriculture maintains a critical mass that allows 
commercial agriculture to be viable. Otherwise farmers and ranchers 
become hobbyists, and that costs jobs and a way of life.
    We need your help in keeping select parcels from being impacted at 
all. Some areas are so special and critical to the public that the 
public should own them.
    And it is all of these things that the Everglades Headwaters Refuge 
and Conservation Area project is intended to do. Properly balanced with 
the ongoing work in the southern portion of the system, the 
conservation of the Northern Everglades will ensure long-term benefits 
for the entire Everglades System at a fraction of the cost.
    As indicated earlier, the Northern Everglades Alliance endorses the 
vision and goals as articulated by the U.S. Fish and Wildlife Service 
in the Draft Land Protection Plan/Environmental Assessment for the 
Proposed Establishment of the Everglades Headwaters National Wildlife 
Refuge and Conservation Area. Let me be clear however. The Northern 
Everglades Alliance is endorsing only the vision and goals of the Draft 
LPP/Draft EA, and not every word or concept in it. Through public 
meetings and comments submitted during the public comment period, we 
are working with the U.S. Fish and Wildlife Service to further refine 
the document. However, we are convinced that it offers the best and 
perhaps last hope of saving what remains of ``Old Florida'' in this 
part of our state. In our view, we have no choice but to support it if 
we wish to protect and preserve a way of life that has sustained our 
part of Florida for generations.
    We have seen other parts of Florida grow and develop in ways that 
are not sustainable, and in the process lose the specialness of their 
landscapes. We do not want that to happen in the Kissimmee River 
Valley. We wish to preserve the heritage of our region, and in the 
process protect the jobs that go along with commercial agriculture and 
outdoor pursuits.
    We understand that for agriculture to be viable it must have 
critical mass. We understand that for there to be fish to catch and 
animals to hunt there must be sufficient water and land to support 
sustainable populations. We understand that for those engaged in nature 
study there must be enough undeveloped land for ecosystems to function. 
And most important, we understand that for our state to flourish there 
must be water of sufficient quality and quantity. The Everglades 
Headwaters National Wildlife Refuge and Conservation Area would go a 
long way towards achieving these necessities.
    We are particularly pleased with the emphasis on the purchase of 
conservation easements. As part of the effort to preserve and protect 
our heritage, certainly there are parcels that belong in public 
ownership in fee simple, but conservation easements allow continued 
farming and ranching, soften the blow to local governments over the 
loss of ad valorem tax revenue, free the government of land management 
responsibilities, and protect ecosystems from development.
    We also appreciate that only willing property owners may 
participate in this program, and that no funds will be used to condemn 
property. This is good because we are also supporters of private 
property rights.
    Finally, we see wisdom in establishing the partnership between the 
U.S. Fish and Wildlife Service and the Florida Fish and Wildlife 
Conservation Commission. Surely by co-designating the area as a 
National Wildlife Refuge and a state Wildlife Management Area it will 
lead to additional hunting and fishing opportunities for the public.
    For these and other reasons, we support the proposal in concept, 
and look forward to working with the U.S. Fish and Wildlife Service to 
flesh out the details. For many of us, our families have been here for 
generations, and we wish to have a Florida that our descendants may 
enjoy in similar fashion. Frankly, if this effort is successful we 
would hope that it would be replicated in other parts of our state 
because it is just a matter of time before we experience growth 
pressures again. The economic downturn, with all of its heartaches, has 
given us a chance to catch our breath and develop a plan to protect our 
heritage.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Dantzler.
    Mr. Draper, you are up for five minutes.

   STATEMENT OF ERIC DRAPER, EXECUTIVE DIRECTOR, AUDUBON OF 
                            FLORIDA

    Mr. Draper. Thank you, Mr. Chairman and Ranking Member 
Hanabusa and members of the Subcommittee. I am Eric Draper. I 
am the Executive Director of Audubon of Florida, which is a 
state affiliate of the National Audubon Society. We are glad to 
be here today.
    I am particularly honored to be sitting next to Mr. 
Dantzler on this panel. As he mentioned, he was the author of 
the Everglades Forever Act and has been a long-time bridge 
between the conservation community and between the land owning 
community in Florida. Such is the fact that just two weeks ago 
those two constituencies got together for a dialogue on public 
lands, and there is no light really between the land owning 
community in the northern part of the Everglades and the 
conservation community and particularly on this particular 
issue.
    Audubon has a long history in Florida working on the 
Everglades. We are not just an advocacy organization. We are 
actually a landowner in the Northern Everglades. We own the 
15,000 acre Corkscrew Swamp Sanctuary, which has close to 
100,000 visitors a year. That is part of the economy. We run a 
million dollar business down there. We also lease 30,000 acres 
of sanctuary of Lake Okeechobee and have partnered with the 
State of Florida in other conservation projects.
    I just want to tell you thank you so much for paying 
attention to the Everglades, particularly the Northern 
Everglades. Florida is a special place, and Congress has been 
especially helpful in funding and authorizing projects to help 
us protect many, many different parts of Florida that are so 
special.
    The reason we are having a debate about wildlife refuges 
today is because we have done such a good job of establishing 
wildlife refuges in the State of Florida, and the odd thing 
about those refuges is many of them are in fact postage stamp 
properties that are protecting very, very unique biological 
resources of which we have an abundance in Florida.
    Florida's Federal lands and especially the refuges and the 
national parks bring millions of people to Florida. Bring 
millions of people to Florida. I was in Everglades National 
Park last year and I heard many other languages other than 
English, and that is an indication. The English we heard was 
often times British inflected English. That is an indication 
that many people are traveling to South Florida to visit these 
properties. They spend a lot of money.
    Of course, there is also a lot of money that comes into 
Florida from the hunting and fishing community. I will note 
that many of these refuges are destinations for fishers, and 
fishing brings much more money to Florida. People come to 
Florida to fish. They don't come to Florida to hunt. People 
leave Florida to hunt for the most part.
    Florida has a strong commitment to land conservation. 
Congressmen Ross and Rivera have voted for state budgets up to 
$300 million a year for Florida Forever and up to $200 million 
for Everglades restoration. This is an indication of the 
commitment that the State of Florida has.
    There has been a partnership, a history of cooperation 
between the State of Florida and the Federal Government, and 
that was only renewed recently, as you heard from Secretary 
Darcy and from Assistant Secretary Jacobson, renewed in the 
last couple of weeks where as a result of Governor Scott, our 
governor, reaching out to the Federal partners. They have come 
together on refocusing on the Central Everglades and on working 
together to resolve Florida's longstanding problems with water 
quality. We are very, very encouraged by that.
    The Everglades has a problem largely because, as I have to 
say Congressman Rivera eloquently described what the problems 
are with the Everglades, which is a drainage problem, and that 
drainage problem is not limited to the south part of the 
system. It exists through the entire part of the system. He 
talked about what needs to be done to fix it. Frankly, the 
Federal Government dug those ditches, they dug the canals, and 
we believe the Federal Government has an obligation to come 
back in and help to fix the problem.
    Now, the link between the north and the south is very, very 
important. Here is the problem with the southern part of the 
system. There simply is not enough fresh, clean water moving 
down into the Everglades. Where does a lot of that water come 
from? It comes from the Northern Everglades. It flows into Lake 
Okeechobee. It comes into Lake Okeechobee fairly damaged, 
fairly polluted with phosphorous, and it has to get cleaned up 
before it gets moving south. This is a pretty significant 
technological problem.
    By the way, I disagree with my co-panelist, Mr. Horn, that 
the Federal Government should focus on water quality. That is a 
state responsibility, not a Federal Government responsibility, 
in terms of cleaning up Florida's water quality problems, but 
you can in fact help by securing part of the Northern 
Everglades landscape, which this wildlife refuge proposal helps 
to do.
    We have made great progress in Florida over the last couple 
years in creating dispersed water storage projects. We can 
store water more cheaply and clean it up more cheaply in 
partnership with landowners on their land rather than 
building--well, not rather than building projects, but in 
addition to building storage treatment projects.
    So our recommendation to you is move forward with this. 
Allow this Refuge System to move forward because it is a 
partnership with the landowners down there. It will provide 
additional benefits, particularly the water storage, the fresh 
water we need to move south into the restored part of the 
Everglades. Thank you very much.
    [The prepared statement of Mr. Draper follows:]

    Statement of Eric Draper, Executive Director, Audubon of Florida

    Chairman Fleming, Ranking Member Hanabusa and Members of the 
Subcommittee:
    Thank you for the opportunity to testify regarding the priorities 
for Everglades restoration. I am Eric Draper, Executive Director of 
Audubon of Florida, the State office of the National Audubon Society. 
With more than 450 chapters across the country including 44 in Florida, 
and more than one million members, volunteers and supporters, Audubon 
has a long history of involvement in protecting and restoring the 
Everglades.
    Audubon is supportive of the Everglades Headwaters National 
Wildlife Refuge and Conservation Area (Everglades Headwaters NWR and 
CA) proposal because it advances Audubon's goals for restoration and 
its mission to conserve and restore natural ecosystems, focusing on 
birds, other wildlife, and their habitats for the benefit of humanity 
and the earth's biological diversity. Protecting the Everglades 
Headwaters can provide important protection for threatened and 
endangered species, and in order to more successfully fix the lower end 
of an aquatic ecosystem, problems that originate in its headwaters must 
be addressed. The desire of most of the major landowners in the 
Everglades Headwaters to participate in the refuge and conservation 
area responds to concerns about the future of the source of water that 
is the wellspring of the Everglades.
    Audubon has worked for over a century to protect and restore 
America's Everglades. Famous for its abundance of bird life, the 
Everglades has faced many challenges. From the time of the murder of 
Audubon Warden Guy Bradley by plume hunters as he fought to protect 
some of the Everglades' wading birds, to the nearly devastating changes 
from the 20th century attempts to ditch, dike, and drain the watershed 
for development and agriculture, Audubon and our supporters have led an 
unprecedented ecological intervention. However, we are not just 
advocates. Audubon is a major landowner in Florida. Our Corkscrew Swamp 
Sanctuary attracts more than 100,000 paying visitors each year and is 
considered the premium Everglades experience. Nearly 30,000 acres of 
Lake Okeechobee marshes are leased to Audubon and we own thousands of 
acres in Rookery Bay, a federally designated estuary.
    In addition to the importance of the Everglades for the wildlife 
which made it famous, this unique ecological treasure also provides the 
water supply for one of America's largest urban areas. Without a 
healthy Everglades, one in three Floridians would have to look 
elsewhere for their drinking water. Florida will be unable to 
accommodate its projected population and commercial growth without 
protecting this resource.
    Clean and sufficient freshwater also forms a critical component of 
Florida's tourism economy. The economic losses of business in Florida 
due to the mere perception of impacts from the Deepwater Horizon oil 
spill demonstrate the inextricable connection between a healthy 
environment and economy in Florida. Results of a study conducted in 
2010 by Mather Economics on behalf of the Everglades Foundation, 
Measuring the Economic Benefits of Everglades Restoration, <SUP>i</SUP> 
demonstrates the potential economic benefits from Everglades 
restoration:
---------------------------------------------------------------------------
    \i\ Mather Economics. 2010. Measuring the Economic Benefits of 
Everglades Restoration:
     An Economic Evaluation of Ecosystem Services Affiliated with the 
World's Largest Ecosystem Restoration Project. Mather Economics, 43 
Woodstock Street, Roswell, Georgia 30075.
---------------------------------------------------------------------------
        ``Our analysis strongly suggests that restoration of the 
        Everglades as described and planned in CERP will have large 
        economic benefits. Our best estimate is that restoration will 
        generate an increase in economic welfare of approximately $46.5 
        billion in net present value terms that could range up to 
        $123.9 billion. The return on investment, as measured by the 
        benefit-cost ratio, assuming a cost of restoration of $11.5 
        billion, is also high and significant, 4.04, which means for 
        every one dollar invested in Everglades restoration $4.04 
        dollars are generated. Everglades restoration will also have an 
        incremental impact on employment of about 442,000 additional 
        workers over 50 years. In addition, the Corps of Engineers 
        estimates there will be 22,000 jobs created as a result of the 
        actual restoration projects. Throughout our analysis, we have 
        taken a very conservative approach to estimation. Accordingly 
        our best estimates almost surely understate the return on 
        investment of Everglades restoration.''
    Audubon uses bird populations as the measure of health of the 
Everglades and success of restoration efforts. Information about 
threatened or endangered birds provided by Audubon's field science 
helps to form the basis of understanding how the natural system works 
and its water quantity and timing needs. Recently, we have drawn 
specific focus toward the Northern Everglades as an essential part of 
the preservation and restoration of the Everglades.

Everglades Headwaters NWR and CA Provides Benefits for Water, Wildlife 
        and Florida's Cattle Ranching Economy:
Ranching
    According to the University of Florida's Institute for Food and 
Agricultural Services Florida has a rich history of cattle ranching and 
is one of the leading states in cattle production. Florida is a cow-
calf state, producing quality calves that are shipped to other states. 
Florida's annual beef cattle sales and sales of breeding stock easily 
push annual farm gate sales over a half-billion dollars. Cattle ranches 
contain much of Florida's remaining native habitat, particularly in 
central and South Florida. Consequently, cattle ranches have an 
important role in the future of Florida's wildlife. Nonetheless, both 
the number of ranches and the amount of land in cattle ranches decrease 
every year. Many ranchers, especially in the Lake Okeechobee watershed 
or Northern Everglades area are very good stewards of land. Ranchers 
manage for wildlife habitat in part because hunting leases are part of 
many ranches' financial base. According to the Florida Cattlemen's 
Association real estate developers are quickly buying up what is left 
of Florida's pristine ranch land. In an industry with historically low 
profit margins, it is hard for a rancher to give up cash bonanza for 
selling their land. Florida once was a farm rich state, but with 
continued population growth and development, it is becoming a more 
urbanized region each year. The Florida Cattlemen's Association works 
to create a greater understanding among Florida citizens of the 
problems faced by cattle ranchers.
    Many ranchers, such as Bud Adams, Cary Lightsy and Charlie Lykes 
are proud of the way they have managed their land for water and 
wildlife benefits. This is why Audubon, The Nature Conservancy and 
other conservation groups have worked over the past decade with 
Florida's ranchers to develop programs that will keep this important 
land use part of Florida's landscape. At a recent Dialogue on 
Conservation Lands there was little difference in viewpoint between 
ranchers and conservationists.

Wildlife Benefits:
    Audubon comes to its support of the Everglades Headwaters NWR and 
CA through a half-century of collaborative efforts with Kissimmee 
Valley cattle ranchers. Beginning in 1961, Audubon worked to establish 
cooperative Eagle Sanctuaries on ranchlands north of Lake Okeechobee. 
By October 1962, 59 ranch properties encompassing 600,000 acres were 
enrolled in the Audubon voluntary sanctuary network, protecting what at 
the time was the last bastion of viable Bald Eagle breeding populations 
in the lower 48 states. By working with ranchers to protect America's 
great symbol, we learned about their excellent land ethic and 
stewardship.
    National Audubon Society has had full-time staff working in the 
Kissimmee Valley since 1936. The first staff were game wardens, paid by 
National Audubon Society and deputized by state and federal 
governments. They patrolled Lake Okeechobee and the Kissimmee Prairie 
region, where Audubon's interest was tied to five endemic (found only 
in Florida) subspecies of prairie birds: Audubon's Crested Caracara 
(Caracara cheriway audubonii), Florida Burrowing Owl (Althene 
cunicularia floridana), Florida Sandhill Crane (Grus Canadensis 
pratensis), Florida's Mottled Duck (Anas fulvigula fulvigula) and one 
of the most endangered birds in the nation, the Florida Grasshopper 
Sparrow (Ammodramus savannarum floridanus). Wardens also protected 
wading bird nesting colonies in the region and were instrumental in 
securing protection of Audubon's 7,300 acre Ordway-Whittell Kissimmee 
Prairie Sanctuary. This original dry prairie private protection 
strategy facilitated state protection of the adjacent Kissimmee Prairie 
Preserve State Park. The Audubon Sanctuary was folded into the state 
preserve, which is now part of and a focal area for the proposed 
Everglades Headwaters NWR and CA. Florida's dry prairie ecosystem is 
acre-for-acre, one of the most diverse plant communities in North 
America. <SUP>ii</SUP>
---------------------------------------------------------------------------
    \ii\ Orzell, S. L. and E. L. Bridges. 2006. Floristic composition 
of the South-Central Florida dry prairie landscape. Pages 64-99 in Land 
of Fire and Water: the Florida dry prairie ecosystem. Proceedings of 
the Florida Dry Prairie Conference. R. F. Noss, ed. E. O Painter 
Printing Co., DeLeon Springs, FL.
---------------------------------------------------------------------------
    Today, the lands targeted for the Everglades Headwaters NWR and CA, 
along with the Kissimmee Prairie Preserve State Park, make up the 
remnants of Florida's endemic Dry Prairie ecosystem. The endangered 
Florida Grasshopper Sparrow exists only in three distinct populations, 
one of which is centered on land offered as part of the proposal. 
Similarly, the Florida population of Audubon's Crested Caracara is 
listed as threatened under the Endangered Species Act and is isolated 
from the remainder of the subspecies in the southwestern U.S. and 
Central America. The Caracara's reliance on the prairie area of the 
south-central region of Florida makes conservation in this area 
critical for its survival.
    Because Everglades waters flow downstream from the Kissimmee River 
through Lake Okeechobee, the Everglades Headwaters refuge will deliver 
major benefits for the habitat of the endangered Everglade Snail Kite 
Rostrhamus sociabilis plumbeus. There are only 700 individual Kites 
left in Florida, and Audubon has made its survival a top priority. The 
featured article in the November/December 2011 issue of Audubon 
Magazine is ``The Everglades: A Watershed Moment,'' focused on the 
plight of the Everglade Snail Kite and how decisions about water 
management in Lake Okeechobee and its watershed impact the Kite's 
chance of survival.

Lake Okeechobee and Everglades Hydrology: The Refuge and Conservation 
        Area Could Help Substantially Reduce Harmful Impacts of Over-
        Drainage:
    In the summer of 2004, Florida had four tropical systems cross the 
Kissimmee Valley (Charley, Francis, Jeanne, Ivan), dumping unexpected 
amounts of rain. Due to the very efficient drainage system created by 
the Central and Southern Florida water management system, this water 
was very quickly shunted down to Lake Okeechobee, causing it rise to 18 
feet deep. At this depth, about 75 square miles of plant communities 
were drowned out and concerns arose for the integrity of the Hoover 
Dike that encircles the lake and protects communities downstream. In 
response to this rapid rise in water levels, the U.S. Army Corps of 
Engineers (Corps) released massive amounts of water to the St. Lucie 
and Caloosahatchee Estuaries to rapidly lower the lake. These releases 
killed seagrasses, oysters, and other bottom-dwelling organisms. The 
lake as well as the downstream St. Lucie and Caloosahatchee Rivers and 
estuaries took years to recover with a tremendous negative impact on 
commercial and recreational fisheries.
    In 2005, when Hurricane Wilma hit Florida, the lake again rose 
above 17 feet, and the Hoover Dike was reported in a Corps report as 
``within hours of failing'' due to the hurricane surge. Massive amounts 
of water were again discharged to tide throughout the spring of 2006. 
By 2007, South Florida was in a drought, and by the spring of 2007, 
water supply for farms and cities was severely rationed (45% reduction 
in water use). These alternating years of drought and storms are a good 
description of the problems facing the Everglades ecosystem and 
potential benefits of adding lands to a refuge and conservation area. 
Florida discharged to tide the equivalent of 6 years of water supply in 
two years, and then came close to running out of water the year that 
followed.
    This unnatural drainage contributes to excessively high levels 
during wet periods and excessively low levels during drought. In its 
natural condition, the Kissimmee Valley would take six to eight months 
to discharge its wet season loads into Lake Okeechobee. Now this same 
water drainage takes place within one month, making the lake rise at an 
unnaturally rapid pace. Conversely, when droughts begin, the six to 
eight months of base flow that the Kissimmee Valley used to contribute 
to the lake throughout the dry season no longer replenishes the Lake, 
allowing the lake drop more rapidly than in the past. Adding to the 
rapid lowering of the Lake are water supply withdrawals, which can 
withdraw 20% of the 730 square mile Lake's water in just one season.
    The solution is more water storage capacity upstream and downstream 
of the lake. If by reversing unnecessary drainage and allowing water to 
pool during wet periods, less water will flash downstream to the Lake. 
Then as rainfall decreases and the annual winter drought begins, there 
will be water upstream that can slowly seep into the Lake to help 
prevent extreme low levels.
    Audubon issued a report in 2007 <SUP>iii</SUP> that predicted 
substantially more storage would be needed upstream of the Lake than 
CERP and other plans anticipated. The agencies in turn, revisited their 
calculations and concurred, raising the total storage capacity goals 
from 300,000 acre-feet to a range of 900,000-1.3 million acre-feet. 
<SUP>iv</SUP> The ensuing question was, ``how to store that much 
water?''
---------------------------------------------------------------------------
    \iii\ Audubon of Florida. Lake Okeechobee restoration: watershed, 
weather, and strategies toward achieving goals. P. N. Gray, C. J 
Farrell, T. Romine, eds. Audubon of Florida. Miami. http://
www.audubonofflorida.org/pubs_OkeechobeeReport.html
    \iv\ South Florida Water Management District, Florida Department of 
Agriculture and Consumer Services, and Florida Department of 
Environmental Protection. 2008. Lake Okeechobee Watershed Construction 
Project: Phase II Technical Plan.
---------------------------------------------------------------------------
    A partial answer is termed ``Dispersed Water Management'' (DWM). It 
works cooperatively with private landowners to store excess water on 
private lands. World Wildlife Fund conducted a pilot project with eight 
ranches in the Lake Okeechobee watershed to test what benefits to 
hydrology, nutrient movement, and other factors could be gained through 
this type of process. <SUP>v</SUP> Attractive benefits of this 
arrangement include relatively low cost, keeping land on the tax roles 
and producing food and fiber, preserving a cultural way of life, and 
being administratively agile--projects can be rapidly implemented in 
almost any location.
---------------------------------------------------------------------------
    \v\ Lynch, S. and L. Shabman. 2011. Designing a payment for 
environmental services program for the Northern Everglades. National 
Wetlands Newsletter 33:12-15.
---------------------------------------------------------------------------
    The pilot projects proved successful and Florida is scaling DWM up 
with a 450,000 acre-foot capacity goal. <SUP>vi</SUP> There are many 
types of DWM possible. One approach allows Payment for Environmental 
Services, where ranchers are compensated for providing water storage--
mostly by simply preventing excess drainage. Other tools are wetland 
conservation easements and wetland restoration on public lands. 
Considering that the Everglades Headwaters NWR and CA could be 
implemented across a total of 150,000 acres of land, these acres could 
contribute considerable capacity to complement the state's program and 
meet the water storage goal.
---------------------------------------------------------------------------
    \vi\ South Florida Water Management District, Florida Department of 
Agriculture and Consumer Services, and Florida Department of 
Environmental Protection. 2011. Lake Okeechobee Protection Plan Update. 
SFWMD, West Palm Beach.
---------------------------------------------------------------------------
Water Quality Goals:
    For decades, Lake Okeechobee and its tributaries have experienced 
excessive phosphorus and nitrogen loads. In response to these problems, 
in 1987, the Florida legislature enacted the Surface Water Improvement 
and Management (SWIM) Act, which required the state's water management 
districts to develop restoration plans for priority water bodies. In 
1989, the South Florida Water Management District (SFWMD) developed a 
SWIM Plan to control phosphorus loading to Lake Okeechobee. Despite the 
plan, no substantial phosphorus reductions were achieved during the 
1990s. To further act to restore and protect Lake Okeechobee, the 
Florida legislature passed the Lake Okeechobee Protection Act (LOPA) 
(Section 373.4595, Florida Statutes [F.S.]) in 2000 to establish the 
Lake Okeechobee Protection Plan (LOPP). In 2007, after continuing 
problems, the legislature amended the LOPA in Chapter 373.4595, F.S., 
and enacted the Northern Everglades and Estuaries Protection Program 
(Northern Everglades EPP). The Northern Everglades EPP expanded Lake 
Okeechobee restoration efforts to include the Caloosahatchee and St. 
Lucie River watersheds and substantially increased water storage and 
treatment goals upstream of the Lake.
    NEEPP mandates that a total maximum daily load (TMDL) of 140 metric 
tons (mt) of total phosphorus (TP) per year flowing to the lake be met 
by January 1, 2015. This TMDL was adopted by the Florida Department of 
Environmental Protection (FDEP) in 2001 and was established in 
accordance with Section 403.067, F.S. Northern Everglades EPP promotes 
a comprehensive and interconnected watershed approach to protection of 
the Lake Okeechobee, Caloosahatchee River, and St. Lucie River 
watersheds. State agencies, including the Florida Department of 
Agriculture and Consumer Services, work cooperatively to address these 
interconnected issues to rehabilitate the lake and enhance the 
ecosystem services that it provides while maintaining its contributions 
to the regional water supply and flood control.
    Audubon holds that continued phosphorus loading and the rapid 
movement of surface water toward Lake Okeechobee is an extremely urgent 
issue for South Florida. The phosphorus already accumulated within lake 
sediments is enough to keep the lake phosphorus enriched for decades 
<SUP>vii</SUP> without further additions. Similarly, the phosphorus 
previously applied by humans to the watershed, termed ``legacy load,'' 
appears enough to continue annual loads in the 500 mt range for 20-50 
years without further additions. <SUP>viii</SUP> Unfortunately, annual 
additions continue, meaning that without change, in 50 years the legacy 
load could be twice as great as present.
---------------------------------------------------------------------------
    \vii\ BBL (Blasland, Bouck and Lee, Inc.) 2002. Draft Evaluation of 
alternatives, Lake Okeechobee sediment management feasibility study. 
For SFWMD. Boca Raton, FL.
    \viii\ Reddy, K. R., M. Clark, J. Mitchell, E. Dunne, A. Cheesman, 
and Y. Wang. 2010. Phosphorus management in the Okeechobee basin: 
Legacy phosphorus--implications to restoration and management. 
Presentation to Northern Everglades Interagency Committee, June 2, 
2010, Okeechobee, FL.
---------------------------------------------------------------------------
    Both agriculture and urban areas contribute significantly to the 
on-going imports. Most notably, the largest land use category listed in 
the LOPP update (improved pasture at 676,991 acres) showed a 15% 
increase in phosphorus loading, apparently due to dumping human sludge. 
Urban land uses, while only 12 percent of the watershed, account for 29 
percent of the total net phosphorus import. <SUP>ix</SUP> Therefore, 
both Everglades Headwaters NWR and CA goals of reducing additional 
urban development in the Northern Everglades and returning some acreage 
of improved pasture to natural conditions will help with the water 
quality challenges.
---------------------------------------------------------------------------
    \ix\ Id. At iv.
---------------------------------------------------------------------------
    Storing water north of the lake is also the first step in slowing 
flows toward the lake to allow for increased water quality treatment. 
Conservation easements also provide an opportunity to reduce fertilizer 
use or sludge dumping. The National Research Council of the National 
Academy of Sciencies' Committee on Independent Scientific Review of 
Everglades Restoration Progress (CISRERP) noted in its 2010 biennial 
report that ``an aggressive combination of agricultural and urban BMPs, 
payment to landowners for ecosystem services beyond basic agricultural 
BMPs, regional and subregional treatment systems, and intensive 
chemical treatment of surface-water flows to the lake will be required 
to improve the water quality enough to meet the established TMDL.'' The 
Everglades Headwater NWR and CA can play a critical role in this multi-
faceted effort.

Working Together with Willing Sellers:
    Audubon's support for the Everglades Headwaters proposal also stems 
from the knowledge that this is a willing seller only program with 
100,000 acres targeted for conservation easements, and 50,000 acres 
targeted for full acquisition. We have worked closely with and listened 
carefully to the needs and concerns of ranchers in the region. There 
are tenuous economic prospects for many of these large properties. 
Ranchers who have worked their land for generations recognize that the 
opportunity to sell permanent conservation easements through programs 
such as the Everglades Headwaters NWR and CA can allow their way of 
life to continue, and those who wish to sell their properties for 
conservation recognize that this is vital to preventing ranches from 
ending up on the auction block and becoming the sites for future 
subdivisions.
    The Everglades Headwaters proposal got its start in cooperative 
discussions with ranchers who were genuinely concerned that the 
marginal economics of ranching would soon put many ranches on the 
auction block. Enlisting ranchers as partners and compensating them for 
important environmental services keeps them in business, retains land 
on the tax rolls, and achieves restoration benefits at far less cost 
than traditional public works projects. Audubon also took note of the 
support from the nearby Avon Park Air Force Range, who recognized the 
importance of maintaining these lands in natural conditions to provide 
a buffer for their activities. The easements and selective land 
purchases that will result from the Everglades Headwaters proposal will 
be key building blocks in reaching those goals.
    The U.S. Fish and Wildlife Service has represented that access to 
the lands enrolled in the Everglades Headwaters NWR and CA will be 
through partnership with the Florida Fish and Wildlife Conservation 
Commission and that designation as a state Wildlife Management Area 
will be sought to allow additional hunting and fishing opportunities 
for the public. Audubon encourages this approach. As a landowner, we 
recognize the importance of allowing compatible public access to 
natural areas for enjoyment and education. For example, on our 
Corkscrew Swamp Sanctuary property in Naples, we provide a boardwalk 
for wildlife viewing and swamp buggy rides for visitors. Recently, 
although we did not agree with all of the specific details of the 
National Park Service's decisions regarding access in the Big Cypress 
National Preserve and Addition Lands management plans, we supported the 
compromise reached to balance access with protecting the resource while 
allowing traditional uses to continue. In that example, the Big Cypress 
National Preserve would not have been established without the 
cooperation of the proponents for recreational use of the property.
    All of the facts outlined above demonstrate that the Everglades 
Headwaters NWR and CA provides a true win-win-win solution to economic, 
wildlife habitat, water quality and quantity challenges in a public 
private partnership framework.

The Comprehensive Everglades Restoration Plan (CERP):
    As part of the Water Resources Development Act (WRDA) of 2000, the 
Comprehensive Everglades Restoration Plan (CERP)--the most ambitious 
ecosystem restoration project undertaken in the World--was passed by a 
bipartisan vote with only one dissenting vote, and signed into law. 
Funding for this plan was set up to share the costs 50/50 between the 
State of Florida and federal government and was expected to take 30-50 
years to complete.
    One of the hallmarks of CERP was that it would be a science-driven 
plan. Therefore, adaptive management was used in restoration to allow 
new scientific information and learning to be incorporated into 
decisions, in order to improve restoration success. Section 2039 of 
WRDA 2007 codified this requirement that adaptive management be used 
when implementing large scale ecosystem restoration projects.
    In addition to the updated Northern Everglades storage needs 
outline above, one such piece of new information involves the amount of 
water that flowed through the entire historic Everglades in its natural 
condition. While CERP originally planned for 1.7 million acre/feet of 
water per year, new scientific consensus demonstrates the need for 2.1 
million acre/feet of water per year. The proposed Everglades Headwaters 
NWR and CA can help store some of this additional water that is needed 
in an efficient way, working with willing sellers and ranchers looking 
to maintain their traditional ways of life. Another lesson learned 
through adaptive management is that taking advantage of natural, low-
tech opportunities to store and clean water is often a much more cost-
effective way to proceed with Everglades Restoration.

Everglades Restoration Progress:
    Unprecedented progress has been made toward implementing CERP in 
recent years and we are at the critical point where all projects 
authorized by Congress are under construction.
        <bullet>  In early 2010, construction began on the Picayune 
        Strand restoration project, which will restore 55,000 acres--
        removing roads and filling in canals built to facilitate a 
        failed subdivision to restore the natural hydrology on these 
        lands without impacting neighboring landowners. Two of four 
        phases of this project are under construction. The first phase 
        will be complete in 2012 with all phases slated for completion 
        in 2016.
        <bullet>  In October 2010, construction on the Site 1 
        Impoundment project began which will improve water quality and 
        provide storage needed to mitigate for Florida's cycle of 
        drought and flooding risks.
        <bullet>  In October 2011, the Indian River Lagoon project 
        broke ground. In the past several years, after multiple large 
        rain events, sizeable quantities of freshwater from Lake 
        Okeechobee have been released into the Indian River Lagoon and 
        St. Lucie Estuary. These water releases have altered salinity 
        levels and introduced contaminants into both the Lagoon and 
        Estuary. This project will provide storage and water quality 
        treatment to protect these natural resources that are a 
        critical economic engine for Florida's treasure coast. 
        Additional natural storage north of Lake Okeechobee that will 
        be achieved with the Everglades Headwaters NWR and CA will also 
        provide benefits for this region, which is home to more than 
        4,300 plant and wildlife species that have suffered from water 
        pollution and changes in the delicate balance of fresh and salt 
        water that is necessary for their survival.
    Although CERP provided for a 50/50 cost share, the State of Florida 
advanced construction funds to achieve additional restoration progress 
while awaiting Congressional authorization and funding. This is in 
addition to the billions spent by the State of Florida on water quality 
improvements.
        <bullet>  The State began construction on the C-111 Spreader 
        Canal Part 1 CERP project in 2010 and this project is scheduled 
        for completion before the end of the calendar year. The C-111 
        SC project will restore flows to Taylor Slough in Florida Bay.
        <bullet>  The Biscayne Bay Coastal Wetlands Deering Estate CERP 
        project is also under construction using funds advanced by the 
        State of Florida and will be completed in early 2012.
    In addition to the CERP projects above, great advances have 
occurred in other Everglades restoration projects.
        <bullet>  Originally authorized in 1989, the Tamiami Trail 
        bridge component of the Modified Water Deliveries Project is 
        under construction and set to be completed in 2013. The 
        construction is a visible indicator to the citizens of South 
        Florida that restoration is underway and creating badly needed 
        construction jobs in South Florida.
        <bullet>  Critical projects authorized in 1996 are under 
        construction.
        <bullet>  Kissimmee River Restoration, authorized in 1992, is 
        nearing its final construction phase and continues to be one of 
        the World's best examples of successful ecosystem restoration.
    In addition to this unprecedented progress in ecosystem 
restoration, this past week the Army Corps of Engineers and the South 
Florida Water Management District announced the start of the Central 
Everglades planning process, which will incorporate updated science and 
maximize use of publicly owned lands to focus the next phase of 
Everglades Restoration on the Central and Southern Everglades, all 
while advancing the timeline for restoration planning to 18 months. 
This program will allow ecological benefits to be realized faster. 
After a steady stream of project groundbreakings during the past two 
years, the next two years are set to provide a flow of project ribbon 
cuttings and projects being operated to benefit Florida's environment 
and economy.

Conclusion--The Everglades Headwaters NWR and CA Complements CERP and 
        Makes Restoration More Successful:
    The investments already made in Everglades restoration will be 
enhanced by the Everglades Headwaters NWR and CA.
    The first effort to focus on the Northern Everglades was Kissimmee 
River Restoration, authorized by Congress almost 20 years ago in 1992. 
The Everglades Headwaters NWR and CA proposal helps the Kissimmee River 
Restoration project succeed by assuring that land surrounding the 
restored river will be maintained in conservation and provide water 
storage and cleansing opportunities rather than being sold for 
development.
    Since the understanding of the storage needs North of Lake 
Okeechobee has increased since CERP was first planned, new solutions 
have been sought for this storage. Lands made part of the Everglades 
Headwaters NWR and CA will provide some of this storage by remaining in 
their natural conditions rather than being drained for development or 
agricultural production. Holding water in this natural way will also 
reduce the phosphorus pollution entering Lake Okeechobee and the 
Everglades. Improving water quality north of Lake Okeechobee as well as 
south of Lake Okeechobee in the Everglades Agricultural Area is 
necessary to prevent ecosystem degradation. Since it is clear that 
existing programs alone will be unable to meet water quality goals, the 
proposal will provide needed water quality improvements while providing 
concurrent habitat and recreational benefits and preserving a 
traditional way of life and economic base of ranching.
    Because of the multiple benefits the Everglades Headwater NWR and 
CA can provide, we support the proposal and look forward to working 
with the interested landowners, recreational users and the U.S. Fish 
and Wildlife Service to achieve our common goals that can benefit all 
Floridians
    Florida is an extraordinary place. A land full of unique and 
special places. The Everglades is a region, really 1/5 of our landscape 
that is--to use the words of Marjorie Stoneman Douglas--unlike any 
other. The impact of the dredge and plow on this wonderful system 
cannot be completely undone. The federal government spent the funds to 
drain, ditch and dike the system. As much as is possible must be done 
to repair the damage. Our water, wildlife and way of life depend on it.
                                 ______
                                 
    Dr. Fleming. Thank you for your testimony, Mr. Draper.
    Next, Mr. Wright?

          STATEMENT OF BISHOP WRIGHT, JR., PRESIDENT, 
                  FLORIDA AIRBOAT ASSOCIATION

    Mr. Wright. Chairman Fleming and the Committee, thank you. 
It is an honor to be here today and represent 26,000 registered 
airboaters in the State of Florida. As you can see, there are 
more airboaters in the State of Florida than the rest of the 
nation.
    With that said, I have lived in West Palm Beach for my 
entire 46 years, going on 47 years, and today I am going to 
talk about an area in my backyard that my father and his 
founding friends enjoyed and recreated in, and I am going to 
give a comparison to two areas next to it that we did the same.
    I want to say that airboaters are unique individuals. For 
one, we don't really appreciate land being locked up. Maybe 
some people feel here in the community that we are selfish and 
there is a reason why we don't want to buy this land. Well, the 
real truth is out of all the refuges we have they use airboats 
as a main source or tool to get around in those refuges, but 
nowhere in those refuges do they allow airboats for public use. 
That may be acceptable in states like Louisiana, but it is not 
acceptable in Florida. We won't tolerate it, for one. We fight 
every day for that. It is unAmerican is how we look at it.
    Now I want to get in the history of the conservation areas. 
There are three of them down there, Conservation Area 1, 3 and 
4. With that said, it is 815,705 acres total, and 143,000 acres 
of it is Conservation Area 1. That is where Arthur Marshall and 
the Federal Government, the U.S. Fish and Wildlife, has taken 
in that land and they locked it up, stopped all recreational 
opportunity to speak of. They do allow a little bit, minor in 
some parts of it.
    With that--I am losing my thought here, and I am sorry. All 
right. Conservation Area 1 is an area that basically has 
stopped all recreational opportunity with no access in 
Loxahatchee. Basically it was leased from the South Florida 
Water Management District to the U.S. Fish and Wildlife with a 
50 year contract. There is a lot of the community that didn't 
really want to see that renewed, that 50 year lease, because of 
what they did.
    In Conservation Area 2 and 3, the sportsmen basically have 
been in there. We are the eyes and ears. We will look over this 
piece of property. We watch over it. We make sure that it 
doesn't have exotics in it. We make sure that it is managed. We 
watch over the high waters. We fight for control of the 
structures and keep the high water from coming out of this 
land. So we are the eyes and ears, and we kept that area exotic 
free.
    We watched for years in Conservation Area 1. We watched for 
years that it growed and growed. The U.S. Fish and Wildlife did 
not put the money in to getting rid of the exotics. When it 
come time in 2001 that their 50 year lease was to be renewed by 
the South Florida Water Management District, we went to the 
South Florida Water Management District and we asked them not 
to renew that lease because it was over 70 percent exotic. It 
was taken over.
    They didn't put the money in it because there was nobody in 
there screaming and hollering. There was nobody in the 
interior. For 17 years, Burkett Neeley, the refuge manager, 
kept pretty much everybody out. He made sure that that area was 
not to be visited. He did a lot of things. He made sure that 
the boat ramps were almost impossible to use. He run the 
airboaters out of there. He basically made them go down and get 
a permit, and if you could airboat in other areas back then you 
would give up that thought, so you didn't really go into that 
area.
    He ran the bass fishermen out of there. He didn't allow 
them to have tournaments. He just continued to run everybody 
out. With that said, he just basically kept us out of there, 
and that is the reason. I am losing time here, so I am going to 
go off into some other areas. That is just the backyard.
    Some people said that why do people leave Florida to go 
hunting? Because most of the land in Florida is owned by the 
Federal Government in the South. That is the reason why the 
hunters are up in arms that they are going to buy Central 
Florida, the only place we got left to recreate and do what we 
like, traditional users basically getting to use the land. That 
is why we are upset.
    Sportsmen are the people who went out and eradicated the 
trees and the areas they do. They are the eyes and ears, and 
they have more to lose than any other group. That is the reason 
why we are so upset that the U.S. Fish and Wildlife is coming 
in here. That is the reason why we oppose this plan because of 
the practice that the Fish and Wildlife Commission has.
    And I want to say that our founding fathers are upset with 
the way this happened. That is the reason why they preserved a 
lot of this land that we have today that is hunted in the State 
of Florida through Everglades Florida, the coral program. It 
was hunters who invented all that system to buy land in 
Florida. You asked earlier, and that is the reason why we 
cherish the lands we got because we see how they can be 
managed.
    Thank you.
    [The prepared statement of Mr. Wright follows:]

            Statement of Bishop M. Wright, Jr., President, 
                    Florida Airboat Association Inc.

    Members of the House Sub-Committee on Fisheries, Wildlife, Oceans 
and Insular Affairs House Committee on Natural Resources thank you for 
inviting me to present testimony on behalf of 26,000 registered 
Airboaters in the state of Florida to you today. My name is Bishop 
Wright Jr. and I live in West Palm Beach, Florida.
    I am here representing the Florida Airboat Association as its 
President. Thank you for allowing me the opportunity to tell you about 
the impacts facing my family, and the Sportsmen's community as a result 
of federal actions. Also, I want to suggest some common sense federal 
actions that can positively address the deplorable situation. First of 
all Airboaters are not the type of people who condone ``A lock the 
gate'' land management philosophy that doesn't allow Florida citizens 
to enjoy their public lands and waterways.
    The following are examples of why we will never support this type 
of harmful, unfair and un-American so-called land stewardship.
    #1. The history of federal permitting of ``recreational 
activities'' on national wildlife refuge in Florida:
    Water Conservation Area One, also known as Arthur R. Marshall. The 
South Florida Water Management District leases Loxahatchee Wildlife 
Refuge, to the US Fish and Wildlife Services. It is managed entirely 
differently than Conservation Areas two and three located in the same 
area. For the last 20 years airboat recreation has been prohibited 
under the wildlife refuge philosophy of protecting the resources. On 
conversation area 1, the ``lock-em-out'' federal land management 
philosophy of USFWS has resulted in an invasive exotic vegetation 
infestation of over 70% of the refuge. Yet in the other two 
Conservation Areas, managed by the Florida Fish and Wildlife 
Commission, which embraces recreational airboating, hunting and 
fishing, exotic vegetation has been virtually eradicated. The 
difference between the USFWS refuge and the commission-managed lands is 
simple; airboaters and sportsmen serve as the eyes and ears and the 
whistleblowers for the land. When citizens are allowed to access the 
land and enjoy an area, they develop a close connection with the land, 
and become actively involved in its management. They don't and won't 
allow the land to be degraded and become infested with exotic species, 
which choke out the native species. With No Access areas such as 
Loxahatchee Arthur R. Marshall Conservation Area the result is: There 
are no eyes and ears on the land or water, which means no 
whistleblowers; so the wildlife and its habitat will always suffer when 
this happens. Despite all of its treasures, the refuge is in serious 
danger of quickly becoming an exclusive haven for invasive plants, Like 
the Melaleuca tree; Old World climbing fern (Lygodium Vine), and the 
Brazilian Pepper also known as Florida Holly. These are all rapidly 
growing non-native species, which are quickly overgrowing the native 
flora and are not compatible with the native wildlife. In 1951, a 
license agreement between the South Florida Water Management District 
and the U.S. Fish and Wildlife Service, under the Migratory Bird 
Conservation Act, enabled the establishment of the 143,874-acre 
Loxahatchee National Wildlife Refuge. Hunting and public access to 
federal land was the mitigation for drainage and development of land in 
the Everglades. To the south and southwest of the refuge lay Water 
Conservation Areas 2 and 3, and Everglades National Park the only 
remaining portions of the Everglades fresh water marsh. Water 
Conservation Areas 2 and 3 (WCA 2 & 3) are signature Everglades 
Sawgrass marsh, interspersed with tree islands. Ownership is mixed, 
with State, South Florida Water Management District and private 
ownership. The State leases portions of its land to the Micosukee 
Indian Tribe. The Florida Fish and Wildlife Conservation Commission 
manages the land to allow traditionally used vehicles like swamp buggy 
or boats to access to the area; the interior marshes are accessed by 
airboat, and the levees are also used for bicycle and hiking. With all 
of its multi-users, there is fishing, foraging and hunts for alligator, 
waterfowl, deer and small game. There is little to no exotic vegetation 
on its 671,831 Acres of land. This land is managed for sportsmen to be 
able to preserve the wildlife and habitat.
    The sportsman took the initiative to get certified to apply 
herbicide we also worked with the State employees to kill or remove 
these exotic invasive plants. As we hunted and explored the area we 
have access to we reported to the land managers of the area where these 
plants were located which allowed them to send their employees to 
eradicate these plants. Today without the ability to access nearly 80% 
of the BICY these plants will now go unchecked, unreported and become 
even an bigger problem for the habitat and Federal Government. 
Conservation areas two and three are perfect samples of how 
conservation area one should be managed because they are perfect 
examples of why human recreational access does not harm the land. Many 
conservationists are glad that the US Fish and Wildlife Service was 
only granted a 50 year lease because it was not until they dealt with 
the lack of land management by USFWS that they saw a situation they 
could not ignore. If any state agency was managing land this way their 
lease would've been taken back. But because it was federal manage 
lands, their lease was renewed. However, it was renewed with a lot 
shorter time frame because of the terrible way the USFWS managed the 
land during its first 50 years of management. At the hearings, when it 
became time to renew the lease, there were thousands of people asking 
the South Florida Water Management District not to renew the lease back 
to the USFWS because of their mis-management practices. What was 
everybody so up in arms about other than the fact that the area was 
being taken over by exotic vegetation? Burkett Neely was the USFWS Land 
manager. We believe his actions show his apparent goal during the 17 
years he was in charge was to keep people out by making things as 
uninviting as possible. He ignored complaints about the refuge. 
Thankfully, he retired in 1998. All of the things he took away in a 
decade and a half have still have not been replaced. The boat ramps at 
the Hillsboro Recreation Area at the south end of the refuge at Lox 
Road have been in disrepair for more than a decade; (1990); there are 
underwater obstructions that can destroy an outboard motor which are 
unmarked; and the canals are often choked with weeds. USFWS stopped the 
Bass clubs from holding tournaments, took away the special use permit 
that allow airboats to operate by permit only on designated trails 
within the refuge. The only hunting opportunity available was waterfowl 
and it was less than half of the area. This area holds a lot more 
opportunity for hunting than the 10% of available opportunity we are 
getting. Alligator, Deer and small game hunting opportunities should be 
available here like the other conservation Areas. USFWS took total 
ownership of half the levy on the south end, which separates 
conservation area one from conservation two, with the promises they 
were going to build a nicer boat ramp in conservation two for 
Airboaters, provide paved parking and make other changes, we 
reluctantly said ``yes'' to this change. After USFWS received ownership 
of the land the Airboat community got less than a third of what they 
were promised along with our new boat ramp. 15 years later, we're still 
waiting for paved parking that was promised in return for the ownership 
of over 12 miles of levy. At the end of the process, yes USFWS were 
granted another lease but not for 50 more years. They only got the 
lease because it was the federal government and no one wanted to step 
on big brothers toes. And, yes some improvements have been made but the 
sportsman's community feels there's more room for more improvement to 
be made which we were promised.
    #2. What assurances would the FAA need from USFWS to be convinced 
that access will be granted on these areas in the future?
    So why am I here so unthankful that you want to spend the 
$700,000,000 to protect the resource and habitat? FAA's belief is that 
until substantial changes to the Endangered Species Act are 
accomplished, the Headwaters Refuge will only provide a gateway for 
extremist environmental organizations to further abuse the original 
intent of the law (Provide examples like Panther Refuge which provides 
no hunting opportunity USFWS lands). FAA contends it is doubtful USFWS 
will ever have necessary funding in order to do the multiple NEPA 
planning requirements to open the land to the public. (Provide examples 
like Lake Wales Ridge of un-opened USFWS lands). It is evident that 
Congress has kept the purse strings tight regarding USFWS and will 
continue to do so. FAA knows from decades of experience that few if any 
promises being made to our delegates by Federal officials will ever be 
realized. That is because of the gateways provided in Federal law to 
organizations dedicated to preventing most if not all enjoyment of 
Federal lands by traditional users/sportsmen. FAA members are for the 
most part all traditional users of these type lands. This is why we 
request that any fee simple lands acquired or purchased be managed by 
the Florida Fish and Wildlife Commission. This is our only hope to see 
traditional use continue and to provide the eyes and ears necessary to 
provide the early warning if an area is becoming threatened.. USFWS 
held four hearings on the attempt to create a 100,000-acre conservation 
area where they want to pay landowners to keep their land as it is. 
Most of it is cattle country. They also want to buy the fee simple 
lands from the landowners and create a 50,000-acre refuge out of it. 
Hundreds of people showed up at each meeting where three of the four 
meetings or standing room only. The majority of speakers in the room 
collectively opposed this project. These were Florida citizens speaking 
at the podium. As of right now we have 28 refuges in the state and only 
7 allow hunting. Out of those 28 refuges, there is no valid reason at 
all that we can find for them not to allow hunting on at least 5 more 
refuges immediately, so this new refuge they are proposing we can only 
believe will be off limits also. No matter what they promise, Floridian 
hunters and sportsmen cannot allow the Federal government to lock up 
any more land.
    Where were all of these people after the plan was proposed at the 
following two meetings? USFWS's intentional scheduling of Hearings to 
conflict with major fund raising events of opposition organizations 
(The FAA) caused sportsmen not to be able to attend one of the 
meetings. The other meeting was held on national hunting and fishing 
weekend, which was created many years ago for the fourth weekend of 
September every year. This was the meeting I spoke at. Unfortunately 
that morning at the boat ramps there were more hunters launching their 
vessels to go hunting than the total number of people attending the 
meeting. I joined the majority of speakers in the room collectively 
opposed this land grab.
    What would FAA need from USFWS to be convinced that access will be 
granted on these areas in the future? We cannot change history or the 
past. However, the future must go in a different direction if there is 
ever going to be a future between the Recreational users and USFWS! #3. 
Establishing a new Wildlife Refuge and Conservation Area on benefits to 
restore the Everglades.
    Because of the ranching practices today how clean are the 
headwaters and what purpose will conservation easements serve to clean 
the Headwaters of the Everglades? Because of the Orlando Waters going 
south into the Kissimmee chain of lakes there is a big risk downstream 
prior to entering the Everglades that these already degraded waters 
will be harmful to the Everglades. FAA has tested the waters on the 
Kissimmee chain of lake where landowners already have conservation 
easement and even Those landowners would not let their grandchildren 
swim in the Waters surrounding their properties because of the 
pollution they have created.
    FAA understands the only places you find serious efforts to improve 
the environment are those with strong economies. If you kill off the 
sources of private sector of income and wealth you end the chance to 
improve the environment. So, why is the USFWS clueless?
        <bullet>  Sportsmen support more jobs in Florida than Disney 
        World (85,000 jobs vs. 61,000). With less impact to the 
        environment.
        <bullet>  Annual spending by Florida sportsmen is more than 
        twice the revenues of Miami based Burger King ($4.8 billion vs. 
        $2.05 billion). With less impact to the environment.
        <bullet>  Annual spending by Florida anglers is three times 
        greater than the cash receipts from the state's orange crop 
        ($4.4 billion vs. 1.2 billion). With less impact to the 
        environment
        <bullet>  Florida sportsmen spend $1.1 billion annually on 
        outboard boats and engines to get them onto the water and 
        around the marshes for fishing and hunting.
        <bullet>  More Florida resident's fish and hunt each year than 
        attend Miami Dolphins, Tampa Bay Buccaneers and Jacksonville 
        Jaguars games (2 million vs. 1.6 million).
    FAA believes the only benefit from this plan is to stop urban 
sprawl; and, create better water quality; more land will hold more 
water for the future.
    FAA believes that if the huge purchase of land was closed to public 
use, there will not be a watchdog to see all of USFWS abuse or 
degradation to the land that is going to occur behind the locked gates.
    By the way if you're coming to Florida to visit the Everglades. The 
only way to see it is by Airboat. This way you will be in the middle of 
it, the heart of it. But to do so means you won't be visiting any 
federal land.
    An updated version of an old Japanese saying is appropriate here: 
``If there's no eye to behold the beauty, what is the good''.
                                 ______
                                 
    Dr. Fleming. Okay. Thank you, Mr. Wright.
    And next and last is Mr. Gutierrez.

  STATEMENT OF JORGE P. GUTIERREZ, JR., PRESIDENT, EVERGLADES 
                      COORDINATING COUNCIL

    Mr. Gutierrez. Thank you, Chairman Fleming, members of the 
Subcommittee. I sincerely thank you for the opportunity to 
speak to you today, testifying today as the president of the 
Everglades Coordinating Council, a consortium of South Florida 
sportsmen and conservation organizations involved in a plethora 
of issues from the headwaters all the way down to the Florida 
Keys.
    I am a native of South Florida, where I recreated for the 
past 36 years. I work and live in the area, and this is my 
playground. Without question, the Everglades Headwaters Refuge 
will have a huge effect on the current and traditional cultural 
activities and recreation in this extensive area, which is the 
heartland of Florida.
    The ECC, which is first and foremost a conservation 
organization, due to the history of the Fish and Wildlife 
Service it is clear that this refuge would hinder access, 
create more obstacles to recreational opportunities while 
creating unnecessary burdens both locally on Floridians, as 
well as nationally on Americans. Given the rural nature of this 
area, ECC believes that development is not a short-term 
possibility. Rather, this is many decades down the road and is 
not a viable reason at this time to spend $700 million for 
Phase 1.
    When you look at the LPP, the environmental assessment, a 
cursory review gives you some facts and figures that make you 
cringe. $875 per mile for the posting of boundary signs. $1.4 
million per mile of boardwalk. Those numbers in today's economy 
are just not reasonable, and they should not be supported.
    This kind of money can be better used to fund and operate 
current areas, clear the $3.4 million [sic] Federal operations 
and maintenance backlog on Federal properties or give it to the 
state. The State of Florida and its Florida Fish and Wildlife 
Conservation Commission is in a much better position to use it 
locally without bureaucratic red tape, years of analysis, 
planning, meetings and so forth.
    ECC has always been disheartened when local decisions are 
left to folks thousands of miles away. You wouldn't come to 
Florida and ask for advice on recreation in Alaska in the 
winter, and we would ask that you go to the locals to get the 
best advice on what is good for South Florida. A few days' 
fact-finding trip into the Everglades doesn't make you an 
expert on the Everglades, and the locals are your best resource 
to see what is best for the resource and those who recreate 
within it.
    In Florida, there have already been ample opportunities to 
evaluate access for sportsmen and recreationalists within 
national wildlife refuges. Here in Florida, fish and wildlife 
is very restricted. I am not going to get into the six of the 
28 or seven. Some may say it is a little bit more. The websites 
may say less. That is pretty well established that when you 
compare the state wildlife management areas and the state 
agencies to the feds, it is much more access and much more 
recreation at the state.
    Basically the best example to give is Lake Wales Ridge 
National Wildlife Refuge, which is in the heart of this refuge. 
Basically I can't even go and have a picnic there, even though 
it is 2,000 acres. You can say well, it is small, but you can 
recreate. You can hunt. You can do it in smaller areas. I 
harvested my first Osceola turkey on public land in a 2,500 
square foot wildlife management area less than 20 minutes away 
from there, so you can't say it is too small or anything like 
that. It is a situation that these areas need to be open. They 
need to be open for recreationalists.
    Again, we know from history, and we go back to history 
because it is the best indicator of what is going to happen in 
the future. When the Federal Government took over the Picayune 
Strand, millions of dollars were put into that pot for the 
purchase of that property. Cultural and traditional activities 
were taken out of there. The Ten Thousand Islands was 
established. Traditional uses were eliminated within months of 
that area being implemented. All of these fall under the 
Department of the Interior.
    In sum, there are no assurances whatsoever that once a 
refuge is established that recreation will continue. If they 
get the funding for this refuge, until they go back and they 
can get funding for operations and so forth that lock will stay 
on the gate, which it has been in Lake Wales Ridge. Based upon 
the documents of Fish and Wildlife Service, they have three 
people managing it in the plan. You can't have a recreational 
program with just three people operating it.
    So, Mr. Chairman, you can have this refuge and you can 
purchase it if they were able to get the property, but it is 
quite possible that they are not going to have the funds to 
operate it and it is going to remain closed. And that is the 
problem based upon history. By their own admissions, they would 
have to choose between the enormous maintenance backlogs that 
are already in existence or spend a lot more money on this.
    To address Mr. Draper and the issues of sportsmen, we don't 
necessarily disagree. We just think there is a better way that 
is less expensive with more access. I am a conservationist 
first and foremost, but this is not the best way to protect 
that land. Department of Agriculture has a great program, which 
protects the ranchers and the people who recreate there, but 
from a sportsmen or a recreationist perspective there is a 
better way and this is not the best way to please everybody.
    I thank you for your time. And with that I just want to 
offer to help in any way possible, and I thank you again for 
your time.
    [The prepared statement of Mr. Gutierrez follows:]

           Statement of Jorge P. Gutierrez, Jr., President, 
                    Everglades Coordinating Council

    Chairman Fleming and members of the Subcommittee on Fisheries, 
Wildlife, Oceans and Insular Affairs, I sincerely thank you for the 
opportunity to present written as well as live testimony at your 
oversight hearing.
    I am testifying today as the President of the Everglades 
Coordinating Council (``ECC''), a consortium of South Florida sportsmen 
& conservation organizations involved in a plethora of issues related 
to the Everglades ecosystem, from its headwaters in the Northern 
Kissimmee Valley of Florida where a new national wildlife refuge has 
being proposed, all the way south to the reefs in the Florida Keys.
    ECC is a non-profit NGO whose sportsmen delegates have for over 
four decades worked with state, federal, and county governments and 
other NGOs, to address crucial issues, including: ecosystem restoration 
(or lack thereof), natural resource policy, commonsense land and water 
bodies management, non-motorized & motorized access to and enjoyment of 
federal and state public lands, off-road vehicle access and use, 
hunting and game management, protected & imperiled species management, 
transportation planning, exotic species eradication, land acquisition 
as well as sovereign land issues. We were working on Everglades issues 
before it was popular and a growth industry for Florida.
    I am a native of South Florida where I have lived over the past 36 
years. As a civil trial attorney with the law firm of Freedland Russo, 
P.L. in Weston, Florida, I currently reside and work within a short 
drive from the Everglades where I recreate year round.

I. Views of the ECC on the Establishment of a Proposed Everglades 
        Headwaters National Wildlife Refuge and Conservation Area
    Without question, the proposed Everglades Headwaters Refuge will 
have a huge effect on the current and future traditional cultural 
activities and recreation in this extensive area that comprises the 
heartland of Florida.
    While the ECC is first and foremost a conservation organization, 
due to the history of the U.S. Fish & Wildlife Service (``FWS'') in 
Florida, it's clear to ECC that a Refuge would hinder current access 
and create more obstacles to recreational opportunities while creating 
unnecessary burdens both locally on Floridians and nationally on all 
Americans. Moreover, given the rural nature of this area, ECC believes 
that development is not a short term possibility and the threat of 
development many decades down the road is not a viable reason at this 
time to make a drastic $700,000,000 sacrifice for phase one of a four 
phase project given the current economics of our country.
    In viewing the Draft Land Protection Plan and Environmental 
Assessment for the Proposed Establishment of the Everglades Headwaters 
National Wildlife Refuge and Conservation Area (``LPP''), it is clear 
that a cursory review makes the conservationist in me wonder about a 
number of things. First and foremost is the grandiosity of the 
$700,000,000 project and the costs with just getting this project off 
the ground. As reflected on page 33 of the LPP, the estimated one-time 
operating costs are jaw dropping including the posting of boundary 
signs at $875 per mile and the construction of boardwalks at $1.4 
Million per mile. Those numbers in and of itself make even the non-
sportsman & average taxpaying citizen who will never use the area 
cringe. That kind of money can be better used to fund and operate 
current areas, clear the 3.4 billion dollar federal operations and 
maintenance backlog on existing federal properties and create more 
access in places where there is none or even better yet, provide 
monetary resources to the State of Florida which is in a much better 
position to use it locally without bureaucratic red tape and years of 
analysis, planning and meetings to figure out how to best use Florida 
rural land.
    ECC has always been disheartened when local decisions are left to 
folks thousands of miles away with little to no real knowledge of 
traditional uses and recreation. You would not take advice on Alaskan 
winter recreation from a native Floridian who has never been in the 
snow, so the same logic should apply to the Everglades. The local 
sportsmen and state agencies are in a much better position to evaluate 
uses, access, recreation and protection of the resource. A few days 
long fact-finding trip into the Glades does not give someone the 
necessary and adequate experience to dictate policy and use for decades 
down the road.

II. History of Permitting Wildlife Dependent Recreation in National 
        Wildlife Refuges in Florida
    In Florida, there have already been ample opportunities of all 
kinds to evaluate access for sportsmen on national wildlife refuges. 
Without question, here in Florida the FWS has been extremely 
restrictive when compared to the more access-friendly Florida Fish & 
Wildlife Conservation Commission.
    As an example, at Merritt Island National Wildlife Refuge, there 
are limitations on access in several different ways: 1) time and day 
restrictions (no afternoon hunting, certain days of the week etc.); 2) 
elimination of and/or limitations on the use of mechanical conveyances 
within the refuge (no airboats or certain motors); and 3) only small 
sections the refuge open to hunting. This example is repeated at all 
the Florida refuges where duck hunting is allowed including the Arthur 
Marshall Loxahatchee NWR and Ten Thousand Islands NWR. A great majority 
do not permit hunting at all.
    The problems are not limited to just duck hunting, but other types 
of hunting and users in general including such things as hiking or 
picnicking as well. In fact FWS has refused to allow real access on the 
Florida Panther National Wildlife Refuge just north of Alligator Alley 
in Collier County although allowed by law. FWS has removed off-road 
vehicles for hunting in the Picayune Strand State Forest restoration 
project. In the Everglades, as this committee is fully aware, we have 
exotic pythons running rampant with a 16-foot snake just this past week 
being found with a 75-pound deer inside. This too is the result of 
having no access to large areas of federal land.
    History is indeed a greatest indicator of future FWS actions on the 
Headwaters refuge. Currently only 6 of the 28 national wildlife refuges 
in Florida provide for any type of hunting (as reflected on the FWS' 
current websites for their Florida Refuges). One thing is certain. . 
.of the few that do, access and recreation is heavily limited in the 
ways you can access it (i.e. limited areas open within the refuge, 
limited mechanical conveyances, restrictions on days and times of use 
as well as onerous regulations and restrictions on use which make it 
difficult if not impossible to really recreate on the area). Access to 
a small portion of a refuge is not real access.
    When looked at as a group, it is startling how restrictive FWS is 
when compared to state wildlife lands. The following is a list of all 
Florida National Wildlife Refuges under the control direction or 
authority of FWS:
    Archie Carr National Wildlife Refuge (No Hunting)
    Arthur Marshall/Loxahatchee Wildlife Refuge (Limited/Restricted 
Opportunities)
    Caloosahatchee National Wildlife Refuge (No Hunting)
    Cedar Keys National Wildlife Refuge (No Hunting)
    Chassahowitzka National Wildlife Refuge (No Hunting)
    Crocodile Lake National Wildlife Refuge (No Hunting)
    Crystal River National Wildlife Refuge (No Hunting)
    Egmont Key National Wildlife Refuge (No Hunting)
    Florida Panther National Wildlife Refuge (No Hunting)
    Great White Heron National Wildlife Refuge (No Hunting)
    Hobe Sound National Wildlife Refuge (No Hunting)
    Island Bay National Wildlife Refuge (No Hunting)
    J.N. ``Ding'' Darling National Wildlife Refuge (No Hunting)
    Key West National Wildlife Refuge (No Hunting)
    Lake Wales Ridge National Wildlife Refuge (No Hunting)
    Lake Woodruff National Wildlife Refuge (No Hunting)
    Lower Suwannee National Wildlife Refuge (Limited/Restricted 
Opportunities)
    Matlacha Pass National Wildlife Refuge (No Hunting)
    Merritt Island National Wildlife Refuge (Limited/Restricted 
Opportunities)
    National Key Deer Refuge (No Hunting)
    Passage Key National Wildlife Refuge (No Hunting)
    Pelican Island National Wildlife Refuge (No Hunting)
    Pine Island National Wildlife Refuge (No Hunting)
    Pinellas National Wildlife Refuge (No Hunting)
    St. Johns National Wildlife Refuge (No Hunting)
    St. Marks National Wildlife Refuge (Limited/Restricted 
Opportunities)
    St. Vincent National Wildlife Refuge (Limited/Restricted 
Opportunities)
    Te n Thousand Islands National Wildlife Refuge (Limited/Restricted 
Opportunities)
    These numbers don't lie and basically establish a rate of openness 
for sportsmen recreation at just over 20%. The fact remains that these 
are real and current historical figures for Florida where this latest 
refuge (the 29th) is being proposed. While ECC has been told that this 
ratio is not the case in other parts of the country, given the fact 
that this refuge will be in Florida, history is just not on their side. 
Moreover, as we know local staffs at these refuges are transitory which 
means that even if flexible and workable access was ever arrived at, 
the threat of litigation by extreme environmental groups or the 
installation/appointment of less sportsman-friendly local leadership 
can take away any gains in access arrived at during their tenure. A 
long list of gentlemen agreements in Florida (i.e. Picayune Strand etc) 
where access was initially agreed to which was later taken away through 
federal intervention or decisions made elsewhere only leaves the ECC 
with no other option than to support the position of minimal or no 
federal involvement with very few exceptions. We have been harmed too 
many times in the past to trust federal agencies again with such a 
large piece of land in the heart of Florida. Given that history, there 
should not be a 29th National Wildlife Refuge in Florida until a 
drastic change occurs here in Florida. Until FWS decides to show 
goodwill and change its method of operating refuges in Florida, the ECC 
is against adding yet another refuge to this long list of areas which 
continue to deprive Floridians with access for traditional recreation.

III. There are few, if any, real assurances from FWS to convince the 
        ECC that Hunting and Public Access will be ensured within the 
        Proposed Everglades Headwaters National Wildlife Refuge & 
        Conservation Area in the future.
    Under the 1997 Refuge Improvement Act, existing compatible wildlife 
dependent recreational uses (i.e. hunting etc) shall continue on an 
interim basis pending the completion of the comprehensive conservation 
plan for a new refuge. Thus any lands which become part of the refuge 
would continue be recreated or used in the same manner upon creation, 
however it would not ensure that it would stay open since that 
determination gets made in the CCP, subject to NEPA and is also subject 
to funding limitations. Things such as how the land is used, what 
practices are used and such simple issues as hunting leases which 
generate revenue, could be limited, eliminated or affected by such 
things as NEPA, the Endangered Species Act and other regulation.
    As it pertains to this Refuge, its absolutely possible and even 
more probable that while these lands remain open initially, after a 
conservation plan is created these areas will be off limits to many 
individuals not only because of ecological concerns but more likely due 
to funding. It is well documented that even if the money was found to 
establish the refuge, monies to operate it would be needed and if no 
such monies were allocated, a great portion of the property would be 
closed and locked to everyone. Not even a picnic could occur as such is 
the case with Lake Wales Ridge National Wildlife Refuge.
    Again looking at history, we Floridians know that when FWS took 
over the Picayune Strand millions of dollars were put into the pot of 
money use to purchase the property. As a result FWS later forced the 
Florida Department of Forestry to force the traditional buggies from 
the area thus eliminating traditional and cultural activities that had 
taken place there for generations. When the Ten Thousand Islands NWR 
was established, Federal officials vowed to have traditional uses 
continue as is, yet within months refuge staff eliminated the most 
traditional of activities in the area, commercial fishing.
    Loxahatchee NWR was yet another property where assurances were made 
that access would be maintained and opportunities would flourish. 
Unfortunately, the opposite took place and exotic plants took over 1/2 
of the 160,000 acres which later had to be removed using contractors at 
a high cost to the taxpayer. As was the case with other refuges, 
traditional uses such as airboating were immediately eliminated with 
the stroke of a pen, yet they recently placed a ``virtual'' airboat 
ride in the visitor center. Certain areas were closed to any access 
whatsoever and more restrictions were put in place, i.e. outboard 
motors only. Just within the past 18 months, myself working with other 
sportsmen groups have attempted to work with the local administration 
to improve access and have been vehemently shot down by staff year 
after year. It is this take it or leave it type of behavior that causes 
such an opposition to yet another refuge when the local staff has such 
control to prevent any reasonable accommodation or change. This goes 
completely against the open and sportsman friendly attitude of the 
state wildlife agency, Florida Fish & Wildlife Conservation Commission, 
which is more hands-on and open to hearing from stakeholders when 
making its decisions. It is not unusual for federal agency decisions to 
be made outside of the area being affected. Federal staff in Denver, 
Atlanta, D.C. or elsewhere should not be making decisions on Florida-
based areas. The locals always know best.
    FWS is a sister agency of the National Park Service and also falls 
under the umbrella of the Department of the Interior. Assurances only 
go so far. No better example of that is the Big Cypress National 
Preserve where I was appointed last year to serve on its ORV advisory 
committee. We are now in the 4th decade of the Preserve's existence and 
the addition lands are nowhere closer to being open. Recent litigation 
by environmental groups only further strengthens the ECC's position 
that Federal involvement only prolongs the opening of these areas as a 
result of increasing federal control and oversight and the properties 
falling under the auspices of NEPA etc. These lands can be enjoyed more 
quickly and with less governmental red tape when in private hands or in 
the hands of the state agency which is receptive and more adaptable to 
changing times or environmental conditions etc without the burdensome 
federal regulations and associated processes.
    In sum, there are no assurances whatsoever that hunting and public 
access will continue once a refuge is established. The shining example 
of this is the Lake Wales Ridge NWR in Highlands County, Florida on 
Highway 98. This refuge right in the middle of this proposed larger and 
grandiose refuge serves as the best example of what can surely occur if 
this Headwaters refuge gets any further along...land that was once open 
is now closed. As the Lake Wales Refuge's very own website \1\ 
indicates, it is closed to public use. If fact the website states 
``There is no public access''. No hiking, camping, or bird watching 
etc. A casual drive by the area will show you plenty of FWS signage, 
high fences and a locked gate. This is a small refuge of a few thousand 
acres which when compared to the 150,000 acres of proposed refuge is a 
nullity but yet if the FWS can't even open this small parcel and/or 
obtain funding for staff at this location, how can the people of 
Florida reasonably believe that the FWS will be able to adequately 
manage and operate a bigger and more costly project and have better 
access than what they have now?
---------------------------------------------------------------------------
    \1\ http://www.fws.gov/refuges/profiles/index.cfm?id=41577
---------------------------------------------------------------------------
    By their own admission, even if the properties were acquired by the 
FWS, there would have to be additional funding sources for staff and 
maintenance. In essence, the property could be acquired and placed 
under Federal Control, but left locked and closed due to lack of 
funding for staff, equipment and other necessary items. Moreover, we 
already know there is already an enormous maintenance backlog for 
existing federal properties nationwide and as a result this would fall 
at the end of the long list of priorities.

IV. Establishing a National Wildlife Refuge will not further the goal 
        of restoring the Everglades.
    The short and succinct answer to this question is that it will not. 
Currently there are a number of properties being used efficiently to 
restore the Everglades. The Stormwater Treatment Areas are one of the 
best examples of combining the restoration of the Everglades while 
allowing access to user groups for bird watching, hunting and 
recreation. Other areas such as the District's enormous reservoirs 
along US 27 in Western Palm Beach County lie dormant due to a 
combination of reasons, one of which being finances. The South Florida 
Water Management District is one of the largest entities working on 
restoration while under great financial constraints due to state of the 
current economy. There are in fact other federal agencies already 
involved in conservation easements such as the U.S. Department of 
Agriculture. Why not improve the mechanisms in place rather than just 
trying something new that is more costly and may not help matters much.
    Based on the FWS' own environmental assessment as reflected on page 
261, Headwaters and its $700,000.00 cost will only provide ``small 
water quality benefits by the protection of 50,000 acres of land, and 
the 100,000-acre conservation easements''.

V. Local Communities and the Services provided to Citizens will be hurt 
        by the Proposed Refuge
    Without question, the local counties affected by this proposed 
refuge will lose tax revenue. Congress will ultimately decide how and 
if they will be reimbursed. In fact the House Natural Resources 
Subcommittee on Natural Parks, Forests and Public Lands recently looked 
at this very issue on October 14, 2011 during an oversight hearing 
entitled Payments in Lieu of Taxes (PILT).
    With the land falling into federal control, there is an absolute 
loss of tax revenue for these Florida counties and municipalities 
within the refuge area. This is not speculation or conjecture but 
rather fact. Vital program such as road construction, schools and law 
enforcement are affected. When the Picayune Strand and Ten Thousand 
Islands in South Florida (Adjacent to Big Cypress National Preserve) 
were taken over by the Federal government, Collier County lost valuable 
tax revenue. To date, the federal government has not fulfilled its 
promise to reimburse the county for lost revenue. This was many years 
ago and is only a small example of what will occur with this much 
larger endeavor. While this may have fallen by the wayside in earlier 
years due to the real estate boom and high property tax collections, in 
today's economic climate this loss hurts and will continue to hurt for 
years to come.

VI. Florida is a Better Partner
    The Florida Fish & Wildlife Conservation Commission (``FWC'') is a 
much better steward of these lands as they are local and know the 
areas. In fact, while FWS has gone as far as suggesting to leave the 
land management and recreation components of the refuge to the state 
wildlife agency, Federal law as currently written creates too many 
obstacles and constraints for a workable partnership to take place. 
Changes to the National Wildlife Refuge Improvement Act would be 
necessary in order for this to work otherwise federal rules and 
oversight would counteract any real progress and access created through 
the work of the state agency and its staff.
    FWC already does a great job on more than 34 million acres of 
Florida public and private land including 5.8 million acres of wildlife 
management areas. As the agency responsible for one of the largest 
public-hunting systems in the country, it provides better access, 
facilities and more recreational opportunities than the FWS could ever 
dream of or hope to provide, even under the best of circumstances.
    Sportsmen and Gladesmen (a traditional culture recognized by a 
study commissioned by the United States Army Corps of Engineers in 
association with the Comprehensive Everglades Restoration Plan (CERP)) 
in South Florida have been partners with FWC for years. It is 
disheartening that to date FWS has totally disregarded the Gladesmen 
culture and not even mentioned this community in any of its documents 
to date.

VII. Sportsmen Should Be Part of the Solution
    First and foremost, sportsmen are conservationists and stewards of 
the land. You cannot lock a gate and prevent access in the name of 
conservation or preservation. Without access, exotics flourish and 
problems go unnoticed for decades such as melaleuca did in Loxahatchee 
NWR before millions of dollars were spent to control/eradicate it and 
why exotic snakes like Burmese and African Rock Pythons are all over 
the Everglades.
    This committee needs to take strong stance once and for all to 
eliminate the dysfunction and stop the decades-long management plans, 
the disregard for congressional mandates and timelines, and the 
inclusion of Wilderness sustainability assessments in projects whose 
purpose is clearly stated including uses that would be prohibited under 
Wilderness. Sportsmen are ready, willing and able to help in this 
regard and will help craft whatever fixes are needed so things move 
quickly and areas are opened up for recreational users sooner than 
later.
    Without a doubt, sportsmen as well as other recreational users know 
and love these areas and are the best individuals to tackle 
conservation issues head on, but in a responsible way that allows for 
conservation, access and use by all stakeholders to be symbiotic.

VIII. Conclusion
    I thank you again for the invitation to travel to Washington once 
again to address this committee. The sportsmen of South Florida are the 
original conservationists who worked to establish Big Cypress National 
Preserve decades ago. Years later we are still fighting for reasonable 
access to this national treasure. The proposed refuge at this time is 
just an extra and possibly unnecessary piece of this large puzzle and 
the goals of Everglades restoration can be completed without this 
costly $700,000,000 endeavor. The resources of the Federal Government 
would be better served by concentrating on opening more of the federal 
lands we already have here in Florida and improving them across the 
board rather than putting even more lands under Federal control and 
continuing to limit access. ECC is encouraged by the work of this 
committee and looks forward to helping each of you in the years to 
come.
                                 ______
                                 
    Dr. Fleming. Well, we thank you all for your testimony. Now 
we are ready for questions for the witnesses, and I will now 
recognize myself for five minutes.
    Mr. Gutierrez, you made a lot of references to the $3.4 
billion in operations and maintenance backlog within the Refuge 
System. I think your comment was something along the lines of 
we buy the land, we meaning the government, but we have to 
padlock it because we have no money to manage it. We don't have 
money for personnel or upkeep.
    What you may not know is according to the Cooperative 
Alliance for Refuge Enhancement, there are 184 mission critical 
projects in Florida that would cost more than $221 million to 
complete. Is there any logic to completing these mission 
critical projects in Florida that would cost more than $221 
million to complete?
    Mr. Gutierrez. Well, I think there are two ways to answer 
that. First and foremost, it is less expensive, but, more 
importantly, you are going to get the work done sooner because 
this refuge is so far down the road you are not going to see 
the effects for decades.
    Whereas you are already dealing with the issues and you 
need to finish what you started before you start something 
else, and it is important to look at it that way, Mr. Chairman.
    Dr. Fleming. Would this be, in your opinion, like not 
having a lawnmower to mow your lawn and then going and buying 
your neighbor's lawn as well?
    Mr. Gutierrez. That or deciding you want to take a bus trip 
somewhere and then just get off and let us go walk down the 
block.
    Dr. Fleming. Right. And not have a return ticket?
    Mr. Gutierrez. Exactly. You know, my grandparents always 
said finish what you started. Well, let us go ahead and finish 
what you started before we go and spend another $700 million on 
something else.
    Dr. Fleming. Is there any logic to completing these mission 
critical projects before making a new $700 million investment?
    Mr. Gutierrez. I think I have answered that in that we need 
to finish what we started. We need to take care of the critical 
issues before we talk about something that based upon their own 
LPP may not improve water quality.
    I think it is page 261 that they say there is going to be 
very little benefit to water quality, as opposed to spending 
that money south of Lake Okeechobee with the stormwater 
treatment areas and the agricultural areas that have more 
immediate impact.
    Dr. Fleming. Like the rest of the Federal Government, the 
Fish and Wildlife Service feels there is no maximum limit on 
the Federal credit card, and now is the time to buy this 
Florida land before the prices go up.
    What do you think about this? This seems like an 
opportunistic thing. Prices are down. You know, real estate in 
general is down because of the poor economy, and all of a 
sudden we are borrowing money from China in essence to go out 
and buy more land. What is your thoughts on that?
    Mr. Gutierrez. I live in South Florida, but I recreate 
around Lake Okeechobee on the north side with a group of 
friends. We have a hunting camp close to Lake Okeechobee. I 
know the area very well.
    I can tell you this, Mr. Chairman. I think the threat of 
development in that area--you know, everybody comes to Florida. 
They want all the jobs are on the coast and in the south and on 
the north. People want to be close to WalMarts. They want to be 
close to Home Depot. This area is not going to get developed, 
at least not in my lifetime. It is just not going to happen.
    Dr. Fleming. So you don't see a big rush for people to 
build houses right in the middle of swamps with mosquitos and 
that sort of thing?
    Mr. Gutierrez. There are not many jobs that would go well 
with that sort of lifestyle, Mr. Chairman.
    Dr. Fleming. Okay. Great. Let us see. Mr. Horn, do you 
agree with the statement that it has taken more than 60 years 
for the ecosystem to degrade to its current state, and it will 
likely take a similar timeframe or longer to restore? I think 
you made some comments in reference to that.
    Mr. Horn. Yes. Mr. Chairman, I think that it was pretty 
evident that it took a long time to get into the problems that 
afflict the Everglades today. It is going to take a long time 
to get out of them. It is that sense of what are our priorities 
that drive my concerns.
    Everglades Restoration is the first of its kind. We are now 
11-plus years into it. We know that the price tag is going to 
be very far north of the $12, $13 billion originally 
anticipated, and my simple fear is that because of the delays 
and the continuing cost escalation, coupled with our nation's 
debt and funding issues, that the level of national support for 
Everglades restoration is going to inevitably erode.
    People who are from and around Florida are all committed to 
it, but Congress is a lot of folks outside the Florida 
delegation. There are 98 Senators who aren't Senators from the 
fair State of Florida. I am just fundamentally concerned that 
cost escalation, delays, lack of visible progress like the Mod 
Waters project, at some point I am just afraid that we are 
going to start losing the funding to sustain this Everglades 
Restoration Program.
    So I think the priority is let us get with the things that 
are going to turn it around in the near term, which is to begin 
to treat that water and store the water outside of Okeechobee, 
so that we can get that natural sheet flow going back to the 
heart of the system. And I think unless we do that pretty damn 
soon, my fear is that if this thing is going to run off the 
tracks it is going to evaporate and we are not going to be left 
with very much. Finish what we started.
    Dr. Fleming. All right. So you feel that it makes no sense 
to ignore all the problems we have and the need for restoration 
south of the lake and a backlog of $3.8 billion overall that we 
have and then to jump below the top 100 projects to begin with 
to go out and suddenly buy land just because it seems to be 
cheap right now and there is no real pressure to develop this 
land to begin with. Chances are it is going to be there for 
many decades.
    Mr. Horn. I would add, Mr. Chairman, I think there is one 
other factor that I don't think any of us have addressed at 
this point. But the state, after passing the Everglades Forever 
Act, has enacted two separate programs focused on Lake 
Okeechobee and the northern area. Seventy-five percent of the 
agricultural lands up there are now subject to best management 
practices put in place by the state to deal with the legacy 
phosphorous up there in the Kissimmee drainage.
    The state has got a pretty aggressive program. If you look 
at the map, you will see a wide variety of state parks and 
state wildlife management areas in that zone. Again, given the 
funding constraints at the Federal level, where the pressing 
needs are, I am looking around saying why not let the state 
take the lead role on the north side of the lake and keep the 
feds with the lead role, if you will, or this partnership role 
on the south side of the lake?
    I mean, after all, if you look at the south side we have 
Everglades Park, Biscayne Park, Big Cypress Preserve, 
Loxahatchee, Florida Panther, Ten Thousand Islands all in the 
Southern Everglades, if you will, and it makes sense to me to 
let the feds continue their focus on that part of the system. 
Let the state deal with the north part as they are doing right 
now and doing fairly well.
    Dr. Fleming. Okay. I now recognize Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Mr. Horn, in your testimony you said that you served within 
the Department of the Interior as an Undersecretary or 
something for President Reagan. Was that correct? Did I hear 
correctly?
    Mr. Horn. Yes. I was Assistant Secretary for Fish, Wildlife 
and Parks.
    Ms. Hanabusa. So, Mr. Horn, this tension that we sort of 
hear between the hunters and the sportsmen with conservation 
types of policies and how that affects the access. That must be 
nothing new to you. You must have had those questions back then 
as well. Am I correct in that?
    Mr. Horn. Absolutely. And I would just add that the issue 
in Florida is of particular personal importance. In the mid 
1980s, I negotiated the land trade approved by Congress in 1988 
that expanded Big Cypress by 85,000 acres, added and completed 
or started from scratch the Ten Thousand Islands National 
Wildlife Refuge and added 7,500 acres to complete the Florida 
Panther Refuge. As I said, Congress approved that in 1988.
    I can assure you that when we were doing those 
negotiations, I made lots of promises to folks that we were 
going to try to maintain traditional access and secure hunting; 
and, unfortunately, those good-faith promises I made have not 
been kept.
    I share some of those concerns. These issues have been 
around for quite some time, and I would strongly suggest that 
if there is a decision that a refuge be established in the 
northern headwaters I think it is contingent upon Congress to 
pass some statutory guarantees, strong guarantees to protect 
these traditional rights, because the good faith promises made 
by characters like me have not been kept in the intervening 20 
years.
    Ms. Hanabusa. So, Mr. Horn, you said 7,500 acres for the 
Florida Panthers, for example. Were there promises made about 
the access for hunting within that area as well?
    Mr. Horn. My recollection was yes. We said that we were 
trying to complete that refuge, and we recognized back in this 
was the 1986-1987 timeframe that there was a history of 
traditional rights because it abuts the Big Cypress Preserve, 
that we would do our best to try to maintain those traditional 
types of activities, much the same in Big Cypress. 
Unfortunately, the ability to deliver on those promises, it 
hasn't occurred.
    Ms. Hanabusa. Mr. Horn, you said something very 
interesting. We do our best. And that seems to be government 
always says that, right? We will do our best. But that is not 
necessarily a promise that it will actually be there.
    Mr. Horn. Well, let me put it this way. There were a 
variety of promises made associated with those land expansions 
that Congress approved in 1988. I think over the years there 
has been good faith attempts by some folks to comply with those 
promises. I think then there was insufficient understanding of 
the opposition from certain activists to maintenance of these 
traditional activities, and there wasn't the type of strong 
statutory guarantees.
    Part of the problem, for example, in 1997 when this 
Committee and Congress produced the Wildlife Refuge Improvement 
Act it added the specific language about hunting and fishing 
being priority public uses and making findings that these were 
legitimate activities. That was one of the first steps taken to 
try to codify in law the type of promises that had previously 
been made and not been sufficient, given the legal status of 
issues.
    Ms. Hanabusa. Thank you, Mr. Horn.
    Mr. Dantzler, you represent a new organization called the 
Northern Everglades Alliance, and part of your testimony is 
that you do have hunters and sportsmen and sports activity 
related people within your organization, and yet you actually 
are here supporting the preservation area.
    So can you tell us how your interests or those that you 
represent and what Mr. Horn said, how are you going to 
represent both interests?
    Mr. Dantzler. Well, I don't believe they are mutually 
exclusive. One needs the other, and I would take issue with the 
other panelists who say there is no growth pressure in this 
area. There is development pressure.
    If you look at the boundaries of this refuge, you will see 
gated subdivisions across the street from some of those public 
properties that we have already acquired. When I was growing 
up, I was part of a hunting camp called Johnson Island. It is 
now the gated golf community of Solivita. I was part of a 
hunting camp called the Huckleberry. It is now Poinciana.
    During the decades of the 1970s, 1980s and 1990s, 1,000 
people a day moved to Florida. That is 365,000 people a year. 
Every single year we lost 200,000 acres of ag land to 
development. Now, I assure you that many of those people that 
came here located in this area. They weren't just in that 20 
mile strip around the coast. They were in the middle part of 
the state.
    And once we emerge from this Great Recession, and I use 
that capital G and capital R. Once we emerge from this Great 
Recession, as long as the sun still keeps shining and the sand 
is still white we are going to have those kinds of explosive 
population growth rates, and this part of Florida is going to 
be in the crosshairs. I assure you of that.
    Now, there has been a concern that this refuge is not going 
to directly benefit Everglades restoration. I respectfully 
disagree. I will concede that the water quality benefits are 
marginal, but they do exist. If you are going to have 150,000 
acres of land where water can flow over those acres the way it 
used to be over time, that is going to benefit water quality to 
some extent, but it is marginal.
    And reasonable people can disagree, but as it relates to 
water quantity there is a tremendous potential for assistance. 
I mean, just look at what you have to do to build an STA down 
in the Everglades. You have to buy the land. You then have to 
hire engineers. You then have to install pumps in many cases to 
pump water uphill so you can run it through the STAs. The cost 
is exponentially higher than if you use land that is the way 
God made it to be your storage area.
    So, yes, we have a tremendous need for additional water 
storage capacity in the Everglades system to do the Everglades 
restoration effort that we would like, but we can use these 
properties on the north side to help with water quantity. And I 
can assure you the most ugly wars that Florida is ever going to 
have are going to be over water.
    And unless we grow the water pie and unless we find a way 
for there to be more water for the environment, more water for 
agriculture and more water for people we are going to have some 
of the ugliest wars you have ever seen, and the environment is 
going to lose in that regard. People are going to get it first, 
agriculture is probably going to get it next, and the 
environment is going to get it third. So, yes, this project can 
help with Everglades restoration.
    Ms. Hanabusa. Thank you, Mr. Dantzler. I know I am out of 
time, but I just want to tell you that I understand your 
statement why you try to preserve old Florida. Thank you very 
much.
    Mr. Dantzler. Thank you.
    Ms. Hanabusa. Thank you, Mr. Chair. I yield back.
    Dr. Fleming. The gentlelady yields back. We will have a 
second round, and hopefully we can let you go for lunch here 
very soon.
    I am curious, Mr. Dantzler and Mr. Draper. We hear, and you 
have heard it today, over and over again we don't have access 
within these refuges. Why is that happening?
    Mr. Dantzler. I don't know. It may very well be that Fish 
and Wildlife needs 39 lashes with a cat o'nine tails. Maybe 
they have not done what they should have done in some areas.
    But we have heard a lot about the Lake Wales Refuge, and 
let me respond to that. I understand these are fair questions, 
but you need to understand that the Lake Wales Ridge was the 
only part of Florida that wasn't underwater. Thousands and 
thousands of years ago, that was the only part of Florida that 
wasn't underwater. And so as a result you have plant species 
that grow there that grow nowhere else in the world, and if 
you----
    Dr. Fleming. I understand that, but I am talking about 
across the country and even now we are talking about ocean 
zoning and lack of access there and lack of activity. So it is 
not just specific to the Everglades. There just seems to be a 
massive problem that we are hearing over and over again.
    And this really comes back to the original question, which 
we had hearings on before, is refuge designation as opposed to 
many other things we do does not require congressional 
approval. If we put that back into congressional approval we 
could make it statutory where access would be required.
    And also again just to transition to another point, and I 
will ask this question, is one of the reasons I think that 
there are access problems is, again, lack of maintenance money. 
Now, we are talking about 150,000 acres.
    I am a physician, and I come from a small business 
background as well. Everything I do with my patients is to get 
the best care at the lowest cost possible. As a business owner 
nonrelated to the medical business, I try to get the best 
product and provide the best product and service for the lowest 
cost.
    Now, we are talking about 150,000 acres here, 50,000 of 
which is going to cost $7,000 per acre for a total of $350 
million for fee simple purchase, and then we have another 
100,000 acres that would be purchased for easement again for 
another $350 million. That $700 million would take a big piece 
out of $3.4 billion in the backlog.
    Now, first of all I will ask. This is a two part question, 
and I would love to hear from anybody on the panel on this. 
First of all, why not do the entire 150,000 acres as an 
easement? Why do we have to buy a third of that?
    And number two, for instance, we have a letter here from 
Michael Adams of Adams Ranch that says I am writing you to 
express our support for the Northern Everglades National 
Wildlife Refuge. I am hearing more and more about families who 
have had multigenerational ownership who perhaps upon death or 
for whatever reason just simply grant the easement for free.
    So now we are really paying people in many cases for things 
that they would do for free without any cost. So the question 
is why can't we divert these kind of funds towards a 
restoration and access rather than running out there and 
stuffing money in people's pockets, which seems to me to be 
significantly unnecessary?
    Mr. Horn makes a point that I absolutely agree with, and 
that is a government that governs closest governs best. That 
is, the state and certainly the local governments in the 
Everglades region can make much better decisions than we can up 
here in Washington.
    Mr. Gutierrez? I will give everybody an opportunity.
    Mr. Gutierrez. Mr. Chairman, that is a very interesting 
point that the state--in this case, Florida Fish and Wildlife 
Conservation Commission has one of the largest public hunting 
systems in the state. They are close. They are on the ground. 
They are extremely sportsmen friendly as far as recreational 
opportunities.
    One of the ideas was for instead of FWC to take over and 
then use FWC and sort of partner up with Federal regulations 
conflicting with state management plans and MOUs, it creates a 
morass in that if you were to do something with the state it 
creates a problem of timing where the state has two years to 
set up a management plan and then you give it to the state and 
they create a plan, and then it has to come back and then 10 
years down the road you have to redo the plan based on the 
Refuge Improvement Act.
    It is just simpler to give it to the state. I mean, they 
know. It is theirs. They have 35 million acres of public and 
private lands that they oversee and enforce, 5.8 million. I 
mean, it just makes sense for the state.
    As far as the issue of the conservation easements, ECC 
doesn't take the position of telling people what they should do 
with their land. I mean, if you were to take one or the other, 
we would prefer the easement because of the expense and because 
of the loss of access. I mean, the recreational opportunities 
when you compare FWC access to Fish and Wildlife, they are on 
polar opposites as far as access.
    I mean, one day of recreation on a wildlife refuge per week 
is not access. I mean, access is a season of 60 days. We are 
reasonable individuals. This is not a situation we want 24/7, 
365 days a year. Sportsmen in Florida are very, very reasonable 
individuals, but when you give very, very little that is not 
being reasonable and that is not access, Mr. Chairman.
    Dr. Fleming. Okay. And we will just go across the panel. 
Mr. Wright, your response?
    Mr. Wright. From what we have seen up in the Kissimmee 
chain with the conservation easements and the lands around 
there, for instance, one of our affiliates, the Kissimmee River 
Valley Sportsmen's Association, tested the waters in Lake 
Kissimmee, which I personally have a camp on, and the fecal 
matter in that water, it can't be counted it is so high. The 
mercury level is sky high in there.
    We have gone to some of the ranchers around there that have 
conservation easements and had a discussion with them about 
this. You know, it is not necessarily just the cattle practice. 
Well, it is not necessarily the cattle droppings that are 
creating this problem. What it is is a practice to put human 
sludge on those properties as a cheap fertilizer. Well, that 
sludge runs downhill to the water and the lakes that we airboat 
in and we recreate in.
    So I don't know if we feel that we are getting the bang for 
the buck on conservation easements. You know, there has to be 
some better guidelines of what we are going to buy, what lands 
are we really purchasing for a conservation easement.
    Dr. Fleming. But if we are going to do it anyway for two-
thirds, why not do it for the entire?
    Mr. Wright. And then we can control everything that 
happens. And we feel that we get a better bang for the buck for 
STAs that are really created to do their job and get the 
phosphorous levels out of there.
    And again, we don't get to airboat in those, but we do get 
recreational opportunity and that is what works, and that is 
what cleans our water in the Everglades.
    Dr. Fleming. Okay. Mr. Draper?
    Mr. Draper. Thank you, Mr. Chairman. I am going to speak to 
both the ownership issue and the access issue, as well as 
easements.
    You mentioned the letter from Mike Adams, who is a friend. 
Mike is the son of Bud Adams, and Bud is one of the legendary 
ranchers in Florida and developed some of the unique breeds 
that are used in Florida to withstand our temperatures.
    I didn't get a chance to say before that Florida is one of 
the largest cattle producing states in the country, and that 
particular economic activity is so important. It is over half a 
billion dollars a year in economic activity, so we in the 
conservation community ironically very much want to keep these 
cattle producing activities going on for no other reason except 
they are an excellent way to manage the land.
    These ranchers, particularly Bud Adams, have done a 
tremendous job. The reason that that land, his land, is being 
nominated for this refuge is because he has done such a good 
job, and Mike continues that, and Bud's granddaughter, LeeAnn, 
is right here.
    Dr. Fleming. Well, but does he anticipate selling?
    Mr. Draper. He does face a problem, and I don't want to 
speak for him, but we know that because of family generational 
issues that their ranch is at risk of being broken up because 
families end up having to divide their land. So when Bud dies, 
and he is very close----
    Dr. Fleming. We should repeal the estate tax, shouldn't we?
    Mr. Draper. That would have one effect on their problem, 
sir, but that would not be the only solution to the fact that 
often times families grow and they grow in numbers that exceed 
the ability to manage the accession of their land. I don't want 
to speak for Bud----
    Dr. Fleming. Well, I would just make the point again to 
reiterate, and I am running out of time rapidly here, that good 
folks like the Adams family in many cases out of generosity are 
quite willing to do it for free.
    Mr. Dantzler. Thank you, Mr. Chairman. The issue of why not 
do all 150,000 acres with a conservation easement, I don't know 
the answer to that for sure, but my guess is that by buying 
50,000 acres in fee simple you at least guarantee access for 
50,000 acres.
    If you put a conservation easement over all 150,000 acres, 
you would be spending a pile of tax money without a guarantee 
of access. So my guess is internally----
    Dr. Fleming. It doesn't appear that there is very good 
access. That is the whole problem. It would be different if 
people were coming in and saying it is wonderful that you are 
buying this because we know when you buy it we get access, but 
that is the whole problem. People complain they don't get 
access.
    Mr. Dantzler. Well, that is right, and that seems fixable 
to me. It seems to me as though if you could get the right 
people in the room you could work that out, and if you couldn't 
then you are going to have the memorandum of understanding with 
the state wildlife agency that in all likelihood is going to be 
the managing entity.
    The other point I would make is it relates to the 
procedural question of whether you allow the agency to do this 
unilaterally or whether you go through Congress. It would suit 
the heck out of me for you to do it legislatively. That doesn't 
give me any heartburn.
    When I was in the Senate, the Florida Department of 
Environmental Protection used to be able to do something 
similar by creating an outstanding Florida order unilaterally, 
and that would have an impact on property values and that sort 
of thing, so I understand where you are coming from, but I 
would use a scalpel--I wouldn't use a meat-ax with that--
because you want an agency to be able to move quickly. You want 
it to be able to be nimble to respond to an opportunity. But 
generally speaking, if you wanted to create this refuge 
legislatively I think that would be fine.
    Dr. Fleming. And I am running out of time, but as we 
transition to Mr. Horn, a refuge in my own district by my 
predecessor, Mr. McCrary, was done soup to nuts in six months. 
So it doesn't have to be a slow process just because it is 
legislative.
    Mr. Horn?
    Mr. Horn. Yes. I guess I will just reiterate sort of my 
theme, which is priorities which is the northern Okeechobee 
drainage, the whole Kissimmee system, is presently subject to 
two comprehensive state conservation programs arising from the 
Lake Okeechobee Protection Plan enacted in 2000 and then the 
Northern Everglades and Estuaries Protection Program enacted in 
2007, which is both pretty comprehensive conservation 
initiatives up there.
    And I am just wondering when you are dealing with finite 
dollars why not let the state continue to take the lead role up 
north and rededicate your Federal dollars to the primary 
restoration goals to the south?
    Mr. Southerland. [Presiding] Okay. Thank you. Just one 
moment.
    [Pause.]
    Mr. Southerland. I will yield over to Ms. Hanabusa.
    Ms. Hanabusa. Thank you. Mr. Dantzler or Mr. Draper, one of 
you can answer this.
    I am hearing conflicting things here. I am hearing about 
150,000 acres, if we put it into complete easements whether you 
will have access or whether we should buy 50,000 of it in fee 
simple to ensure to have access. Now, let me just tell you what 
I understand.
    The 150,000 acres now you don't have access, so the 50,000, 
if you purchase, it really would be determined by probably what 
50,000 you purchased that would then determine what kind of 
access you could have. As to the remaining 100,000, that would 
be by way of easements because the title is technically still 
held with the private landowner.
    Whatever you are able to negotiate in terms of that 
easement will then determine the quality or the type of access 
you will then have. They could give, for example, hunters 
access, airboaters access if they want, or they could say no if 
that is part of the easement negotiations and if the Federal 
Government or the state, whoever may buy that easement, then 
agrees to that. Am I understanding this discussion correctly?
    Mr. Dantzler. That is correct. The 50,000 acres that would 
be acquired in fee simple, we have heard all the panelists 
before us say there would be access for that. Now, what that 
access would be, what the activities would be, I can't speak 
for the agency, but I have been all over those woods and I know 
what is there, and I think a wide variety of hunting 
opportunities is going to be made available.
    The 100,000 acres that would be where the government would 
buy a conservation easement, the activities that are allowed on 
that 100,000 acres is a negotiation between the property owner 
and the government, and I have seen a pretty wide variety of 
things go into conservation easements. In all candor, I doubt 
there would be--in fact I know there would not be--wholesale 
access allowed on that 100,000 acres. Property owners are just 
not going to allow that.
    But I think that under the right set of controlled 
circumstances they would. Maybe a youth hunt, maybe a special 
opportunity hunt, some way that they could limit where those 
hunters would be, make sure they are going to close gates 
behind them, all those kind of things that property owners are 
concerned about. But at least you would have the chance to have 
hunting on that 100,000 acres, and you would have it on the 
50,000 acres, and that is 50,000 more acres than you have now.
    So to me it seems like notwithstanding this friction that 
exists between user groups and Fish and Wildlife, it would seem 
that the sporting community would be for the refuge because it 
is going to create at a minimum 50,000 acres for hunting.
    Ms. Hanabusa. You know, we can't ignore what former 
Secretary Horn said, which is that the government has a habit 
also of saying we will make our best efforts to ensure that 
things would become available, but then it may not necessarily 
be available, so I understand their hesitancy. But the main 
focus here is that if nothing is done and the 150,000 acres 
remains as it is there is no access.
    Mr. Dantzler. The main point here, Congresswoman, is that 
if we don't do this we fear that this part of Florida is going 
to go the way that many other parts of Florida have gone, and 
there is going to be this ever-expanding territory of asphalt 
and concrete.
    Ms. Hanabusa. I understand that point. I am focusing on the 
statement and the concern regarding access.
    Mr. Dantzler. Yes.
    Ms. Hanabusa. If nothing is done then there is no guarantee 
of any access, but I do understand your point on basically the 
old Florida and preserving it.
    Mr. Dantzler. Right. Thank you.
    Ms. Hanabusa. Now, Mr. Draper, you are part of the effort, 
I assume, that was Florida Forever. So how does Florida 
Forever, and you made a very interesting statement to me which 
was about the agriculture and how important that is, and then 
that is also part of this conservation preservation effort. 
Now, can you educate me a little bit more about that?
    Mr. Draper. Yes. Thank you for the opportunity to do so. 
This refuge proposal actually is preceded by an effort in 
Florida called the Florida Forever, part of which was the Rural 
and Family Lands Protection Program, which is run through the 
Florida Department of Agriculture and Consumer Services in 
cooperation with other agencies. That program uses Florida 
Forever funds to purchase a type of an easement on ranch and 
timberlands and has been used very successfully so far.
    In that case, the easement--Mr. Dantzler talked about 
easements being written in different ways. This easement is 
written in order to promote the continued operation of the land 
for either timber or cattle production, and that way it takes 
the development pressure off the land.
    It takes the financial pressure in some cases off the 
landowner to be able to continue to manage that land, and in 
many cases these easements are targeted towards lands that have 
specifically, and this is in the state statute--I helped write 
that statute, so I know it very well. The statute says where 
there are attributes that are helpful to both water and 
wildlife.
    I want to add a point, if I can, to this. All of that 
150,000 acres that would be purchased, most of that land is 
being hunted right now. It is just being hunted currently 
through lease arrangements, and it is an income producing 
activity for many of the landowners.
    Ms. Hanabusa. Thank you very much. Mr. Chair, I yield back.
    Mr. Southerland. Thank you. I yield to myself for just a 
few moments. Just a few questions.
    I noticed that, Mr. Draper, you were alluding in earlier 
comments to the acreage in the Adams family, and I personally 
do not know them, but I have heard they have made wonderful 
contributions to that area.
    Of the property that involves this particular family, and I 
am only using this particular family. There may be other 
purchases and easements involved. But just their property. Do 
we know how much of that property will be accessible to the 
Florida sportsmen? That seems to be the topic today that we 
have really focused in on.
    And maybe this was discussed earlier when I was gone. If 
so, I apologize. But do we know now, because you also alluded 
to the fact that these are negotiated arrangements between the 
government, as well as the recipient of the easement. Do we 
know of their property, the total, what will be accessible?
    Mr. Draper. My understanding, Congressman, is that the 
Adams have two different ranches. The ranch that they have that 
would probably be in the refuge there, which is almost 30,000 
acres, the amount that would be taken into the refuge in fee 
simple would be in fact open to recreational hunting 
opportunities and probably all of that.
    We do know that the Adamses, and again driven by this 
economic imperative, are interested in the fee simple sale of 
their land as part of this program, and so therefore that land 
would in fact become part of what would become available to 
hunting. It is not available to public hunting right now. It is 
hunted, but it is not to public hunting, so therefore it would 
become a net hunted area.
    Mr. Southerland. Well, but that was probably the same 
argument that this body heard in the acquisition or easements 
of the 28 other refuges that we have around the state, and only 
28 percent of those are accessible, so you can understand my 
concern.
    I am sure that was also the argument that we are going to 
give the opportunity to the Florida sportsmen, and I look at 
those 28 percent. I look at the refuges that we are allowed to 
hunt in the State of Florida, and, as I alluded to earlier, 
they are limited hunts. They are limited areas.
    So when you say these opportunities, again they are 
limited. So to say that we have total access to 28 percent to 
be able to hunt in the manner in which we wish that is in 
compliance with allowable hunting methods is really not a true 
statement.
    Mr. Draper. If I can answer? In fact, in St. Marks National 
Wildlife Refuge in your district, as well as St. Vincent, those 
are areas that do have a limited type of hunting, and I think 
that the management plans for those are designed in part for 
what that particular habitat produces, such as waterfowl 
hunting at the St. Marks National Wildlife Refuge.
    There are a number of them. Florida has 25 national 
wildlife refuges currently, and some of those, such as the 
Archie Carr National Wildlife Refuge, simply would not be 
appropriate places to hunt. I would say that that would be the 
case with a number of things--the Great White Heron or the Key 
Deer National Wildlife Refuge or the Crocodile. Those are 
places that were protected for attributes that are different 
than what you would consider the traditional hunting activity 
in Florida of deer and turkey and quail.
    I don't know how to answer the question any other way. I 
think it is an excellent question, though.
    Mr. Southerland. And so you can clearly by your own 
admission understand our hesitancy in not guaranteeing that we 
have access, okay, to the citizens there.
    I wanted to also make reference earlier as far as--and I 
apologize. Mr. Horn, you had made reference earlier about the 
property north of Okeechobee and also some of the property 
south. It is my understanding there are 150,000 acres of sugar, 
U.S. sugar acreage.
    And if you said this before in my absence I apologize, but 
wouldn't it make sense that if we were going to purchase 
150,000 acres either fee simple or through easements, wouldn't 
that be a bigger lick for actually establishing a foot forward 
in restoration?
    Mr. Horn. You know, I think I have made it clear that there 
is absolutely a compelling need to expand stormwater treatment 
capacity south of Lake Okeechobee, and I know that when 
Governor Crist and the state began to look at the U.S. sugar 
acquisition one of the prospective uses of that land was for 
basically water storage, water treatment capabilities.
    I know that project has gone through lots of iterations 
given the financial circumstances, but yes. There again, just 
as a function of priorities I think you are going to get more 
bang for your dollars in terms of near term Everglades 
restoration benefits sinking money into something like making 
use of the U.S. sugar land and putting it into an STA type 
capacity than you will by spending dollars north of the lake 
right now.
    Mr. Southerland. Let me ask also, and this will be my last 
comment. I just wanted to add a quick thought. In conversations 
I have had with our Agriculture Commissioner about his belief 
that USDA and all the programs that already the ranchers are 
working in harmony with the government or through USDA for 
various programs that they are a part of, and I am sure the 
Adams family are well plugged in, familiarity. They understand 
and they seem to have a wonderful relationship with many of the 
landowners.
    Why would this not be better suited if we can just ignore 
the fact that right now we have a $15 trillion debt? Why would 
this not be better suited under USDA? Mr. Horn, why don't you 
start, and then we will go this way. I am interested in all of 
your thoughts on that.
    Mr. Horn. I think some combination of the USDA, CERP type 
programs----
    Mr. Southerland. Right.
    Mr. Horn.--wetland reserve programs all are extraordinarily 
successful. You know, you link those up with what the state is 
presently doing up there. I think that demonstrates that you 
can conserve the Northern Everglades and that the incremental 
benefits of a refuge designation just aren't that substantial.
    Mr. Dantzler. Mr. Chairman, a couple of closing comments. 
First, Mike Adams, he is a fraternity brother of mine from the 
University of Florida, married Rachel. We all had to learn that 
as pledges. They had five children. I said Mike, have you 
figured out what is causing that? And he said yes, but there is 
a train that wakes us up about 5:00 every morning, and it is 
too early to get out of bed, but too late to go back to sleep. 
So anyway, I can't believe I just said that.
    [Laughter.]
    Mr. Dantzler. He didn't really say that. I just kind of 
made that up. But he did marry Rachel, and they do have five 
kids.
    Anyway, I think the goal needs to be to find the right 
balance between projects south of the lake and this refuge 
north of the lake. As I said earlier I think in your absence, 
Congressman, if you wait until you do everything south of the 
lake that you would like to do before you turn your attention 
to the north part of the lake you are never going to do 
anything on the north part of the lake.
    And the state is involved north of the lake. There is no 
question about that. But their focus is mostly water quality, 
not water quantity, and water quantity I think is where this 
refuge can really help the Everglades and help preserve a slice 
of old Florida and help preserve these working ranching 
landscapes that we all would like.
    I am not familiar enough with the Federal programs to have 
an opinion, but I can tell you that landowners generally are 
comfortable with their Commissioner of Agriculture or the 
Department of Agriculture. There is a little bit of 
apprehension about Fish and Wildlife nationally certainly. We 
have heard about that today.
    But if you have the right kind of memorandum of 
understanding in place with the State of Florida Fish and 
Wildlife Conservation Commission, landowners are comfortable 
with that agency. So whether it is the Department of 
Agriculture or the Florida state Florida Fish and Wildlife 
Conservation Commission, I think you are going to satisfy 
landowner concerns regardless of how you do it.
    Mr. Southerland. Mr. Draper?
    Mr. Draper. I just want to say that environmental leaders 
are also very comfortable with our Commissioner of Agriculture 
and the very good programs that he is running to balance 
environmental and agricultural productivity in the State of 
Florida.
    I think he makes an excellent point about the ability of 
managing a program like this through Agriculture because in 
fact his own agency is running a similar program, as I noted 
earlier. They also run our Division of Forestry program now 
called Forest Service in Florida, and they are considered 
excellent land managers of those lands that are actually in 
their ownership.
    Again, I am not familiar enough with the alternatives 
within the U.S. Department of Agriculture to say whether or not 
this program would in fact work there or not, but I can say 
that the goals of this particular refuge are very much in 
alignment with the things that Commissioner Putnam has already 
been implementing and managing in the State of Florida.
    Mr. Southerland. Mr. Wright?
    Mr. Wright. Well, I think there is something that is 
overlooked here. We bought all the way over to the Honeydeer 
floodplain, all the way around the Kissimmee Basin. I am not 
100 percent sure, but we got at least 90 percent, if not all of 
that purchased. So we have protected that area as far as buying 
up the water storage area. We spent a lot of money on restoring 
the Kissimmee River and getting it back where it will filter 
some water as it comes downstream.
    And the other thing we have overlooked is the sportsmen's 
community for years have through CARL and other programs bought 
a lot of wildlife management areas up there. We have a lot of 
land already preserved up there. Now, I think everybody wants 
to preserve more land. Nobody wants to preserve it more than 
the sportsmen, but I think we are concerned with these leases 
because we have a lot more money to spend down south to 
preserve and protect all of the Everglades, which is what this 
is really supposedly all about.
    And, for instance, with the agriculture thing I think some 
of the areas like this gentleman that sent you the letter, 
Carlos, on the Venture 4. That gentleman there, he is not 
eligible, from what I understand. Rumor is. Rumor, but I am 
sure he could be notified. But his is supposedly not eligible 
for the ag because his land is too pristine. It hasn't been 
touched as far as farming and some of that.
    So I think that is the reason why these ag lands are being 
bought and purchased for that reason because they are working 
cattle ranches and they are just basically a farm they are 
trying to preserve and keep in that culture, in that tradition.
    And a lot of landowners have already given up their 
conservation areas. There are a lot of conservation easements 
already around there whether they paid money for them or not, 
but that has already been preserved.
    Mr. Gutierrez. Congressman, first and foremost, the easiest 
way is to get the money to the state. You know, Florida Fish 
and Wildlife Conservation Commission I think is the entity that 
sportsmen and recreationalists would prefer manage this land if 
you can't do it that way through Congress or some way.
    When you first brought up the issue of the ag easements my 
ears perked up because what is important is Fish and Wildlife 
Service have had 28 opportunities to do it right on these 28 
refuges. That I am aware of, ECC or otherwise, we don't have 
any real interaction with Agriculture, so if we were to do it 
that way we would have the ability to start from scratch with a 
clean slate and get off on the right foot and be intimately 
involved in this process so that access, public access, is 
preserved.
    Because there is a difference in having a hunt lease with 
12 guys who pay money to do that, which some people do and are 
supported, or the opportunity to recreate publicly. And I think 
the Agriculture is something that needs to be explored either 
in the state, because it is a better way, like I talked about 
earlier.
    More importantly, when we talked about the STAs versus the 
northern side of Lake Okeechobee, I recreate on the stormwater 
treatment areas. It is the best of both worlds because you are 
helping the Everglades, there is restoration taking place, and 
you have an incredible recreation plan and recreational 
opportunities. Not only bird watching through Audubon on one 
day; you have duck hunts on the following day. You have 
alligator hunting, the harvesting of alligators. You have all 
types of recreational opportunity that go hand in hand with 
Everglades restoration.
    You can't do that on a refuge because of the Federal 
constraints and the regulations, and if you are going to put 
money towards something you need to get the most access and 
recreation. I think if you need to choose, you need to choose 
south of the lake and you need to choose with something like a 
stormwater treatment area.
    Mr. Southerland. Very good. Thank you. I appreciate all the 
witnesses today. Thank you for traveling. It means a lot that 
you would come up to testify before us.
    I want the record to show we have a couple letters that we 
will certainly add to the record. We have a letter from the 
Safari Club International, and then we have a letter from 
Florida Trail Riders, as well as the Miccosukee Tribe of 
Indians of Florida. So those will be added to the record.
    [The letters submitted for the record by Mr. Southerland 
follow:]
    [A letter submitted for the record by Richard Gotshall, SC1 
Regional Representative 29, Safari Club International, 
follows:]

To:  Members of the House Sub-Committee on Fisheries, Wildlife, Oceans 
and Insular Affairs House Committee on Natural Resources.

    After rigorous research and discussion about the proposed 
Everglades Headwaters NWR that the U.S. Fish and Wildlife Service 
(Service) wants to create in central Florida at this time, all of the 
Florida Chapters of Safari Club International (``SCI'') Chapters do not 
support this project. The following are the names of the chapters: 
South Florida Chapter, Miami Chapter, Central Florida Chapter, North 
Florida Chapter, Tampa Bay Chapter, Tallahassee Chapter, Naples-Ft 
Myers Chapter and the Palm Beach Chapter. We further encourage all of 
the other chapters as well as SCI to take the same position and to 
contact their U.S. Congressional members to ask them not to support 
funding for the Headwaters NWR.
    Once the following issues are resolved in a manner that is 
favorable to sportsmen, consistent with enabling acts and promises made 
to sportsman/conservationist then the Florida Chapters of SCI will 
gladly reconsider their current position.
        1.  The DOI/NPS/BICY (Department of Interior/National Park 
        Service/Big Cypress National Preserve) are able to opening 
        hunting, fishing, camping and traditional activities on the Big 
        Cypress National Preserve Addition lands.
        2.  All current environmental litigations are resolved in favor 
        of the sportsman and their allies on the BICY.
        3.  The Service allows hunting, fishing, camping and public 
        access to the Florida Panther NWR.
        4.  The Service returns hunting of deer and ducks to all of the 
        Lox NWR.
        5.  The Service stops using the reduction of hunting, public 
        access and use of all public lands as mitigation for nearby 
        development by private developers and agencies.
        6.  The Service is able to assure all taxing entities that they 
        can pay their in-lue of tax money to these governmental 
        agencies.
        7.  The Service develops a state wide MOU or MOA with the 
        Florida Fish, Wildlife and Conservation Commission (FWC) as has 
        been done between the FWC and US Forestry Department for 
        National Forest lands.
        8.  The Service changes the purpose statement in the current 
        Everglades Headwaters NWR Environmental Assessment (EA) to 
        state that one of the purposes is to provide increased 
        opportunities for public hunting, fishing, camping and other 
        outdoor recreational activities.
        9.  The Service develops and present a more realistic and 
        truthful propose future budget to manage the headwaters NWR.
    We look forward to working with those who are currently supporting 
the headwaters; including but not limited to state and federal agencies 
and members of Congress on this very important project.

Sincerely,

Richard Gotshall
SC1 Regional Representative 29
Safari Club International
954-410-5622
                                 ______
                                 

          Statement of The Honorable Colley Billie, Chairman, 
                 Miccosukee Tribe of Indians of Florida

    Mr. Chairman, Ranking Member, Subcommittee Members, on behalf of 
the Miccosukee Tribe of Indians of Florida, thank you for affording me 
the opportunity to share the views and concerns of the Miccosukee Tribe 
of Indians of Florida on our homeland, the Everglades. When I was sworn 
in as Chairman of the Tribe in January 2010, I made several commitments 
to the Miccosukee People. I committed to good governance, protecting 
and enhancing our sovereignty, economic development, and environmental 
stewardship. We need your support to protect and preserve our homeland, 
the Florida Everglades.
    As this Committee knows well, in the past, the Everglades 
restoration has been tumultuous; and our people have been, literally, 
stuck in the middle of it all. Billions of dollars have been invested 
in this project. We've had Presidents, Administration officials, and 
many Members of Congress visit the Everglades and promise to make 
things better. And, while some areas have improved, water quality and 
storage remain a central problem that require resolution. Without first 
fixing the water quality and storage issues, the projects in the 
Everglades will be a waste of time and federal money.
    The Miccosukee people have always supported a holistic multispecies 
approach to environmental restoration. We have always supported water 
quality that protects the entire Everglades (whole water body) with 10 
ppb without mixing zones or variances that protect the entire 
Everglades. We need water quality which provides protection to the 
entire Everglades, including Tribal lands, the tribally leased lands, 
water conservation areas and the National Park. This will prevent the 
Tribe's water conservation areas from being used as de facto storm 
water treatment areas (STAs).
    There needs to be STA expansion and improved treatment 
technologies. Bypassing untreated water is not a viable water 
management strategy. It is harmful to the Everglades and allows 
untreated water with high phosphorus concentrations to enter the 
Everglades Protection Area which directly impacts Tribal lands. What is 
needed are STAs with improved treatment technologies capable of 
providing low phosphorus water.

Impacts on the Tribe's Water Quality Standards Must Be Assessed
    The Miccosukee Tribe, which is treated as a State by the 
Environmental Protection Agency (``EPA'') under the Clean Water Act, 
established its own water quality standards for its Federal Reservation 
in December of 1997. Those standards include a numeric criterion of 10 
ppb total phosphorus, which was approved by the Environmental 
Protection Agency (``EPA'') in May 1999, as ``protective'' of the 
Everglades and ``scientifically defensible.'' It was not until the 
Tribe adopted, and the EPA approved, a numeric criterion for 
phosphorous that the State began its rulemaking process for a numeric 
criterion.
    When the EPA approved of the Tribe's criterion for phosphorous in 
1999, it noted that there were over 400 published scientific peer 
reviewed journals which were specific to the issue of nutrients in the 
Everglades. In fact, the EPA determined that this was the most studied 
wetland in the world. The State was ultimately forced to adopt a 10 ppb 
numeric criterion, due to the precedent set by the Tribe-which was 
approved by the EPA in 2004. However, many still claim that the 10 ppb 
criterion is an unachievable goal.
    It appears that the State is attempting to force the U.S. Army 
Corps to stop the PSTA Project in an attempt to block any scientific 
proof that 10 ppb TP is achievable. As we have stated to federal 
regulators many times in the past, decommissioning the PSTA Project 
could jeopardize the ability of all STAs to achieve 10 ppb, including 
those that discharge onto tribal lands which are protected by the 
Miccosukee Tribe's Water Quality Standards. Thus, the Corps should 
analyze the impact that its decision to decommission this vital 
research project will have on the ability of permit holders to meet the 
phosphorous criterion of 10 ppb established in the Tribe's Water 
Quality Standards,

Water Storage Capacity Needs Improvement
    A concerted effort needs to be made to improve water storage in 
order to mitigate the high flows of Florida's rainy season, which runs 
annually from May through September. Better water storage is needed to 
hold water and provide clean water during times of drought. Improved 
water storage will provide water managers with the flexibility they 
need for a whole Everglades multispecies approach to management. The 
ability to store, capture, and prevent the damaging high phosphorus 
water flows from Lake Okeechobee from entering the water conservation 
areas untreated water is critical.
Water Quality for a Western Basin Solution
    While STAs and management actions have provided some water quality 
improvements to the eastern parts of the Everglades, the western basins 
have remained a strong source of pollution which directly impacts the 
Federal Reservation. The western basins contribute large amounts of 
phosphorus directly onto the Miccosukee Reservation via the L-28 
interceptor canal. Phosphorus in this canal can exceed 100 ppb and it 
freely flows untreated into the Everglades and into the Federal 
Reservation.

Impacts on Everglades Restoration Projects Must Be Analyzed
    The Committee on Independent Scientific Review of Everglades 
Restoration (``CISRERP'') of the National Academy of Sciences (``NAS'') 
is so concerned about the water quality challenges facing the 
Comprehensive Everglades Restoration Plan (``CERP'') that it held a 
full day meeting on the issue on May 17, 2011.
    At that meeting, the former U.S. Army Corp. Commander for the 
Jacksonville District, Colonel Terry Rice, explained how not meeting 
water quality (10 ppb) could stop Everglades Restoration from moving 
forward and also informed the Committee that the PSTA Project was being 
stopped. A CISRERP panel member asked why the PSTA Project was being 
decommissioned when it was showing such promising results. Even the 
Corps itself stated that the PSTA Project ``may be a critical component 
of the Everglades restoration program'' on its CERP web site.
    In light of the significant water quality issues that face the 
implementation of CERP and other restoration projects (i.e. Mod 
Waters), the Army Corps is shortsighted to discontinue a research 
project on the only green technology that has shown promise to meet the 
required 10 ppb phosphorus criterion on a sustainable basis. The Corps 
should analyze the impact of decommissioning the PSTA Project on CERP 
and Mod Waters. Especially since Stuart Applebaum of the Corps told the 
CISRERP that the Corps may not be able to get authorization for the 
CERP Decompartmentalization Project, because water quality could 
prevent the Chiefs Report from going to Congress in 2015.
    The PSTA project is the only hope for meeting the phosphorus 
criterion in a consistent manner. Thus, the Corps' NEPA process must 
assess the impacts that decommissioning the PSTA Project will have on 
the future of CERP, and the other pre-CERP restoration projects (e.g. 
Mod Waters).

Everglades Bridging, an Environmental Disaster in the Making
    The Miccosukee Tribe and the Miccosukee People have always sought 
to honor and protect our sacred, religious and traditional stewardship 
of the land. Our commitment to Everglades Conservation is un-wavering. 
We do this by supporting sound projects that are designed to protect 
and save our ancestral home. ``We must honor the earth, from where we 
are made'' is not a slogan but a central tenet of the Miccosukee 
People. When the Everglades hurt, we hurt.
    In 2008, the Interior Department and U.S. Army Corps of Engineers 
decided to build a one mile-long bridge at the eastern end of the 
Tamiami Trial (U.S. Highway 41), which runs east to west through the 
Florida Everglades and the Miccosukee Tribe, connecting Miami-Dade 
County and Collier County. The price tag at the time was $81 million. 
The Miccosukee Tribe immediately realized that this project was 
fiscally and scientifically unsound. We filed for a declaratory and 
injunctive action in Federal District Court. The Judge agreed with our 
arguments, labeling the project an ``environmental bridge to nowhere.'' 
On November 13, 2008, the judge issued a temporary injunction against 
the project and temporarily stopped further construction until all 
federal laws, rules and procedures, such as the National Environmental 
Policy Act, were complied with. Unfortunately, Congress was misinformed 
and mistakenly led to intervene the following year.
    On March 11, 2009, Congress passed the Omnibus Appropriations Act 
of 2009. In this Appropriations Act, language was inserted that 
authorized the expenditures of funds already allocated for this project 
and to continue construction, ``notwithstanding any other provision of 
law.'' By inserting this provision, Congress deliberately overruled the 
federal injunction and divested the federal courts of subject matter 
jurisdiction over this important matter. This legislative maneuver was 
done without any input from the Miccosukee Tribe, its representatives 
or other advisors in Florida and Washington, D.C. We believe that the 
``notwithstanding any other provision of law'' language used to start 
this bridge work violates our Constitutional rights and goes against 
several existing federal laws including the National Environmental 
Policy Act (``NEPA''); Native American Graves Protection and Reparation 
Act (``NAGPRA''); the American Indian Religious Freedom Act 
(``AIRFA''); and the National Historic Preservation Act (``NHPA''), 
among others.
    The Miccosukee Tribe can find no better example in recent 
Everglades restoration history of the dangers of misguided federal 
largesse and counter-productive environmental legislation than this One 
Mile Bridge. It symbolizes all that is wrong with an arbitrary 
appropriation maneuver conducted without consultation with the 
government and people that the legislation will affect. It is 
emblematic of the what the Government Accountability Office (GAO) said 
in 2007 about the Comprehensive Everglades Restoration Plan (CERP): 
there is ``little assurance'' that the CERP will be effective because 
the agencies and officials are not using any overarching sequencing 
criteria for the work, but rather focus on availability of funds. See 
South Florida Ecosystem: Restoration Is Moving Forward but Is Facing 
Significant Delays, Implementation Challenges, and Rising Costs (GAO-
07-520, May 31, 2007).
    In this One Mile Bridge project, the National Park Service and the 
United States Army Corps of Engineers, as on previous occasions, have, 
instead of working with the Miccosukee as true partners to save the 
Everglades, largely ignored our ideas and our historically based 
warnings. The concerns of the Miccosukee People were ignored. Less 
expensive, safer and scientifically available alternatives supported by 
the Miccosukee Tribe and the former Commandant of the US. Army Corp of 
Engineers for the region were also ignored. In January 2010, the 
University of Miami released a study that supports our position that a 
Culvert Approach will be just as effective as bridging.
    Under the Culvert Approach, the focus will be on clearing existing 
culverts, which are small tunnels or bridges under the Tamiami Trail. 
Also, adding additional culverts, where necessary, and clearing the 
large swale areas south of each culvert. This should be accomplished 
following the Time Sequence Plan detailed in CERP. The Culvert Approach 
will save millions of dollars of taxpayers' money and will deliver the 
same amount of water to the Everglades National Park as the current 
proposal. In contrast to the elevated skyway bridge approach 
represented by the One Mile Bridge, or the future planned bridges, the 
cost of the Culverts Approach will be significantly less and will 
potentially save the Federal Government close to $400 million dollars.
    We strongly recommend using the Culverts Approach first while 
simultaneously performing all the normally necessary studies and 
safeguards. We also believe projects to improve water quality and 
increase water storage, as called for in the CERP schedule, should be 
completed first with the priority on saving the Everglades. Clean the 
water first instead of wasting money constructing bridges over an 
existing highway.
    Thank you for allowing me this opportunity to share the thoughts of 
the Miccosukee People with you. There is much good work to be done. The 
Miccosukee People and I look forward to working with you.
                                 ______
                                 
    [A letter submitted for the record by Jack Terrell, Vice 
President, Florida Trail Riders, follows:]

November 1, 2011

The Honorable John Fleming, Chairman
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs
Natural Resources Committee
U.S. House of Representatives
1324 Longworth House Office Building
Washington, DC 20515

Subject:  November 3rd Oversight Hearing on Florida Everglades 
Restoration

Dear Chairman Fleming:

    Since I will be unable to be in Washington, DC on November 3rd I 
would like to submit written comments to be considered by you and your 
subcommittee members as you conduct your oversight hearing on Florida 
Everglades Restoration plans.
    I submit these comments on behalf of the 2000 member Florida Trail 
Riders, and also as a long-time resident of Florida, having moved here 
in 1958.
    The Florida Trail riders are opposed to the proposal to expend $700 
million of our taxes to acquire 150,000 acres of land in central 
Florida, designated as the Everglades Headwaters, as an addition to the 
National Refuge System. This latest proposal is just one more example 
of pouring money we cannot afford into a bottomless pit under the 
banner of ``Everglades Restoration.'' It seems that despite the fact 
that the involved federal agencies have a two-decade track record of 
over 60 uncompleted projects, they have an insatiable appetite to 
acquire more land, and to restrict recreational access to the public.
    It seems that whenever a land acquisition or closure action cannot 
be justified under previous set of rules and regulations, a new ``cause 
of action'' must be created, whether that is wildlife corridors, or as 
is the case with the Headwaters proposal, ``landscape management''. 
This cannot be allowed to continue.
    This latest proposal will remove private land from the tax rolls, 
impose unreasonable use restrictions on private landowners through 
easement requirements, and restrict public recreational access to land 
in four counties.
    Our experience with the US Fish & Wildlife Service here in South 
Florida has demonstrated their bias against recreational use of lands 
even where those lands are owned by state and local governments. If you 
have followed the press coverage of the public hearings held in regard 
to the Headwaters proposal, you cannot ignore the overwhelming public 
opinion that this agency cannot be trusted to manage this land, and 
should not be allowed to acquire it.
    At a time when this country is amassing an unmanageable debt, and a 
Super Committee of this Congress is tasked with a deadline later this 
month to come up with a solution to this debt problem, how can we 
justify expending $700 million on this project?
    I hope that this information will assist your subcommittee, the 
Natural Resources Committee, and the US House of Representatives to 
deny any appropriations for the Everglades Headwaters Project.

Sincerely,

Jack Terrell
Vice President
Florida Trail Riders
180 Sunrise Hill Lane
Auburndale, FL 33823
                                 ______
                                 
    Mr. Southerland. Are there any additional questions?
    [No response.]
    Mr. Southerland. No? All right. If not, I would like to 
thank all of our witnesses again for their valuable testimony 
and reiterate that this is really a question of priorities and 
not losing sight of the fundamental goal of restoring the 
Florida Everglades.
    Shortly after becoming Director of the Fish and Wildlife 
Services, Mr. Dan Ashe commented that: ``The Service must work 
to restore its credibility. A partner may disagree with us in 
the end, but they trust that we have made the best decision 
that we can make, given the resources and the information 
available to us, and they trust that we listen to their 
views.''
    Mr. Draper, here is your opportunity to restore that 
credibility about treating affected counties, Florida sportsmen 
and the beleaguered taxpayer in a fair way.
    Members of the Subcommittee may have additional questions 
for the witnesses, and we may ask you to respond to those in 
writing, just to let you know. The hearing record will be open 
for 10 days to receive these responses.
    Again, I want to thank all the Members and the staff for 
their contributions to this hearing. If there is no further 
business, without objection the Subcommittee stands adjourned.
    [Whereupon, at 12:44 p.m. the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

   Statement of The Honorable Alcee L. Hastings, a Representative in 
                   Congress from the State of Florida

    Chairman Fleming, Ranking Member Sablan, thank you for holding this 
hearing. The Everglades make up a large portion of my Congressional 
district and is also crucial to the health and prosperity of South 
Florida. I welcome this opportunity to offer my statement concerning 
this national treasure.
    The Everglades used to cover all of South and Central Florida. This 
marshy foundation on which our communities today are built means that 
our homes are still subject to the same vulnerabilities and problems as 
the parts of the Everglades that remain wild. We are so dependent upon 
their waters, in fact, that the Everglades are the source of clean 
drinking water for much of the region. Everglades restoration is about 
keeping our communities healthy and having enough safe water to drink, 
not to mention the added benefit of creating thousands of badly needed 
jobs in the process. Restoration is a win-win for everyone.
    The Everglades are essentially one massive, slow moving river. The 
water flows from the top of Lake Okeechobee all the way down and out to 
the ocean. The water within the boundaries of this proposed wildlife 
refuge and conservation district is the same water that flows down 
across the entirety of the Everglades system.
    It is wrong to compare the funding for one aspect of Everglades 
restoration to another. You cannot store and move water if the water is 
not clean. Pitting one project against the other draws a line that 
doesn't exist in reality. Despite different names, these projects are 
all crucial to restoration efforts and an integral part of the same 
central project. The Headwaters Refuge is a part of that same overall 
restoration plan. This refuge and conservation area will go a long way 
toward helping ensure that we have clean water today, tomorrow, and for 
future generations of Floridians.
    Restoration is also necessary because it will have economic 
benefits on top of those that I have already discussed. It will create 
thousands of jobs that are desperately needed in the region. Everglades 
restoration returns fourfold on every dollar invested. Wildlife refuges 
are likewise economic engines that are well worth the investment. The 
only way to lose money on this project is to not do it,
    Unfortunately, these restoration projects do not address all the 
problems facing the Everglades. Invasive species pose a real danger to 
native plants and animals. Just last week, a 15 foot Burmese python was 
discovered to have eaten a 76 pound deer. This is yet another clear 
'example of why we need to invest in the restoration of the Everglades.
    This River of Grass is not just our home, it is our legacy. It is 
the water we drink, the home for wildlife that exists only in the 
Everglades, and a place like nowhere else in the world. Furthermore, it 
is home to many endangered species like the Snail Kite and Roseate 
Spoonbill, the only habitat in the world where crocodiles and 
alligators coexist, and the only home on Earth for many other species 
of animals and plants, To let this special, unique place be destroyed 
would be a tragedy to our environment and the State of Florida.
    Restoration efforts have made great progress recently and it is 
important we build upon that success. For example, construction has 
already begun on the Tamiami Trail, the Picayune Strand, Site 1 
Impoundment, Indian River Lagoon, Biscayne Bay Coastal Wetlands and the 
C-l 1 I Spreader Canal projects. We have done a lot to secure clean 
water for the future, but there is still a long way to go.
    Restoration efforts will take quite some time and there is no 
justification on any level to call these efforts into question. After 
all, the state the Everglades today is the result of decades of damage. 
It should come as no surprise that there is no quick-fix. We should not 
be discouraged by the hard work ahead of us. We must be willing to put 
in the commitment and sacrifice to get this right. Tampering with the 
natural flow of the Everglades has put our communities at risk for 
flood and drought, while simultaneously threatening the habitats of 
endangered and unique species. To simply call it quits because the task 
may be too daunting is not an option.
    Mr. Chairman, there is a reason that the Everglades project is as 
big as it is, and yet continually receives widespread bi-partisan 
support. In short, the Everglades is a national treasure that South 
Florida cannot survive without. Once again, I thank the Committee for 
this time and urge it to continue supporting Everglades restoration 
efforts.
                                 ______
                                 

    [A letter submitted for the record by Lee County Department 
of Community Development follows:]

                               LEE COUNTY

                           SOUTHWEST FLORIDA

                     BOARD OF COUNTY COMMISSIONERS

November 1, 2011

Hon. John Fleming, Chairman
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs
Committee on Natural Resources
U.S. House of Representatives
Washington, D.C. 20515

RE: Statement for the Record on CBRS Correction Measure H.R. 2154

Dear Mr. Chairman:

    On behalf of Lee County, Florida, we have reviewed the existing 
boundary of Coastal Barriers Resources System (CBRS) unit FL 70P and 
determined that it is not coincident with the boundary of the 
Gasparilla Island Park as intended. Rather the CBRS boundary is drawn 
to the east of the State Park boundary and erroneously includes 
approximately 5.2 acres of private land with 23 homes. As unit FL 70P 
is an Otherwise Protected Area (OPA), these developed private lands are 
not eligible for inclusion in a CBRS OPA. H.R. 2154, sponsored by 
Congressman Connie Mack IV, corrects this error and establishes a new 
FL 70P boundary that follows the State Park line and excludes the 
ineligible private, developed lands.
    We have determined that this change in the CBRS OPA boundary would 
not adversely affect Lee County or its protected resources. In a letter 
to the United States fish and Wildlife Service dated December 10, 2010, 
Lee County supported the revision to Map FL 70P. Lee County, by this 
letter to your committee, again supports such revision to Map FL 70P.
    Lee County therefore does not object to the boundary of the CBRS 
OPA being corrected to exclude the private property.
    Please include this letter in the hearing record on H.R. 2154.
    Thank you.

Sincerely,

DEPARTMENT OF COMMUNITY DEVELOPMENT
Robert Stewart
Building Official
                                 ______
                                 
    [A letter submitted for the record by James M. Wohl, Rafter 
Ranch, follows:]

                              RAFTER RANCH

House Natural Resources Committee
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs
United States House of Representatives
1324 Longworth House Office Building
Washington, DC 20515

Dear Chairman Fleming, Ranking Member Sablan and members of the 
Subcommittee:

    The Northern Everglades National Wildlife Refuge has great 
potential to protect and enhance the quality of Florida's environmental 
resources, the most significant of which is water.
    The perpetual preservation of contiguous working cattle ranches 
will protect natural vegetative communities, wildlife corridors, and 
provide natural retention and detention of storm water runoff.
    The public benefits from these working landscapes under private 
sector management and will be provided at a fraction of the costs that 
would otherwise be incurred.
    I would be happy to expound in more detail anytime you so desire. 
Please do not hesitate to contact me.

Sincerely,

JAMES M. WOHL
                                 ______
                                 

    [The letters submitted for the record by Ms. Hanabusa 
follow:]

    [A letter submitted for the record by The Kenneth Kirchman 
Foundation follows:]

Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs
United States House of Representatives
1324 Longworth House Office Building
Washington, D.C. 20515

Dear Chairman Fleming, Ranking Member Sablan and Members of the 
Subcommittee:

    As a landowner in a Conservation Focal Area in the U.S. Fish and 
Wildlife Service Everglades Headwaters National Wildlife Refuge and 
Conservation Area, the Kenneth Kirchman Foundation would like to 
express its strong support for this crucial program. The Kenneth 
Kirchman Foundation is a charitable organization that owns, manages, 
preserves, and operates the ``Lake X Property'' which is comprised of 
10,440 acres, almost 1,400 of which are taken up by Lake Conlin in 
Osceola County, Florida. (For your reference, the Lake X Property is 
circled on the attached Proposal Map). From the time Kenneth Kirchman 
purchased the property in 1983, he set a goal atypical of most 
landowners: to keep Lake X the same as it was 100 years ago, to 
preserve the beauty and history of this pristine location.
    Over the past several years, the area surrounding this property has 
seen tremendous growth and subsequent development. Neighboring 
development pressures combined with limited financial resources have 
caused the Foundation to seek alternative options. The Foundation sees 
the Everglades Headwaters National Wildlife Refuge and Conservation 
Area as a way to not only protect the Foundation's mission, but more 
importantly, as a crucial way to protect and improve water quality, 
water quantity and wildlife north of Lake Okeechobee.
    We understand that the economic climate is extremely tough, but we 
feel strongly that this project can truly make a difference in forever 
protecting and preserving the natural resources in the Kissimmee River 
Basin.

Sincerely,

The Kenneth Kirchman Foundation

Attachment

[GRAPHIC] [TIFF OMITTED] T1117.001

                                 
    [A letter submitted for the record by Michael L. Adams 
follows:]

November 1, 2011

House Natural Resources Committee
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs
United States House of Representatives
1324 Longworth House Office Building
Washington, D.C. 20515

Dear Chairman Fleming, Ranking Member Sablan and members of the 
Subcommittee:

    I am writing you to express our support for the Northern Everglades 
National Wildlife Refuge.
    Adams Ranch is a fourth generation cattle ranch with locations in 
St. Lucie, Okeechobee and Osceola counties. Our Osceola County ranch 
falls within the refuge boundaries. We support the Department of 
Interior's effort to protect and preserve the large working landscapes 
through conservation easements.
    Please let us know if you have any further questions.

Sincerely,

Michael L. Adams
                                 ______
                                 
    [A letter submitted for the record by Carlos M. Vergara, 
Managing Member, Venture Four, LLC, follows:]

                           VENTURE FOUR, LLC

                       7128 S.E. Rivers Edge Rd.

                         Jupiter, Florida 33458

November 2, 2011

House Natural Resources Committee
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

Chairman Fleming, Ranking Member Sablan and members of the 
Subcommittee:

    I am writing this letter in support of the Northern Everglades 
National Wildlife Refuge.
    Camp Lonesome Ranch is a working Cattle Ranch in Osceola County. 
The Ranch has within its borders the Headwaters of Lonesome Camp Swamp 
and the Headwaters of Bull Creek. With Florida's growing population, 
water will become a scarcer resource. Preserving the proposed acreage 
will provide water resources that would not be there if the land was to 
be developed.
    We fully support the Department of the Interior's proposed plan to 
protect and preserve through Conservation Easements this large 
landscape of Working Ranches.
    Please let us know if we can be of further assistance.

Carlos M. Vergara
Managing Member
                                 ______
                                 

     Statement submitted for the record by The Nature Conservancy 

    The Nature Conservancy wishes to thank the House Subcommittee on 
Fisheries, Wildlife, Oceans and Insular Affairs for the opportunity to 
submit this testimony for today's hearing record. The Conservancy 
strongly supports the U.S. Fish and Wildlife Service's (USFWS) proposed 
Everglades Headwaters National Wildlife Refuge & Conservation Area 
(EHNWR&CA) and looks forward to working with the Subcommittee and full 
House Natural Resources Committee on this proposal to conserve working 
landscapes within the Northern Everglades region and to advance the 
health and vitality of the entire Florida Everglades System.
    The Northern Everglades is one of the last frontiers for large-
scale land conservation in peninsular Florida. Through the EHNWR&CA 
proposal, we now have an unprecedented opportunity to protect and 
restore large portions of this important landscape and natural system.
    Extending some 170 miles from the outskirts of the Orlando 
metropolitan area, south through the Kissimmee River valley to Lake 
Okeechobee and southwest to the Big Cypress Preserve, is a vast region 
of intact habitat and working ranchlands-the Northern Everglades 
(Figure 1). The region comprises the headwaters of the Greater 
Everglades and is one of the great grassland and savanna landscapes of 
eastern North America, Still largely rural, the Northern Everglades 
watershed is a four million-acre mosaic of seasonally wet grasslands, 
longleaf pine savannas and working cattle ranches that sustains one of 
the most important assemblages of imperiled vertebrate wildlife in the 
southeastern United States and a large portion of the natural habitat 
remaining in peninsular Florida, including globally rare habitats.

[GRAPHIC] [TIFF OMITTED] T1117.002


    The region's vast cattle ranches hold great potential for 
protecting and connecting high quality habitat as well as providing 
ecosystem services that are critical to the hydrologic and ecological 
success of Everglades restoration. A well-managed ranch permanently 
protected under a conservation easement can provide most, if not all, 
of the same ecological functions as publically protected areas, and 
many ranches connect otherwise isolated tracts of public land for the 
Florida panther and black bear. In addition, the restorable seasonal 
wetland habitat in the Northern Everglades contributes to the 
functioning of the larger Everglades ecosystem, yet this type of 
habitat is largely absent from the Comprehensive Everglades Restoration 
Plan (CERP). As a result, the Conservancy believes the EHNWR&CA 
complements the ongoing work of the Army Corps of Engineers, Department 
of Interior and the State of Florida in implementing the 20-year 
objectives of the CERP as authorized by the Water Resources Development 
Act of 2000.

Northern Everglades--Wetlands Restoration and Dispersed Storage
    The Conservancy estimates that nearly one million acres of 
restorable wetlands occur on public and private lands in the Northern 
Everglades, representing tremendous potential for wetlands restoration 
and the services they provide. Restoring wetlands at scale provides not 
only habitat, but also other important ecological services that benefit 
the larger ecosystem and nearly eight million people who live in the 
Everglades watershed, Chief among those ecological services is the 
ability to store and slowly release large amounts of fresh water, thus 
allowing for a more natural hydrologic regime in the Everglades. Such 
dispersed storage options are increasingly seen as viable alternatives 
or complements to expensive engineered options, such as reservoirs and 
aquifer storage and recovery, and can contribute to storage required 
for CERP targets and help reduce nutrient concentrations. Wetlands 
restoration methods, pioneered at places like the Conservancy's Disney 
Wilderness Preserve, are straightforward, low-tech and relatively 
inexpensive, typically involving construction or modification of small 
water control structures, degrading small berms, or filling of ditches.
    The health of the Northern Everglades has a profound impact on the 
overall Everglades ecosystem and on water supply and flood control for 
the 4.5 million people in South Florida. Originally, vast amounts of 
water were stored in the lakes and wetlands north of Lake Okeechobee 
mitigating flooding and holding water in times of drought. But in more 
recent times, 400,000 acres of wetlands in the Northern Everglades have 
been ditched and drained for agriculture, and the Kissimmee River has 
been straightened and excavated to operate as a canal to convey flood 
waters. There has also been extensive development in the northern end 
of the system increasing short term runoff in the rainy season. The 
result is not only loss of valuable wetlands habitat, but disruption of 
hydrology and declining water quality in the entire basin.
    The Nature Conservancy has been working in the Northern Everglades 
for more than 20 years. The current Northern Everglades conservation 
project is a cooperative effort among the USFWS, the Natural Resources 
Conservation Service (MRCS), the South Florida Water Management 
District, the Department of Defense/Avon Park Air Force Range, the 
Florida Department of Agriculture and Consumer Services, the Florida 
Fish and Wildlife Conservation Commission, the National Wildlife Refuge 
Association and The Nature Conservancy.

EHNWR&CA Concept
    The concept for the proposed EHNWR&CA began with a conversation in 
2009 between USFWS and Nature Conservancy staff while touring a 
strategically located preserve owned by the Conservancy between the 
eastern flank of the Lake Wales Ridge and the southwestern shoreline of 
Lake Hatchineha. Because the preserve--Hatchineha Ranch--supports 
several high quality and endemic habitats (cutthroat grass-dominated 
Flatwoods, longleaf pine-dominated Mesic Flatwoods, Scrub and Sandhill) 
and numerous imperiled species (Florida scrub-jay, Snail kite, Swallow-
tailed kite, Florida panther and many species of rare plants), USFWS 
staff thought it an ideal property to extend the current Lake Wales 
Ridge NWR to the 'east to protect lands and waters encompassing the 
Kissimmee Chain of Lakes that are part of the headwaters of the 
Everglades ecosystem. Considering the fact that the State of Florida's 
premier land protection program, Florida Forever, is now able to 
provide fewer to no dollars for conservation of water and land 
resources in the region, the concept of a new refuge that would help to 
protect the origin of much of the Everglades water supply was 
initiated.
    Upon further study and analysis by the USFWS and partner 
organizations, it was determined that the protection of the significant 
natural and hydrological resources of the entire Kissimmee River basin 
was far from complete as envisioned by many planning efforts for the 
region and protection of additional lands in the Everglades' watershed 
was warranted. Not only would the proposed EHNWR&CA complement years of 
vital conservation efforts in the region by numerous public agencies 
(e.g., Florida Fish and Wildlife Conservation Commission, South Florida 
Water Management District) and private organizations (The Nature 
Conservancy's Disney Wilderness Preserve), but it would help to fill in 
the gaps and connect these already protected areas for wildlife, reduce 
the overall costs of management and allow water to more easily move 
across the landscape toward the Kissimmee River and Lake Okeechobee. 
Efforts directed at getting the water storage and seasonal timing needs 
of the hydrology north of Lake Okeechobee is seen as a necessary--and 
cost effective--complement to the years of restoration efforts of the 
Everglades system that exist south of Lake Okeechobee.
    A rigorous scientific analysis of the Kissimmee River basin has 
been undertaken by the USFWS and various state and federal agencies, as 
well as an array of private conservation partners, Much of the data 
utilized for the Preliminary Project Proposal and Draft LPP and EA were 
provided by the Florida Fish and Wildlife Conservation Commission, the 
University of Florida's GeoPlan Center and the Florida Natural Areas 
Inventory (part of Florida State University).
    Various remote sensing (e.g., Landsat),data were utilized, followed 
by the analysis of aerial photographs, coupled with known data and 
distributions for imperiled species and habitats. Landowner information 
was also used to determine inclusion of many of the lands identified. 
More information on the exhaustive methodology can be found in the 
Draft LPP and EA that can be accessed through the following link: 
http:I/www.fivs.govIsoutheast/evergladesheadwaters/.
    In contemplating and proposing the establishment of any new 
National Wildlife Refuge, the USFWS is bound by a series of strict 
requirements embodied in the National Environmental Policy Act (NEPA) 
as well as their authorizing and organic statutes including the 
National Wildlife Refuge Improvement Act, approved by Congress and 
enacted into law in 1997. The rigid NEPA process for the authorization 
and establishment of new refuges and conservation areas dictates that a 
Preliminary Project Proposal (PPP) be prepared and submitted to the 
general public and other governmental agencies for review. Such a PPP 
was prepared for the EHNWR&CA in late 2010 and widely disseminated for 
public comment, including four Public Scoping hearings held in the late 
winter/early spring of 2011. These hearings were held in towns within 
the area proposed for the new refuge, including Kissimmee, Sebring, 
Okeechobee and Vero Beach. Additionally, staff from the USFWS met with 
numerous private landowners and sportsman's groups throughout the 
region, Boards of several County Commissions, newspaper editorial 
boards and others. After the initial public comment period on the PPP, 
revisions were made--including a substantial reduction in the size of 
the area under consideration for the proposed refuge and the 
elimination of three large areas of multiple ownerships where some 
owners had expressed a desire not to be included in the boundary--and a 
Draft Land Protection Plan (LPP) and Environmental Assessment (EA) were 
released in early September of 2011. Two additional public hearings 
were held on these documents--in Avon Park and Kissimmee, both in the 
region of the proposed refuge and in facilities large enough to 
accommodate more than a thousand people each--on September 24, 2011, 
and on October 1, 2011, respectively. Although the public comment 
period on the Draft LPP and EA was scheduled to close on October 24, 
2011, it was extended for 30 days by the USFWS at the request of 
various sportsman groups.
    The primary source of funding for any new NWR is the federal Land 
and Water Conservation Fund (LWCF). The LWCF is authorized to receive 
$900 million annually, with the vast majority of that funding derived 
from offshore oil and gas leases (about 90% of that fund is from Outer 
Continental Shelf oil and gas leases), as well as proceeds from the 
disposal of surplus federal property. Additionally, some funds for new 
NWRs are derived from the North American Wetlands Conservation Act, 
which awards funds to wetlands conservation projects for the benefit of 
migratory birds and other wildlife, as well as the Migratory Bird 
``Duck Stamp'' program with funding derived from the annual sale of the 
federal Duck Stamp.
    Any lands, or rights therein, that are acquired by the USFWS within 
the future EHNWR&CA are from strictly willing landowners. It has been 
emphasized through the entire process of public hearings and in 
numerous meeting with landowners that any and all participation in the 
proposed refuge and conservation area is strictly voluntary. 
Additionally, landowners not participating in the new refuge, but that 
may have lands adjacent to or contiguous with lands that may become 
part of the new EHNWR&CA will not be subject to regulation or oversight 
by the USFWS or any other federal agency as part of this program.
    The establishment of the proposed EHNWR&CA has the support of 
numerous public agencies that are part of the Greater Everglades 
Partnership Initiative. Chief among those are the Florida Fish and 
Wildlife Conservation Commission and the Department of Defense. 
Concerning the latter, Avon Park Air Force Range (APAFR) sits near the 
center of the proposed refuge area and is actively supporting its 
establishment because of the need to buffer the base from incompatible 
encroachment that may jeopardize its continued mission. Indeed, APAFR 
supports a vital training mission for many air and ground troops that 
utilize the facility for gaining realistic training just prior to 
heading into harm's way overseas. To that end, the Department of 
Defense is engaged in the partnership including providing Readiness and 
Environmental Protection Initiative (REPI) funds to protect with a 
conservation easement lands within the general area of the refuge that 
will help to buffer the installation.
    A special effort has been made by the USFWS--one that grew out of 
the initial Public Scoping meetings (specifically in Sebring)--to work 
cooperatively with the Florida Fish and Wildlife Conservation 
Commission (FFWCC) to identify new opportunities for wildlife-dependent 
recreation within the EHNWR&CA. As part of these ongoing discussions, 
the Conservancy is supporting a Memorandum of Understanding between the 
USFWS and the FFWCC to ensure long-term management by the State of 
Florida of hunting, fishing and access opportunities on any fee lands 
acquired for the refuge. To this end, a meeting was held between 
agencies and sportsman's groups in Okeechobee on October 5, 2011, to 
discuss these opportunities and to help craft the MOU between the USFWS 
and the FFWCC that will formalize the arrangement. It is important to 
note that with this proposal will make available 50,000 new acres to 
sportsman's groups for hunting and fishing.
    Part of the specific--and publically stated--goal of the proposed 
refuge and conservation area will be to protect the ranching culture 
and heritage of the private lands in the Kissimmee Valley. Cattle 
ranches comprise one of the predominate land uses in the region and the 
USFWS and other partners will work with these landowners to protect 
sustainable agricultural operations that are important to the State of 
Florida's economy and overall national security through domestic food 
production. Fully two thirds of the proposed EHNWR&CA will be protected 
through lessthan-fee (i.e., conservation easements) arrangements with 
strictly willing landowners.
    Since many of the lands in the region encompassed by the EHNWR&CA 
are active cattle ranches, the greatest opportunity will be to protect 
these kinds of lands--particularly through conservation easements. It 
should be clear, however, that many of these ranches not only encompass 
improved pasture areas (that provide wildlife habitat benefits), but 
exist as a mosaic of intact, natural habitats with large blocks of 
native forest and grassland cover that support a large array of 
imperiled species, several of which are found nowhere else in the 
world. It has also been suggested that any fee lands acquired as part 
of the proposed refuge should be the highest quality and most intact 
lands that do not require expensive restoration of native habitats--
although some hydrological restoration will likely be undertaken--and 
thereby will keep management costs to a minimum (including grazing and 
public hunting as part of the overall management). Depending upon 
negotiations with willing sellers on the terms of conservation 
easements, some hydrological restoration may also occur on these 
private lands that, taken together, should prove both water storage and 
water quality benefits for the headwaters of the Everglades ecosystem.
    Since fully two thirds of all lands slated for proposed protection 
under the EHNWR&CA will be through conservation easements, the lands 
will be available to stay on the tax rolls, and under private 
management by their current owners. Additionally, any fee lands are 
likely to be scattered across several counties, so as to reduce the 
burden to any single governmental entity. It is also of significance 
that the USFWS makes payments in lieu of taxes (PILT) to counties/
municipalities that current payments show more than offset any lost 
property tax revenue (estimated in some areas by about 6:1), as well as 
helping counties avoid costly infrastructure for such lands and 
providing the potential for enhanced tourism and hunting/fishing 
revenues. The Conservancy is strongly supportive of efforts in this 
Congress to reauthorize this PILT Program, and has spent a great deal 
of time working with the sportsmen and outdoor recreation communities 
in recent years to identify and advocate for large landscape 
conservation opportunities, the vast majority with significant long-
term economic benefits for small, rural communities via new public 
access and recreation opportunities.
    Information gathered from several landowners by The Nature 
Conservancy also show that many of these agricultural (i.e., green belt 
exemptions) pay far less in property taxes than various county 
commissions claim might be lost if these lands are actually taken off 
the tax rolls. Here is a sample of those data: 1) For a 30,000+ acre 
ranch in Osceola County, they pay total annual property taxes of about 
$75,000 (including house valuations, fire rescue MSBU and personal 
property tax). This comes to about $2.40 per acre. Even if 50,000 acres 
came off the tax roll it would only amount to about $120,000 per year 
for that county (but, again, would be more than made up by the PILT); 
2) For about a 4,600 acre ranch (includes house and structures on 
property) also in Osceola County they pay $8,572 which equates to $1.86 
per acre. Assuming that all 50,000 acres were in Osceola County, this 
would translate to a loss of $93,000. This is very different from an 
$800,000 figure being discussed at a recent Osceola County Board of 
County Commissioners meeting; 3) For an approximately 7,700 acre ranch 
in Okeechobee County, the total tax paid by the ranch was just under 
$35,000 and averaged between $1.33 and $1.40 per acre of vacant land 
(excluding a large house, stables and other infrastructure/facilities).
    At the current time, numerous large and well-established 
landowners, mostly cattle ranchers, in the Northern Everglades area 
support the EHNWR&CA and are willing to participate in its 
establishment. The Nature Conservancy has obtained ``willing seller'' 
letters from 15 landowners in the region and these have been presented 
to the USFWS for inclusion in the public record. As well, we know of at 
least two additional large landowners--who while declining to provide 
The Nature Conservancy with letters--are willing to participate in the 
sale or partial sale of rights (i.e., conservation easements) to the 
USFWS for the proposed refuge and conservation area,

Conclusion
    In summary, The Nature Conservancy strongly supports and endorses 
the proposed EHNWR&CA and is working with a variety of governmental and 
non-governmental partners (e,g. private landowners) to ensure the 
establishment and success of the refuge. We also believe the Draft LPP 
and EA are well crafted and that an excellent case is made within each 
for the protection of the ecologically significant and diverse natural 
resources of the Kissimmee River Valley and Chain of Lakes. We 
therefore strongly support adoption of Alternative C--the Conservation 
Partnership Approach--as the proposed action as detailed in the Draft 
EA and put forward in the Draft LPP with the following four primary 
recommendations:
        1.  Land protection should focus on highest quality habitats 
        and landscape connectivity between Three Lakes WMA and 
        Kissimmee Prairie Preserve State Park, as well as the western 
        side of the Chain of Lakes and Lake Kissimmee from the Disney 
        Wilderness Preserve to the Avon Park Air Force Range.
        2.  Land protection, both fee simple and less-than-fee, should 
        focus on intact habitats and working lands with the highest 
        percentage of natural lands that best accomplish the landscape-
        scale objectives for the refuge and conservation area. 
        Properties that are highly improved or that do not accomplish 
        landscape connectivity goals should be afforded secondary 
        priority.
        3.  Fee simple acquisition for the refuge lands should focus on 
        the highest quality lands throughout the project area so that 
        the public will be able to enjoy first-class outdoor 
        recreational experiences--including hunting opportunities on 
        lands with abundant game species--on some of the finest natural 
        areas that Central Florida has to offer.
        4.  The USFWS's identification of public access opportunities 
        within the EHNWR&CA--consistent with the compatible uses of the 
        refuge system and in close coordination with the State of 
        Florida and local communities--is an important objective to 
        ensure the longterm success of this landscape initiative,
    We further believe the EIINWR&CA complements the ongoing CERP 
efforts and the work of the Army Corps of Engineers, Department of 
Interior and State of Florida to implement the CERP. We believe both 
efforts and their long-term strategies lead to an enhanced restoration 
program for the Greater Everglades ecosystem.
    Thank you for this opportunity to submit testimony for the hearing 
record.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
